<html>
<title> - THE CURRENT STATE OF DHS'S EFFORTS TO SECURE FEDERAL NETWORKS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
     THE CURRENT STATE OF DHS'S EFFORTS TO SECURE FEDERAL NETWORKS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                           CYBERSECURITY AND
                       INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

                           Serial No. 115-10

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                               
                               
                               
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-908 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

      SUBCOMMITTEE ON CYBERSECURITY AND INFRASTRUCTURE PROTECTION

                    John Ratcliffe, Texas, Chairman
John Katko, New York                 Cedric L. Richmond, Louisiana
Daniel M. Donovan, Jr., New York     Sheila Jackson Lee, Texas
Mike Gallagher, Wisconsin            James R. Langevin, Rhode Island
Clay Higgins, Louisiana              Val Butler Demings, Florida
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Brian K. Fitzpatrick, Pennsylvania       (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
               Brett DeWitt, Subcommittee Staff Director
            K. Christopher Schepis, Minority Staff Director
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Cybersecurity 
  and Infrastructure Protection:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity and Infrastructure Protection:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     9

                               Witnesses

Ms. Jeanette Manfra, Acting Deputy Under Secretary for 
  Cybersecurity, National Protection and Programs Directorate, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Gregory C. Wilshusen, Director, Information Security Issues, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    17
  Prepared Statement.............................................    18
Mr. Chris A. Jaikaran, Analyst, Cybersecurity Policy, 
  Congressional Research Service, Library of Congress:
  Oral Statement.................................................    25
  Prepared Statement.............................................    26

                                Appendix

Questions From Chairman John Ratcliffe for Jeanette Manfra.......    41
Questions From Ranking Member Cedric L. Richmond for Jeanette 
  Manfra.........................................................    46
Questions From Honorable James R. Langevin for Jeanette Manfra...    50
Questions From Honorable Val Demings for Jeanette Manfra.........    54
Questions From Chairman John Ratcliffe for Gregory C. Wilshusen..    57
Questions From Honorable James Langevin for Gregory C. Wilshusen.    59
Questions From Chairman John Ratcliffe for Chris Jaikaran........    60


     THE CURRENT STATE OF DHS'S EFFORTS TO SECURE FEDERAL NETWORKS

                              ----------                              


                        Tuesday, March 28, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Cybersecurity and 
                                 Infrastructure Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. John Ratcliffe 
(Chairman of the subcommittee) presiding.
    Present: Representatives Ratcliffe, McCaul, Katko, Donovan, 
Gallagher, Fitzpatrick, Richmond, Thompson, Jackson Lee, 
Langevin, and Demings.
    Mr. Ratcliffe. Good morning. The Committee on Homeland 
Security Subcommittee on Cybersecurity and Infrastructure 
Protection will come to order. The subcommittee is meeting 
today to receive testimony regarding the current state of the 
Department of Homeland Security's efforts to secure Federal 
networks. I recognize myself for an opening statement.
    I see cybersecurity as one of the preeminent domestic and 
National security policy challenges of our generation. As the 
Chairman of the Cybersecurity and Infrastructure Protection 
Subcommittee, I feel especially grateful for the opportunity to 
work with other Members on this panel to have a direct impact 
on the cybersecurity posture of our country.
    This is a duty that we do not take lightly. Oftentimes, the 
American people hear about committees performing oversight. 
They think there is this misguided perception that we are 
simply performing a routine check-up, taking the temperature, 
if you will, and then moving on.
    That mindset isn't what compels us to meet here today. 
Today's oversight is one of committed on-going engagement. 
Securing Federal networks is, and rightfully should be, one of 
the central priorities of this subcommittee, of this committee, 
of this Congress, and for the American people.
    While today's hearing represents a small public-facing 
sliver of this engagement, my commitment to all stakeholders 
impacted by this important issue is that our continued efforts 
to improve the security of our Federal networks will be 
conducted in a manner that fully recognizes the seriousness of 
the threats posed by our cyber adversaries. While the stakes 
are indeed high, this subcommittee is uniquely positioned to be 
part of the solution.
    After all, the Department of Homeland Security is required 
by law to play a vital and central role in the Federal 
Government's policy, procedures, and operations for 
cybersecurity of our Federal agencies.
    Specifically, DHS is entrusted with carrying out important 
legislative priorities established by the Cybersecurity Act of 
2015 and the Federal Information Security Modernization Act of 
2014, often referred to as FISMA.
    Ensuring the effective execution of the Department's 
cybersecurity initiatives has never been more important than it 
is today. Just last week, the committee heard from a panel of 
experts about the evolving cyber landscape.
    Retired General and National Security Advisor Keith 
Alexander, noted ``Our increasing reliance on digital connected 
devices means that, while tanks, bombers, and fighter jets are 
certainly not obsolete, there are newer and perhaps more 
insidious ways of having similar effects without the need for a 
large investment that those assets require.''
    Bad actors are continuing to compromise the network 
security of both the public and the private sectors at an 
alarming rate. From nation-states like Russian, China, Iran, 
and North Korea and criminal organizations, our systems are 
regularly attacked, and the Federal Government must be more 
effectively and more efficient in anticipating these threats 
and do a better job of protecting itself and the vast troves of 
sensitive information on its networks.
    According to law, DHS is required to provide intrusion 
detection and prevention capabilities to Federal agencies and 
to work with the Office of Management and Budget to administer 
the implementation of agency information security policies and 
practices. The Department must include advanced network 
security tools in its efforts to continuously diagnose and 
mitigate cybersecurity risks.
    Additionally, DHS has the authority to issue binding 
operational directives to Federal agencies in order to 
safeguard Federal information and information systems. The 
Department's perimeter defense capabilities, known as EINSTEIN, 
have progressed from monitoring to detection to actual 
prevention capabilities.
    A pilot is under way to examine detection technologies 
beyond signature-based detection, as required by the 
Cybersecurity Act of 2015. While questions about the time line 
of full deployment of the Continuing Diagnostics and Mitigation 
program, or CDM, phases loom, breaking down initial barriers to 
provide agencies with real-time situational awareness and risk-
based accountable information is imperative to our Federal 
cybersecurity efforts.
    I look forward to hearing from our witnesses today about 
the current status of these programs and how they will provide 
greater security for Federal information technology systems, 
when they are fully deployed.
    In today's ever-changing cyber threat landscape, we need to 
ensure that these programs are agile enough to keep pace with 
the cybersecurity needs of our Federal agencies.
    We need to ensure that DHS is properly leveraging private-
sector innovation and is able to quickly adopt cutting-edge 
technologies. We need to ensure that there is a comprehensive 
strategy in place, not only to engage every Executive branch 
agency and Department, but also to ensure coordinated 
deployment.
    The Federal Government requires the American people to 
submit sensitive information to its care, private financial 
information to the IRS, personal medical records to Medicare or 
to the VA. We often adopt a trust-us approach, but if we 
require that, then I firmly believe we must take serious steps 
to demonstrate our trustworthiness with that information.
    I look forward to a productive conversation with this 
distinguished panel of witnesses. Working together, we can 
continue to strengthen DHS's cyber capabilities to secure our 
Federal networks.
    [The statement of Chairman Ratcliffe follows:]
                  Statement of Chairman John Ratcliffe
                             March 28, 2017
    I see cybersecurity as one of the pre-eminent domestic and National 
security policy challenges of our generation, and as the Chairman of 
the Cybersecurity and Infrastructure Protection Subcommittee I feel 
especially grateful for the opportunity to work with the other Members 
on this panel to have a direct impact the cybersecurity posture of our 
country. It's a duty we do not take lightly.
    Oftentimes when the American people hear about committees 
performing oversight, there's a misguided perception that we're simply 
performing a routine check-up, taking the temperature if you will, and 
then moving on.
    That mindset is not what compels us to meet here today.
    Today's oversight is one of committed, on-going engagement. 
Securing Federal networks is--and rightfully should be--one of the 
central priorities of this subcommittee, of this Congress, and for the 
American people. While today's hearing represents a small, public 
facing sliver of this engagement, my commitment to all stakeholders 
impacted by this important issue is that our continued efforts to 
improve the security of Federal networks will be conducted in a manner 
that fully recognizes the seriousness of the threats posed by our cyber 
adversaries. And while the stakes are indeed high, this subcommittee is 
uniquely positioned to be part of the solution.
    After all, the Department of Homeland Security is required, by law, 
to play a vital and central role in the Federal Government's policies, 
procedures, and operations for the cybersecurity of our Federal 
agencies.
    Specifically, DHS is entrusted with carrying out important 
legislative authorities established in the Cybersecurity Act of 2015 
and Federal Information Security Modernization Act of 2014.
    Ensuring the effective execution of the Department's cybersecurity 
initiatives has never been more important than it is today. Just last 
week, the committee heard from a panel of experts about the evolving 
cyber threat landscape. Retired General Keith Alexander noted, ``Our 
increasing reliance on digital, connected devices means that while 
tanks, bombers, and fighter jets are certainly not obsolete, there are 
newer and perhaps more insidious ways of having similar effects without 
the need for the large investment that those assets require.''
    Bad actors continue to compromise the network security of both the 
public and private sectors at an increasingly alarming rate. From 
nation-states like Russia, China, Iran, and North Korea and criminal 
organizations our systems are regularly attacked and the Federal 
Government must more effectively and efficiently anticipate these 
threats and do a better job protecting itself and the vast troves of 
sensitive information on its networks.
    According to law, DHS is required to provide intrusion detection 
and prevention capabilities to Federal agencies and work with the 
Office of Management and Budget to administer the implementation of 
agency information security policies and practices. The Department must 
include advanced network security tools in its efforts to continuously 
diagnose and mitigate cybersecurity risks. Additionally, DHS has the 
authority to issue Binding Operational Directives to Federal agencies 
in order to safeguard Federal information and information systems.
    The Department's perimeter defense capabilities, known as Einstein, 
have progressed from monitoring, to detection, to actual prevention 
capabilities. A pilot is under way to examine detection technologies 
beyond signature-based detection, as required in the Cybersecurity Act 
of 2015. And, while questions about the time line for full deployment 
of Continuous Diagnostics and Mitigation Program--or CDM--phases loom, 
breaking down the initial barriers to provide agencies with real-time 
situational awareness and risk-based accountable information is 
imperative to our Federal cybersecurity efforts.
    I look forward to hearing from our witnesses today about the 
current status of these programs and how they will provide greater 
security for Federal information technology systems when fully 
deployed.
    In today's ever-changing cyber threat landscape we need to ensure 
that these programs are agile enough to keep pace with the 
cybersecurity needs of Federal agencies. We need to ensure DHS is 
properly leveraging private-sector innovation and is able to quickly 
adopt cutting-edge technologies. We need to ensure that there is a 
comprehensive strategy in place, not only to engage every Executive 
branch agency and Department but also to ensure coordinated deployment.
    The Federal Government requires the American people to submit 
sensitive information to its care--private financial information to the 
IRS, personal medical records to Medicare or the VA. We often adopt a 
``trust-us'' approach. But if we require that, then I firmly believe we 
must take serious steps to demonstrate our trustworthiness.
    I look forward to a productive conversation with our distinguished 
panel of witnesses. Working together we can continue to strengthen 
DHS's cyber capabilities to secure Federal networks.

    Mr. Ratcliffe. The Chair now recognizes the Ranking 
Minority Member of our subcommittee, the gentleman from 
Louisiana, Mr. Richmond, for his opening statement.
    Mr. Richmond. Thank you Mr. Chairman. Thank you to the 
Chairman of the full committee and the Ranking Member of the 
full committee for being here.
    I want to begin by thanking you for holding this hearing on 
one of our Nation's most pressing homeland security challenges, 
and that is securing the dot-gov domain.
    Americans rely on Federal agencies to safeguard some of our 
most sensitive National data, from health records and Social 
Security numbers, to intelligence and information on our troop 
movements. This information may be exposed or exploited by 
something as simple as a careless employee or a failure to 
patch a known vulnerability.
    This information can just as easily be taken or altered by 
criminal networks and, as we discussed last week in this 
committee, state-sponsored hackers. The Russian attacks this 
past year on our democratic processes and political 
institutions are a salient reminder of the damage state 
adversaries, like Russia, can inflict.
    Just last year, the GAO surveyed agencies with high-impact 
systems, those that hold information so sensitive that a breach 
could cause catastrophic harm to individuals, the Government, 
or the Nation. The survey showed that cyber attacks from state 
actors represented the most serious and frequent threat these 
agencies faced.
    This same team of GAO analysis, one of whom we have with us 
today, revealed that from 2006 to 2015, the number of cyber 
attacks on Federal agencies went from about 5,500 per year to 
77,000. That is a 1,300 percent increase.
    We also know that our Government networks have not only 
been targeted, they have also been infiltrated. Successful 
cyber attacks have been carried out against the Office of 
Personnel Management, the Internal Revenue Service, and the 
Departments of State, Defense, Veteran Affairs, and Health and 
Human Services, just to name a few.
    To be clear, there is no one-size-fits-all or a silver 
bullet for securing Federal networks. That said, there are some 
positive signs that current efforts may be having an impact.
    A recent report from the Office of Management and Budget 
shows that over the last year the number of cyber attacks on 
the United States Government networks have gone down, not up, 
for the first time in a decade.
    I am also interested to hear from DHS and GAO on the extent 
to which this downward trend may be attributable, at least in 
part, to greater adoption of the EINSTEIN program by Federal 
agencies.
    I also look forward to hearing from this panel about how 
DHS is working with its Federal partners to deliver 
cybersecurity services that are valuable, affordable, and 
effective.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Richmond follows:]
              Statement of Ranking Member Cedric Richmond
                             March 28, 2017
    Americans rely on Federal agencies to safeguard some of our most 
sensitive National data--from health records and Social Security 
Numbers to intelligence and information on troop movements.
    This information may be exposed or exploited by something as simple 
as a careless employee or a failure to patch a known vulnerability.
    This information can just as easily be taken or altered by criminal 
networks and--as we discussed last week in this committee--state-
sponsored hackers.
    The Russian attacks this past year on our democratic processes and 
political institutions are a salient reminder of the damage state 
adversaries like Russia can inflict.
    Just last year, GAO surveyed agencies with ``high-impact'' 
systems--those that hold information so sensitive that a breach could 
cause catastrophic harm to individuals, the Government, or the Nation. 
The survey showed that cyber attacks from state actors represented the 
most serious and frequent threat these agencies faced.
    This same team of GAO analysts, one of whom we have with us today, 
revealed that from 2006 to 2015, the number of cyber attacks on Federal 
agencies went from about 5,500 per year to over 77,000--a 1,300% 
increase.
    We also know that our Government networks have not only been 
targeted, they have also been infiltrated.
    Successful cyber attacks have been carried out against the Office 
of Personnel Management, the Internal Revenue Service, and the 
Departments of State, Defense, Veterans Affairs, and Health and Human 
Services, to name just a few.
    To be clear, there is no one-size-fits-all, ``silver bullet'' for 
securing Federal networks.
    That said, there are some positive signs that current efforts may 
be having an impact. A recent report from the Office of Management and 
Budget shows that, over the last year, the number of cyber attacks on 
U.S. Government networks has gone down--not up--for the first time in a 
decade.
    I am also interested to hear from DHS and GAO on the extent to 
which this downward trend may be attributable, at least in part, to 
greater adoption of the EINSTEIN program by Federal agencies.
    I look forward to hearing from this panel about how DHS is working 
with its Federal partners to deliver cybersecurity services that are 
valuable, affordable, and effective.

    Mr. Ratcliffe. Thank the gentleman.
    The Chair now recognizes the Chairman of our full 
committee, my colleague from Texas, Mr. McCaul, for an opening 
statement.
    Chairman McCaul. Thank you, Mr. Chairman and Ranking 
Member. I want to thank the subcommittee for the good work that 
you have been doing, not only last Congress, but I know we have 
a lot of work to do in this Congress. I look forward to that.
    Just last week, our committee heard from top former cyber 
and National security officials, including General Keith 
Alexander, that we must rise to the challenge in combatting 
growing cyber risk, and that we must up our game on our 
defense. We heard about the wide range of cyber threats we face 
from nation-states, hacktivists, and criminals.
    Russia meddled in the 2016 Presidential election and 
Russian intelligence agents were indicted in the massive breach 
of Yahoo. North Korea attacked Sony Pictures. Iran hit the 
financial sector.
    China continues to be one of the Nation's top cybersecurity 
threats. As we all remember in 2015, Chinese hackers stole 20 
million security clearances, including my own, and many in this 
room, in a breach at the Office of Personnel Management.
    Recently, the alleged hack of the CIA has WikiLeaks 
publishing over 8,000 pages of documents with some of the most 
highly sensitive cyber weapons.
    These blinking red alarms are the reason we are here today. 
We need to ensure that our Federal departments and agencies are 
properly defended from attacks. We do not have time to wait.
    Over the last several years, I have championed a number of 
bills out of this committee that put DHS in the lead for 
operational control and to operationally secure the dot-gov 
domain, helping to better protect critical infrastructure, 
hiring cyber talent at MPPD, being the hub for the cyber threat 
information sharing and providing voluntary assistance to the 
private sector.
    In late 2015, the Cybersecurity Act became law, and 
included language authorizing DHS to deploy intrusion detection 
and prevention capabilities and to support its continuous 
diagnostics and mitigation endeavors across the Federal 
civilian enterprise.
    This law requires Federal agencies to utilize the intrusion 
detection and prevention capabilities. At the end of last year, 
the Department announced it was providing cybersecurity 
services to 93 percent of the Executive branch's civilian work 
force.
    But perimeter detection is only one part of what needs to 
be a larger part and more holistic defense-in-depth strategy 
and architecture. DHS must adopt an entire suite of tools and 
technologies while ensuring its capabilities are keeping up 
with the evolving cyber threats that we discussed at last 
week's hearing.
    As I mentioned last week, this committee will be moving 
legislation soon to create a stronger, consolidated 
cybersecurity agency at the Department of Homeland Security.
    This proposal will elevate the cybersecurity mission at DHS 
at a critical time and further enhance cyber operations, 
including those to more effectively secure Federal networks. 
This will help step up our cyber defense efforts and attract 
top talent, as we have already begun to work with DHS and 
others to make that a reality.
    So I want to thank the Chair and Ranking Member for holding 
this hearing. I look forward to seeing the testimony. With 
that, I yield back.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             March 28, 2017
    I look forward to hearing from our witnesses today on this 
essential aspect of the DHS cybersecurity mission, protecting our 
Federal civilian networks.
    Just last week, our Committee heard from top former cyber and 
National security officials, including General Keith Alexander, that we 
must rise to the challenge in combating growing cyber risks and that we 
must up our game on defense.
    We heard about the wide range of cyber threats we face from nation-
states, hacktivists, and criminals.
    Russia meddled in the 2016 Presidential election and Russian 
intelligence agents were indicted in the massive breach of Yahoo.
    North Korea attacked Sony pictures.
    Iran hit the financial sector.
    China continues to be one of the Nation's top cybersecurity threats 
and, as we all remember, in 2015, Chinese hackers stole 20 million 
security clearances--including my own--in a breach of the Office of 
Personnel Management.
    And, recently, the alleged hack of the CIA has Wikileaks publishing 
over 8,000 pages of documents with some of the most highly sensitive 
cyber weapons.
    These blinking red alarms are the reason we are here today. We need 
to ensure that our Federal departments and agencies are properly 
defended from attacks; we do NOT have time to wait.
    Over the last several years, I have championed a number of bills 
that put DHS in the lead for operationally securing the ``dot-gov'' 
domain, helping to better protect critical infrastructure, hiring cyber 
talent at NPPD, being the hub for cyber threat information sharing, and 
providing voluntary assistance to the private sector.
    In late 2015, the Cybersecurity Act became law and included 
language authorizing DHS to deploy intrusion detection and prevention 
capabilities and to support its continuous diagnostics and mitigation 
endeavors across the Federal civilian enterprise.
    The law requires Federal agencies to utilize the intrusion 
detection and prevention capabilities and at the end of last year, the 
Department announced it was providing cybersecurity services to 93 
percent of the Executive branch's civilian workforce.
    But perimeter detection is only one part of what needs to be a 
larger and more holistic defense-in-depth strategy and architecture.
    DHS must adopt an entire suite of tools and technologies while 
ensuring its capabilities are keeping up with the evolving cyber 
threats that we discussed at last week's cyber threat hearing.
    As I mentioned last week, this committee will be moving legislation 
soon to create a stronger, consolidated cybersecurity agency at the 
Department of Homeland Security. This proposal will elevate the 
cybersecurity mission at DHS and further enhance cyber operations, 
including those to more effectively secure Federal networks.
    This will help us step up our cyber defense efforts and attract top 
talent.
    And we have already begun to work with DHS and others to make that 
a reality.
    Today, I hope to hear from DHS about how it is working to protect 
our Federal departments and agencies from these sophisticated cyber 
threats and what more assistance may be needed. As I'm sure everyone 
here can agree, we cannot afford another OPM-style breach, we must 
better ensure our Nation's most sensitive information is protected 
without any delay.

    Mr. Ratcliffe. Thank you, Chairman.
    The Chair now recognizes the Ranking Minority Member of the 
full committee, the gentleman from Mississippi, Mr. Thompson 
for his opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. I welcome 
a suite of witnesses here today, and I look forward to their 
testimony.
    Cyber attacks against Federal networks and the Nation have 
been increasing in frequency in recent years with high-profile 
breaches of Federal systems at the White House, State 
Department, Veteran Affairs, and the Office of Personnel 
Management.
    These breaches, many of which are believed to be carried 
out at the direction of state actors, have called into question 
the ability of the Federal Government to adequately secure its 
data and network.
    For instance, there was a massive OPM breach that occurred 
2 years ago. In that attack, the personnel records of at least 
22 million people were stolen.
    These records included very sensitive and personal 
information about not just Federal employees and contractors, 
but also about their families and friends. Hackers believed to 
be working for the Chinese government carried out this 
malicious attack.
    Last week, the committee heard from National security 
experts about the growing and gathering threat posed by State 
actors, most notably China, Iran, North Korea, and Russia.
    I was struck, however, by the testimony of Dr. Frank 
Cilluffo, from the George Washington University, who 
characterized the threats posed by these countries in the 
following way. ``Russia is the most capable. China is very 
active in computer network export or espionage activity. And 
North Korea and Iran are the most likely to turn to computer 
networks attacks to damage our systems.''
    With respect to Russia, the threat posed by Vladimir Putin 
has become a kitchen table topic. Americans want to know more 
about the cyber hacking and influence operation that Putin 
directed against our democracy in the lead-up to the 2016 
elections.
    They also want to know if there are any collusion between 
U.S. person and Russian operatives, to carry out what FBI 
Director James Comey has called a ``successful operation.''
    These are not minor or trivial concerns. The Russians, as 
Director Comey has determined, are proud to have sown doubt 
about the nature of our democratic process and because they 
were successful, he warned that they will be back.
    Mr. Chairman, I was pleased to hear you acknowledge at last 
week's hearing, that these actions by Russia were an invasion 
of the privacy of citizens and that they undermined our 
democratic institution and elections.
    Given that the House Intelligence Committee's bipartisan 
inquiry seems to be unraveling at the hands of its Chairman, 
now is the time for Members of Congress, regardless of party, 
to stand together in support of a nonpartisan commission, one 
akin to the 
9/11 Commission.
    Turning back to the witnesses before us today, I look 
forward to hearing from the panel on how DHS is progressing in 
its Federal cybersecurity role and what more can be done within 
DHS and across the Federal Government to better mitigate, 
respond to, and recover from attacks on Federal information 
systems.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 28, 2017
    Cyber attacks against Federal networks and the Nation have been 
increasing in frequency in recent years, with high-profile breaches of 
Federal systems at the White House, State Department, Veterans Affairs, 
and the Office of Personnel Management (OPM).
    These breaches, many of which are believed to be carried out at the 
direction of state actors, have called into question the ability of the 
Federal Government to adequately secure its data and networks.
    For instance, there was the massive OPM breach that occurred 2 
years ago. In that attack, the personnel records of at least 22 million 
people were stolen. These records included very sensitive and personal 
information about not just Federal employees and contractors but also 
about their families and friends. Hackers believed to be working for 
the Chinese government carried out this malicious attack.
    Last week, the committee heard from National security experts about 
the growing and gathering threat posed by state actors--most notably 
China, Iran, North Korea, and Russia. I was struck by the testimony of 
Dr. Frank Cilluffo from the George Washington University who 
characterized the threats posed by these countries in the following 
way--``Russia is the most capable, China is very active in computer 
network exploit or espionage activity,'' and North Korea and Iran are 
the most likely ``to turn to computer network attacks'' to damage our 
systems.
    With respect to Russia, the threat posed by Vladmir Putin has 
become a ``kitchen table'' topic. Americans want to know more about the 
cyber hacking and influence operation that Putin directed against our 
democracy in the lead up to the 2016 election.
    They also want to know if there was any collusion between U.S. 
persons and Russian operatives to carry out what FBI Director James 
Comey has called a ``successful'' operation. These are not minor or 
trivial concerns. The Russians, as Director Comey has determined, are 
proud to have ``sowed doubt about the nature of our democratic 
process'' and because they were successful, he warned that ``they'll be 
back.''
    Mr. Chairman, I was pleased to hear you acknowledge at last week's 
hearing that these actions by Russia were an invasion of the privacy of 
citizens and that they undermined our democratic institutions and 
elections.
    Given that the House Intelligence Committee's bipartisan inquiry 
seems to be unraveling at the hands of its Chairman, now is the time 
for Members of Congress-- regardless of party--to stand together in 
support of a non-partisan commission, one akin to the 9/11 commission.
    Turning back to the witnesses before us today, I look forward to 
hearing from the panel on how DHS is progressing in its Federal 
cybersecurity role and what more can be done within DHS and across the 
Federal Government to better mitigate, respond to, and recover from 
attacks on Federal information systems.

    Mr. Ratcliffe. Thank the gentleman. Other Members of the 
committee are reminded that opening statements may be submitted 
for the record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                             March 28, 2017
    Chairman Ratcliffe and Ranking Member Richmond, thank you for 
convening this opportunity for the Homeland Security Committee 
Subcommittee on Cybersecurity & Infrastructure Protection to review 
``The Current State of DHS's Efforts to Secure Federal Networks.''
    Today's hearing will give Members of the Committee an opportunity 
to hear from individuals inside of the Department of Homeland Security 
(DHS), the Government Accountability Office; the Congressional Research 
Service.
    I thank today's witnesses:
  <bullet> Jeanette Manfra, Deputy Under Secretary for Cybersecurity 
        and Communications (Acting), National Programs & Protection 
        Directorate, Department of Homeland Security;
  <bullet> Gregory Wilshusen, Director, Information Security Issues, 
        Government Accountability Office; and
  <bullet> Chris Jaikaran, Cybersecurity Analyst, Congressional 
        Research Service (Democratic Witness).
    Today's hearing will also give Members an opportunity learn more 
about DHS's work to create a common security baseline across Federal 
civilian agencies.
    This hearing will also provide an update on the operating an 
intrusion prevention and detection service known as EINSTEIN, which is 
designed to insulate Federal networks from attacks and gather threat 
intelligence.
    In the first few weeks of this Congress, I introduced a number of 
measures on the topic of cybersecurity to address gaps in our Nation's 
cyber defensive posture:
  <bullet> CAPITALS Act--H.R. 54--legislation seeking a report on the 
        feasibility of developing a DHS Civilian Cyber Defense National 
        Resource to protect our Nation's critical infrastructure in the 
        event of a terrorist cyber attack;
  <bullet> SCOUTS Act--H.R. 940--a bill to secure public utilities from 
        terrorist threats;
  <bullet> SAFETI Act--H.R. 950--directs the Secretary of DHS to 
        provide a report on the agency's response to the Russian attack 
        against our Nation's election system;
  <bullet> Terrorism Prevention and Critical Infrastructure--H.R. 945; 
        and
  <bullet> The Cybersecurity and Federal Workforce Enhancement Act--
        H.R. 935.
    CAPITALS Act--H.R. 54, directs that the Department of Homeland 
Security (DHS) must report to Congress regarding the feasibility of 
establishing a DHS Civilian Cyber Defense National Resource.
    The report provided by the CAPITALS Act will address:
  <bullet> the number of persons who would be needed to defend the 
        critical infrastructure of the United States from a cyber 
        attack or man-made intentional or unintentional catastrophic 
        incident;
  <bullet> elements of DHS that would be best equipped to recruit, 
        train, and manage such a resource;
  <bullet> resources that could be pre-positioned and training that 
        could be instilled to assure responsiveness if an incident 
        disrupts communications in a region or area;
  <bullet> the impact of potential recruits' lack of experience in 
        military, intelligence, law enforcement, or Government work 
        experience;
  <bullet> logistics of allowing Governors to make requests of DHS to 
        use such a resource in States during times of cyber emergency; 
        and
  <bullet> whether a resource trained to defend U.S. networks in a 
        major attack or natural or man-made disaster will benefit 
        overall efforts to defend the interests of the United States.
    H.R. 940, the ``Securing Communications of Utilities from Terrorist 
Threats'' or the ``SCOUTS Act,'' directs the Secretary of Homeland 
Security, in coordination with the sector-specific agencies, to work 
with critical infrastructure owners and operators and State, local, 
Tribal, and territorial entities to seek voluntary participation in a 
dialogue with DHS on how the agency can best assist Critical 
Infrastructure's defense against and recover from terrorist attacks.
    H.R. 950, requires a report and assessment regarding Department of 
Homeland Security's response to terrorist threats to Federal elections. 
The Comptroller General of the United States is directed to conduct an 
assessment of the effectiveness of Department of Homeland Security 
actions to protect election systems from cyber attacks and to make 
recommendations for improvements to the actions taken by DHS if 
determined appropriate.
    H.R. 935, The ``Cybersecurity and Federal Workforce Enhancement 
Act'' identifies and trains people already in the workforce who can 
obtain the skills to address our Nation's deficit in the number of 
workers and positions available for those with needed skills.
    On June 4, 2015, Office of Personnel Management announced that it 
would be notifying over 4 million current and former Federal employees 
of a data breach thought to be committed by Chinese hackers.
    OPM officials said that the hacking exposed employee's job 
assignments, performance, and training.
    It was later disclosed that the hackers also gained access to 
``background or clearance investigations'' data.
    In February 2016, it was reported in the Hill that personal 
information on 9,000 DHS employees was published on-line.
    The information posted on the internet includes names, job titles, 
email addresses, and phone numbers of employees.
    The hacker said they obtained the data by ``compromising the email 
account'' of an employee in the Department of Justice.
    The security of civil agency networks should be of the greatest 
concern following what we know was an extensive intrusion into public, 
and private computing networks last year in Russia's efforts to 
undermine our Nation's democratic process.
    In 2016, it was reported that the Election Assistance Commission, 
the agency responsible for certifying the security of voting machines 
reportedly fell victim to what is believed to have been a Russian 
hacker.
    The Security firm ``Recorded Future'' reported that it discovered 
EAC employees' computer access information for sale on the internet 
black market.
    In February 2016, the IRS revealed it discovered and stopped an 
automated cyber attack on its e-filing personal identification number 
(PIN) system.
    The IRS reported that cyber criminals used information stolen from 
another source to generate 101,000 e-file PINs from taxpayers' stolen 
Social Security numbers (SSNs).
    E-file PINs are used by some taxpayers to electronically file their 
tax returns--it is worth noting the difficulty the IRS has seen in the 
past with thieves filing taxes and receiving tax payments due to 
taxpayers.
    The number and severity of data breaches has only grown over the 
last few years.
    We can and we must do better at protecting civilian agencies and 
their data assets from compromise.
    I am pleased at the progress being made with Majority and Minority 
committee staff, along with my staff in finalizing the Prevent Zero Day 
Events Act, which I plan to introduce.
    The Prevent Zero Day Events Act will help DHS in working with 
Federal agencies in developing strategies for detecting Zero Day 
events, which are software or firmware vulnerabilities that have gone 
undetected, but if exploited by a terrorist, would posed a significant 
threat to the ability of agencies to function.
    I look forward to your testimony and the testimony of the second 
panel for today's hearing.
    Thank you.

    Mr. Ratcliffe. We are pleased to have a very distinguished 
panel of witnesses before us today on this most important 
topic.
    Ms. Jeanette Manfra is the acting deputy under secretary 
for cybersecurity in the Department of Homeland Security. 
Welcome.
    Mr. Greg Wilshusen is the director for information security 
issues for the U.S. Government Accountability Office. Good to 
see you again, Mr. Wilshusen.
    Mr. Chris Jaikaran is an analyst for the cybersecurity 
policy for the Congressional Research Service. Welcome.
    I would now ask all of you to stand and raise your right 
hand so I can swear you in to testify.
    [Witnesses sworn.]
    Let the record reflect that each witness has answered in 
the affirmative. You may be seated. The witnesses' full written 
statements will appear in the record.
    The Chair now recognizes Ms. Manfra for 5 minutes for her 
opening statement.

STATEMENT OF JEANETTE MANFRA, ACTING DEPUTY UNDER SECRETARY FOR 
 CYBERSECURITY, NATIONAL PROTECTION AND PROGRAMS DIRECTORATE, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Manfra. Thank you, sir. Chairman Ratcliffe, Ranking 
Member Richmond, Chairman McCaul, Ranking Member Thompson, and 
Members of the committee, thank you for today's opportunity to 
discuss DHS's efforts to secure Federal networks.
    Cybersecurity remains one of the most significant risks 
facing the United States. Working with Congress, we have 
focused on a range of actions to confront this evolving 
challenge.
    By law, Federal agencies have responsibility for their own 
cybersecurity. Our goal is to protect agencies against 
cybersecurity incidents and to help each agency effectively 
safeguard their own systems and networks.
    We achieve these goals in four ways: No. 1, by providing a 
baseline of security for civilian agencies through the National 
Cybersecurity Protection System, or NCPS, and the Continuous 
Diagnostics and Mitigation Program; No. 2, by conducting risk 
assessments and directing agency action as needed; No. 3, by 
serving as an information-sharing hub; and No. 4, by providing 
incident response assistance.
    Our first focus area is identifying, prioritizing, and 
enabling mitigation of cybersecurity threats facing civilian 
agencies through NCPS, of which EINSTEIN is the principal 
component.
    Recognizing the importance of EINSTEIN, Congress mandated 
that all civilian agencies fully implement the system, 
resulting in an increase in EINSTEIN 3 Accelerated coverage 
from 38 percent to 93 percent over the past year. We are 
working with the remaining civilian agencies to facilitate full 
participation.
    We recognize that many sophisticated adversaries cannot be 
blocked by signatures of known threats. NCPS is a platform and 
EINSTEIN is only a first step. Moving forward, we are pursuing 
three lines of effort.
    First, increasing the number of known cyber threat 
indicators available. Second, deploying reputation scoring to 
help Government agencies prioritize specific indicators based 
upon the likely severity of the treat. Third, piloting an 
advanced analytics capability to identify anomalous activity 
that could be a previously-unknown threat.
    Effective cybersecurity must address threats. But agencies 
must also identify and fix known vulnerabilities. Through the 
Continuous Diagnostics and Mitigation, or CDM program, DHS 
provides Federal civilian agencies with tools to gain 
visibility, often for the first time, into the extent of 
cybersecurity risk across their entire network and prioritize 
identified issues.
    DHS also conducts risk assessments, based upon a 
standardized methodology and informed by an understanding of 
relevant threats.
    In fiscal year 2017, we are continuing to focus on the most 
critical systems. DHS leveraged the authority from the 
Cybersecurity Act of 2015 to issue a binding operational 
directive, mandating that agencies participate in our high-
value asset assessment process and fix identified 
vulnerabilities within 30 days.
    Cybersecurity threats are constantly changing as our 
adversaries implement new tactics, techniques, and procedures. 
Recognizing this fact, Congress established our NCCIC as a 
civilian hub for cyber threat indicators and defensive 
measures, with Federal and non-Federal entities.
    As required by the Cybersecurity Act of 2015, we automated 
the sharing of our cyber-threat indicators, while protecting 
privacy and civil liberties.
    Persistent adversaries will find ways to infiltrate 
networks. When an incident occurs, our NCCIC offers assistance 
to find the adversary, drive them out, restore critical 
services, and improve security moving forward.
    In closing, while we have made progress, we must do more to 
confront the continually-evolving threats facing our Nation. 
This commitment to do more is at the core of the pending DHS 
cybersecurity strategy. This administration is committed to 
making significant investments in cybersecurity and modernizing 
our Federal IT infrastructure.
    In the fiscal year 2018 budget blueprint, the President 
requested $1.5 billion for DHS to safeguard cyber space. The 
Department views the IT modernization effort as an opportunity 
to review the current approach to Federal network security and 
potentially make generational advances in the capabilities we 
offer.
    We must also ensure that DHS is appropriately organized to 
address cybersecurity threats. We appreciate the Chairman of 
the committee's leadership in working to reauthorize the 
Department.
    As the committee considers these issues, we are committed 
to working with Congress to ensure a homeland that is more 
safe, secure, and resilient.
    Thank you for the opportunity to testify, and I look 
forward to any questions you may have.
    [The prepared statement of Ms. Manfra follows:]
                 Prepared Statement of Jeanette Manfra
                             March 28, 2017
                              introduction
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
committee, thank you for the opportunity to appear before you today. 
Cybersecurity remains one of the most significant strategic risks to 
the United States. The past several years have seen a steady drumbeat 
of cybersecurity compromises affecting the Federal Government, State 
and local governments, and the private sector. Working with Congress, 
we have focused on a range of actions to confront this evolving 
challenge. By bringing together all levels of government, the private 
sector, international partners, and the public, we are taking action to 
protect against cybersecurity risks, improve our whole-of-Government 
incident response capabilities, enhance sharing of information on best 
practices and cyber threats, and strengthen resilience. The Department 
of Homeland Security (DHS), through the National Protection and 
Programs Directorate (NPPD), leads the Federal Government's efforts to 
secure our Nation's critical infrastructure and protect Federal 
civilian networks from malicious cyber activity.
    Over the past few years, the Federal Government has made 
significant progress in improving agency cybersecurity, establishing a 
common baseline of protection, and codifying roles and responsibilities 
to effectively manage cybersecurity risks and incidents. Through 
engagements with State, local, Tribal, and territorial (SLLT) 
governments, and the private sector, we have provided technical 
assistance upon request and expanded information-sharing capabilities 
to improve situational awareness of threats, vulnerabilities, 
incidents, mitigation, and recovery actions. Today, I will discuss the 
roles of NPPD in protecting the Federal civilian Executive branch 
networks.
    Under the Federal Information Security Modernization Act of 2014 
(FISMA), agencies have primary responsibility for their own 
cybersecurity, the Office of Management and Budget (OMB) generally 
develops and oversees agency implementation of information security 
policies and practices, and DHS administers the implementation of those 
policies and practices. As part of securing their own systems, agencies 
must comply with OMB policies, DHS directives, and National Institute 
of Standards and Technology (NIST) standards and guidelines. DHS, 
pursuant to its various authorities, provides a common set of security 
tools across the civilian Executive branch and helps agencies manage 
their cyber risk. NPPD's assistance to agencies includes: (1) Providing 
tools to safeguard civilian Executive branch networks through the 
National Cybersecurity Protection System (NCPS), which includes 
EINSTEIN, and Continuous Diagnostics and Mitigation (CDM) programs, (2) 
measuring and motivating agencies to implement policies, directives, 
standards, and guidelines, (3) serving as a hub for information sharing 
and incident reporting, and (4) providing operational and technical 
assistance, including threat information dissemination and risk and 
vulnerability assessments, as well as incident response services. DHS's 
National Cybersecurity and Communications Integration Center (NCCIC) is 
the civilian government's hub for cybersecurity information sharing, 
asset incident response, and coordination.
EINSTEIN
    EINSTEIN refers to the suite of intrusion detection and prevention 
capabilities that protects agencies' Unclassified networks at the 
perimeter of each agency. EINSTEIN provides situational awareness of 
civilian Executive branch network traffic, so threats detected at one 
agency are shared with all others providing agencies with information 
and capabilities to more effectively manage their cyber risk. The U.S. 
Government could not achieve such situational awareness through 
individual agency efforts alone.
    The first two phases of EINSTEIN--EINSTEIN 1 and 2--allow DHS to 
identify potentially malicious activity and to conduct critical 
analysis after an incident occurs, as well as to detect known malicious 
traffic. In 2015, DHS estimated these capabilities screened over 90 
percent of all Federal civilian internet traffic. On a typical day, 
EINSTEIN 2 intrusion detection sensors generate approximately 30,000 
alerts about potential malicious cyber activity. These alerts are 
evaluated by DHS cybersecurity analysts to determine whether the alert 
represents an active threat and potential compromise, and if further 
mitigation or remediation is needed.
    EINSTEIN 3 Accelerated (EINSTEIN 3A) is the intrusion prevention 
capability, which blocks known malicious traffic. Intrusion prevention 
is provided as a service by internet service providers (ISPs) serving 
the Federal Government. The initial implementation of EINSTEIN 3A 
involves two intrusion prevention security services by the ISPs: domain 
name server (DNS) sinkholing and email filtering. DHS is working with 
the ISPs to add further protections. EINSTEIN 1 and 2 use only 
Unclassified cyber threat indicators, while EINSTEIN 3A uses 
Unclassified and Classified indicators. These signature-based 
capabilities use indicators of compromise to detect and block known 
malicious traffic.
    In the Cybersecurity Act of 2015, Congress directed each Executive 
branch civilian agency to apply available EINSTEIN protections to all 
information traveling to or from an agency information system by 
December 18, 2016. Agencies have made significant progress in 
implementing available EINSTEIN protections. Prior to passage of the 
Act, EINSTEIN 3A covered approximately 38 percent of Federal civilian 
users. Today, EINSTEIN 3A is protecting a significant percentage of the 
Executive branch civilian workforce at the 23 largest agencies and most 
agencies have at least one of its two intrusion prevention 
capabilities. DHS continues to work with all remaining Federal civilian 
agencies to facilitate their full participation in EINSTEIN. At the 
same time, our NCPS program is also developing new capabilities and 
conducting a strategic review of the program architecture that will 
provide even more protections for Federal agencies.
    Today, EINSTEIN is a signature-based intrusion detection and 
prevention capability that takes action on known malicious activity. 
Leveraging existing investments in the ISP infrastructure, our non-
signature-based pilot efforts to move beyond current reliance on 
signatures are yielding positive results in the discovery of 
previously-unidentified malicious activity. DHS is demonstrating the 
ability to capture data that can be rapidly analyzed for anomalous 
activity using technologies from commercial, Government, and open 
sources. The pilot efforts are also defining the future operational 
needs for tactics, techniques, and procedures as well as the skill sets 
and personnel required to operationalize the non-signature based 
approach to cybersecurity.
    SLTT governments are able to access intrusion detection and 
analysis services through the Multi-State Information Sharing and 
Analysis Center (MS-ISAC). MS-ISAC's service, called Albert, closely 
resembles EINSTEIN 2. While the current version of Albert cannot 
actively block known cyber threats, it can alert cybersecurity 
officials to an issue for further investigation. DHS worked closely 
with MS-ISAC to develop the program and considers MS-ISAC to be the 
principal conduit for sharing cybersecurity information with State 
governments.
Continuous Diagnostics and Mitigation (CDM)
    EINSTEIN, our tool to address perimeter security will not block 
every threat; therefore, it must be complemented with systems and tools 
working inside agency networks--as effective cybersecurity risk 
management requires a defense-in-depth strategy that cannot be achieved 
through only one type of tool. CDM provides cybersecurity tools and 
integration services to all participating agencies to enable them to 
improve their respective security postures by reducing the attack 
surface of their networks as well as providing DHS with enterprise-wide 
visibility through a common Federal dashboard. CDM is divided into four 
phases:
  <bullet> CDM Phase 1 identifies all computers and software on agency 
        networks and checks for known vulnerabilities.
  <bullet> CDM Phase 2 allows agencies to better manage identities, 
        accounts, and privileges for the people and services using 
        their networks.
  <bullet> CDM Phase 3 will assess activity happening on agencies' 
        networks to identify anomalies and alert security personnel.
  <bullet> CDM Phase 4 will protect sensitive and high-value data 
        within agency networks.
    Significant progress has been made in the deployment of CDM. DHS 
has assessed the needs of the Executive branch civilian agencies and 
has completed the purchasing of most CDM Phase 1 tools. Agencies are 
now installing the tools across their networks, including six agencies 
that have fully deployed all Phase 1 tools as well as the agency 
dashboards, which give network administrators visibility into the 
current state of their networks to better identify and prioritize areas 
of cyber risk. DHS has also awarded two CDM Phase 2 contracts, focusing 
on strong authentication for administrative users as well as general 
users, making the associated tools available to all participating 
agencies.
    This summer, CDM will begin supplementing the existing CDM agency 
dashboards by introducing the Federal CDM Dashboard, which will provide 
the National Cybersecurity and Communications Integration Center 
(NCCIC) with greater insight into the Federal enterprise cybersecurity 
posture. The summary data available at the Federal level presents a 
view of the relative risk and network health across the Federal 
Government to inform policy decisions and operational guidance, provide 
timely reporting for addressing critical issues affecting multiple 
agencies, and enable cost-effective and efficient FISMA reporting.
    CDM will help us achieve two major advances for Federal 
cybersecurity. First, agencies will have visibility, often for the 
first time, into the extent of cybersecurity risks across their entire 
network and gain the ability to prioritize identified issues based upon 
their relative importance. Second, the NCCIC will be able to identify 
systemic risks across the civilian Executive branch. An example is 
illustrative. Currently, when a vendor announces a major vulnerability, 
the NCCIC tracks Government-wide progress in implementing critical 
patches via agency self-reporting and manual data calls. CDM will allow 
the NCCIC to immediately view the prevalence of a given device or 
software type across the Federal Government so that the NCCIC can 
provide agencies with timely guidance on their risk exposure. Effective 
cybersecurity requires a robust measurement regime, and robust 
measurement requires valid and timely data. CDM will provide this 
baseline of cybersecurity risk data to drive improvement across the 
civilian Executive branch.
    CDM tools are currently available through blanket purchase 
agreement negotiated by the General Services Administration on DHS's 
behalf. This agreement leverages the Government-wide volume to provide 
the best value and cost savings to the Federal Government. For example, 
by grouping agency requirements in Phases 1 and 2, we have saved the 
Federal Government millions of dollars on product purchases. Many SLTT 
governments are also able to purchase tools from this purchase 
agreement. By purchasing commercial CDM tools, SLTT governments can 
take advantage of bulk purchasing cost savings and invest those savings 
in their own cybersecurity resilience.
Measuring and Motivating Agencies to Improve Cybersecurity
    DHS conducts a number of activities to measure agencies' 
cybersecurity practices and work with agencies to improve risk 
management practices.
    The Cybersecurity Framework, is voluntary guidance, based on 
existing standards, guidelines, and practices to help organizations 
better manage and reduce cybersecurity risk and was developed by NIST 
through collaboration with diverse parts of industry, academia, and 
Government, including DHS. DHS promotes the use of NIST standards, 
guidelines, minimum information security requirements, including the 
Cybersecurity Framework.
    FISMA provided the Secretary of Homeland Security with the 
authority to develop and oversee implementation of binding operational 
directives to agencies. In 2016, the Secretary issued a binding 
operational directive on securing high-value assets (HVA), or those 
assets, Federal information systems, information, and data for which 
unauthorized access, use, disclosure, disruption, modification, or 
destruction could cause a significant impact to the United States' 
National security interests, foreign relations, economy, or to the 
public confidence, civil liberties, or public health and safety of the 
American people. DHS works with several interagency partners to 
prioritize HVAs for assessment and remediation activities across the 
Federal Government. For instance, DHS conducts security architecture 
reviews on these HVAs to help agencies assess their network 
architecture and configurations.
    As part of the effort to secure HVAs, DHS conducts in-depth 
vulnerability assessments of prioritized agency HVAs to determine how 
an adversary could penetrate a system, move around an agency's network 
to access sensitive data, and exfiltrate such data without being 
detected. These assessments include services such as penetration 
testing, wireless security analysis, and ``phishing'' evaluations in 
which DHS hackers send emails to agency personnel and test whether 
recipients click on potentially malicious links. DHS has focused these 
assessments on Federal systems that may be of particular interest to 
adversaries or support uniquely significant data or services. These 
assessments provide system owners with recommendations to address 
identified vulnerabilities. DHS provides these same assessments, on a 
voluntary basis upon request, to private sector and SLTT partners. DHS 
also works with GSA to ensure our industry partners can provide 
assessments that align with our HVA initiative to agencies, if 
necessary.
    Another binding operational directive issued by the Secretary 
directs civilian agencies to promptly patch known vulnerabilities on 
their Internet-facing devices. The NCCIC conducts Cyber Hygiene scans 
to identify vulnerabilities in agencies' internet-accessible devices 
and provides mitigation recommendations. Agencies have responded 
quickly in implementing the Secretary's binding operational directive 
and have sustained this progress. When the Secretary issued this 
directive, NPPD identified over 360 ``stale'' critical vulnerabilities 
across Federal civilian agencies. By ``stale'' I mean the 
vulnerabilities had been known for at least 30 days and were still not 
patched. Since December 2015, DHS has identified an average of less 
than 40 critical vulnerabilities at any given time, and agencies have 
addressed those vulnerabilities rapidly once they were identified.
    By conducting vulnerability assessments and security architecture 
reviews, DHS is helping agencies find and fix vulnerabilities, and 
secure their networks before an incident occurs.
Information Sharing
    By sharing information quickly and widely, we help all partners 
block cyber threats before damaging incidents occur. Equally important, 
the information we receive from other partners helps us understand 
emerging risks and develop effective protective measures.
    Congress authorized the NCCIC as the civilian hub for sharing cyber 
threat indicators and defensive measures with and among Federal and 
non-Federal entities, including the private sector. As required by the 
Cybersecurity Act of 2015, we established a capability, known as 
Automated Indicator Sharing (AIS), to automate our sharing of cyber 
threat indicators in real-time. AIS protects the privacy and civil 
liberties of individuals by narrowly tailoring the information shared 
to that which is necessary to characterize identified cyber threats, 
consistent with long-standing DHS policy and the requirements of the 
Act. AIS is a part of the Department's effort to create an ecosystem in 
which as soon as a company or Federal agency observes an attempted 
compromise, the indicator is shared in real time with all of our 
partners, enabling them to protect themselves from that particular 
threat. This real-time sharing limits the scalability of any attack 
techniques, which increases the costs for adversaries and should reduce 
the impact of malicious cyber activity. An ecosystem built around 
automated sharing and network defense should enable organizations to 
enhance their defenses against the most common cyber attacks, freeing 
their cybersecurity staff to concentrate on the novel and sophisticated 
attacks. Over 129 agencies and private-sector partners have connected 
to DHS's AIS capability. Notably, partners such as information sharing 
and analysis organizations (ISAOs) and computer emergency response 
teams further share with or protect their customers and stakeholders, 
significantly expanding the impact of this capability. AIS is still a 
new capability and we expect the volume of threat indicators shared 
through this system to substantially increase as the technical 
standards, software, and hardware supporting the system continue to be 
refined and put into full production. As more indictors are shared from 
other Federal agencies, SLTT governments, and the private sector, this 
information-sharing environment will become more robust and effective.
    Another part of the Department's overall information-sharing effort 
is to provide Federal network defenders with the necessary context 
regarding cyber threats to prioritize their efforts and inform their 
decision making. DHS's Office of Intelligence and Analysis (I&A) is 
continuously assessing the specific threats to Federal networks using 
traditional all source methods and indicators of malicious activity 
observed by NCCIC sensors so that the NCCIC can share with Federal 
network defenders in collaboration with I&A. I&A personnel sit on the 
NCCIC watch floor.
Incident Response
    Cybersecurity is about risk management, and we cannot eliminate all 
risk. Partners that implement best practices and share information will 
increase the cost for malicious actors and stop many threats. But 
ultimately, persistent adversaries will find ways to infiltrate 
networks in both Government and the private sector. In fiscal year 
2016, the NCCIC received reports of 30,899 impactful incidents across 
the eight attack vectors at Federal agencies, according to the FISMA 
Annual Report to Congress. When an incident does occur, the NCCIC 
offers assistance upon request to find the adversary, drive them out, 
and restore service.
                               conclusion
    At all levels, the Federal Government continues to be targeted by a 
wide range of malicious cyber actors attempting to gain access to 
sensitive systems. We have made significant progress over the past 
year: We have provided a baseline of CDM Phase 1 tools, we have 
expanded the coverage of EINSTEIN 3A, we have expanded risk and 
vulnerability assessments, we have operationalized the automated 
indicator-sharing capability, and we have established a useful 
architecture for coordinating the Federal Government's response to 
significant cyber incidents. But there is more to be done. This 
administration will make significant investments in cybersecurity. In 
the recently-released budget blueprint, the President requested $1.5 
billion for DHS to safeguard cyber space by protecting Federal networks 
and critical infrastructure from an attack. Through a suite of advanced 
cybersecurity tools and more assertive defense of Government networks, 
NPPD would share more cybersecurity incident information with other 
Federal agencies and the private sector, leading to faster responses to 
cybersecurity attacks.
    We must also ensure that DHS is appropriately organized to address 
today's and tomorrow's cybersecurity threats, and we appreciate the 
Chairman of the Committee's leadership in working to reauthorize the 
Department. As the committee considers these issues, we are committed 
to working with Congress to ensure that this effort is done in a way 
that ensures a homeland that is more safe, secure, and resilient.

    Mr. Ratcliffe. Thank you, Ms. Manfra.
    The Chair now recognizes Mr. Wilshusen for 5 minutes for 
his opening statement.

   STATEMENT OF GREGORY C. WILSHUSEN, DIRECTOR, INFORMATION 
     SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wilshusen. Chairman Ratcliffe, Ranking Member Richmond, 
Ranking Member Thompson, and Members of the subcommittee, thank 
you for the opportunity to discuss DHS's efforts to secure 
Federal computer networks. As recent cyber attacks have 
illustrated, the need for robust and effective cybersecurity 
has never been greater.
    Today, I will focus on two of the Department's programs: 
The National Cybersecurity Protection System, also known as 
EINSTEIN, which is an intrusion detection and prevention 
system, and the Continuous Diagnostics and Mitigation Program.
    But before I do, if I may, I would like to recognize 
members of my team who were instrumental in developing my 
statement and performing the work under PENIA. With me today is 
Mike Gilmore and Kush Malhotra. In addition, Jeff Knott, Angela 
Watson, Nancy Glover, and Scott Pettis also made significant 
contributions to the work.
    Mr. Chairman, as you know, several Federal laws establish 
key Government-wide roles for DHS with securing Federal 
information systems. Consistent with these laws, DHS is leading 
the EINSTEIN and CDM programs to assist Federal agencies in 
protecting their computer networks and systems. Our work has 
highlighted the need for advances with these programs.
    In January 2016, we reported that EINSTEIN was limited in 
its ability to detect malicious network activity because it 
could only match against known patterns of malicious data or 
signatures.
    It was unable to detect intrusions for which it did not 
have a valid or enabled signature deployed because it did not 
provide for anomaly-based intrusion detection capability. Such 
a capability involves comparing current network activity 
against pre-defined baselines of normal network behavior to 
identify deviations which could indicate malicious activity.
    EINSTEIN was also unable to detect exploits across all 
types of network traffic because it was not monitoring or had 
not deployed signatures related to certain types of network 
traffic. As a result, it would not have detected known 
malicious data embedded in such traffic.
    In addition, DHS's process for notifying agencies of 
detected malicious activity was not always effective, with 
disagreement among DHS and the five agencies we reviewed about 
the number of incident notifications sent and received and 
their usefulness.
    We made nine recommendations to DHS for expanding or 
enhancing EINSTEIN's capabilities, including those for 
detecting and preventing malicious traffic, notifying agencies 
of potential incidents, and developing guidance for routing 
network traffic through EINSTEIN's sensors. The Department 
concurred with each of our recommendations and has stated that 
it has taken or is taking actions to implement them.
    The tools and services delivered through DHS's CDM program 
are intended to provide agencies with the capability to 
automate network monitoring, correlate and analyze security-
relevant information, and enhanced risk-based decision making 
at both the agency and Government-wide levels.
    In May 2016, GAO reported that most of the 17 agencies we 
surveyed responded that they were in the early stages of CDM 
implementation. For example, 14 agencies reported that they had 
deployed products to monitor or scan hardware and software 
inventories, configuration settings, and common 
vulnerabilities. But only two had completed installation of 
dashboards at the agency or component level.
    We believe that the use of tools and of capabilities 
available under the CDM program, if effectively implemented by 
agencies, can help them to identify and resolve cybersecurity 
vulnerabilities in a prioritized and risk-based manner.
    In conclusion, EINSTEIN and CDM offer the prospect of 
important advances in the security over Federal systems. 
Enhancing EINSTEIN's capabilities and greater adoption by 
agencies will help DHS achieve the full benefit of the system.
    An effective implementation of CDM functionality by Federal 
agencies could better position them to protect their 
information technology resources from evolving and pernicious 
threats.
    Chairman Ratcliffe, Ranking Member Richmond, and Ranking 
Member Thompson, Members of the subcommittee, this concludes my 
statement. I would be happy to answer your questions.
    [The prepared statement of Mr. Wilshusen follows:]
               Prepared Statement of Gregory C. Wilshusen
                             March 28, 2017
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
subcommittee: Thank you for the opportunity to appear before you to 
discuss the Department of Homeland Security's (DHS) efforts to secure 
Federal computer networks. As recent cyber attacks have illustrated, 
the need for robust and effective cybersecurity has never been greater.
    Today, I will provide an overview of our work related to efforts by 
DHS to improve the cybersecurity posture of the Federal Government. In 
particular, I will focus on two of the Department's initiatives: The 
National Cybersecurity Protection System (NCPS), operationally known as 
EINSTEIN, and the Continuous Diagnostics and Mitigation (CDM) program.
    In developing this testimony, we relied on our previous reports \1\ 
as well as information provided by the Department on its actions in 
response to our previous recommendations. A more detailed discussion of 
the objectives, scope, and methodology for this work is included in 
each of the reports that are cited throughout this statement.
---------------------------------------------------------------------------
    \1\ GAO, Information Security: DHS Needs to Enhance Capabilities, 
Improve Planning, and Support Greater Adoption of Its National 
Cybersecurity Protection System, GAO-16-294 (Washington, DC: Jan. 28, 
2016); Information Security: Agencies Need to Improve Controls over 
Selected High-Impact Systems, GAO-16-501 (Washington, DC: May 18, 
2016); Information Security: FDA Needs to Rectify Control Weaknesses 
That Place Industry and Public Health Data at Risk, GAO-16-513 
(Washington, DC: Aug. 30, 2016); Information Security: Opportunities 
Exist for SEC to Improve Its Controls over Financial Systems and Data, 
GAO-16-493 (Washington, DC: Apr. 28, 2016); Information Security: IRS 
Needs to Further Improve Controls Over Financial and Taxpayer Data, 
GAO-16-398 (Washington, DC: Mar. 28, 2016); Healthcare.gov: Actions 
Needed to Enhance Information Security and Privacy Controls, GAO-16-265 
(Washington, DC: Mar. 23, 2016); Federal Information Security: Agencies 
Need to Correct Weaknesses and Fully Implement Security Programs, GAO-
15-714 (Washington, DC: Sept. 29, 2015); Information Security: FAA 
Needs to Address Weaknesses in Air Traffic Control Systems, GAO-15-221 
(Washington, DC: Jan. 29, 2015); and Information Security: VA Needs to 
Address Identified Vulnerabilities, GAO-15-117 (Washington, DC: Nov. 
13, 2014).
---------------------------------------------------------------------------
    The work on which this statement is based was conducted in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform audits to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
                               background
    Federal agencies are dependent on computerized (cyber) information 
systems and electronic data to carry out operations and to process, 
maintain, and report essential information. The security of these 
systems and data is vital to public confidence and the Nation's safety, 
prosperity, and well-being. Virtually all Federal operations are 
supported by computer systems and electronic data, and agencies would 
find it difficult, if not impossible, to carry out their missions and 
account for their resources without these information assets. Hence, 
ineffective security controls to protect these systems and data could 
have a significant impact on a broad array of Government operations and 
assets.
    Computer networks and systems used by Federal agencies are often 
riddled with security vulnerabilities--both known and unknown. These 
systems are often interconnected with other internal and external 
systems and networks, including the internet, thereby increasing the 
number of avenues of attack and expanding their attack surface.
    In addition, cyber threats to systems supporting the Federal 
Government are evolving and becoming more sophisticated. These threats 
come from a variety of sources and vary in terms of the types and 
capabilities of the actors, their willingness to act, and their 
motives. For example, foreign nations--where adversaries possess 
sophisticated levels of expertise and significant resources to pursue 
their objectives--pose increasing risks.
    Safeguarding Federal computer systems has been a long-standing 
concern. This year marks the 20th anniversary of when GAO first 
designated information security as a Government-wide high-risk area in 
1997.\2\ We expanded this high-risk area to include safeguarding the 
systems supporting our Nation's critical infrastructure in 2003 and 
protecting the privacy of personally identifiable information in 
2015.\3\
---------------------------------------------------------------------------
    \2\ GAO designates agencies and program areas as high-risk due to 
their vulnerability to fraud, waste, abuse, and mismanagement, or when 
they are most in need of transformation.
    \3\ See GAO, High-Risk Series: Progress on Many High-Risk Areas, 
While Substantial Efforts Needed on Others, GAO-17-317 (Washington, DC: 
Feb. 15, 2017).
---------------------------------------------------------------------------
    Over the last several years, GAO has made about 2,500 
recommendations to agencies aimed at improving the security of Federal 
systems and information. These recommendations identified actions for 
agencies to take to strengthen their information security programs and 
technical controls over their computer networks and systems. Many 
agencies continue to be challenged in safeguarding their information 
systems and information, in part because many of these recommendations 
have not been implemented. As of February 2017, about 1,000 of our 
information security-related recommendations had not been implemented.
    Our audits of the effectiveness of information security programs 
and controls at Federal agencies have consistently shown that agencies 
are challenged in securing their information systems and information. 
In particular, agencies have been challenged in the following 
activities:
  <bullet> Enhancing capabilities to effectively identify cyber threats 
        to agency systems and information.--A key activity for 
        assessing cybersecurity risk and selecting appropriate 
        mitigating controls is the identification of cyber threats to 
        computer networks, systems, and information. In 2016, we 
        reported on several factors that agencies identified as 
        impairing their ability to identify these threats to a great or 
        moderate extent. The impairments included an inability to 
        recruit and retain personnel with the appropriate skills, 
        rapidly-changing threats, continuous changes in technology, and 
        a lack of Government-wide information-sharing mechanisms.\4\ We 
        believe that addressing these impairments will enhance the 
        ability of agencies to identify the threats to their systems 
        and information and be in a better position to select and 
        implement appropriate countermeasures.
---------------------------------------------------------------------------
    \4\ GAO, Information Security: Agencies Need to Improve Controls 
Over Selected High-Impact Systems, GAO-16-501 (Washington, DC: May 18, 
2016).
---------------------------------------------------------------------------
  <bullet> Implementing sustainable processes for securely configuring 
        operating systems, applications, workstations, servers, and 
        network devices.--In our reports, we routinely determine that 
        agencies do not enable key information security capabilities of 
        their operating systems, applications, workstations, servers, 
        and network devices. Agencies were not always aware of the 
        insecure settings that introduced risk to the computing 
        environment. We believe that establishing strong configuration 
        standards and implementing sustainable processes for monitoring 
        and enabling configuration settings will strengthen the 
        security posture of Federal agencies.
  <bullet> Patching vulnerable systems and replacing unsupported 
        software.--Federal agencies we have reviewed consistently fail 
        to apply critical security patches on their systems in a timely 
        manner, sometimes doing so years after the patch becomes 
        available. We have consistently identified instances where 
        agencies use software that is no longer supported by their 
        vendors. These shortcomings place agency systems and 
        information at significant risk of compromise, since many 
        successful cyber attacks exploit known vulnerabilities 
        associated with software products. We believe that using 
        vendor-supported and patched software will help to reduce this 
        risk.
  <bullet> Developing comprehensive security test and evaluation 
        procedures and conducting examinations on a regular and 
        recurring basis.--Federal agencies we have reviewed often do 
        not test or evaluate their information security controls in a 
        comprehensive manner. The agency evaluations we reviewed were 
        sometimes based on interviews and document reviews (rather than 
        in-depth security evaluations), were limited in scope, and did 
        not identify many of the security vulnerabilities that our 
        examinations identified. We believe that conducting in-depth 
        security evaluations that examine the effectiveness of security 
        processes and technical controls is essential for effectively 
        identifying system vulnerabilities that place agency systems 
        and information at risk.
Federal Laws Provide a Framework for Securing Agencies' Information and 
        Systems
    The Federal Information Security Modernization Act of 2014 
(FISMA)\5\ provides a comprehensive framework for ensuring the 
effectiveness of information security controls over information 
resources that support Federal operations and assets and for ensuring 
the effective oversight of information security risks, including those 
throughout civilian, National security, and law enforcement agencies. 
The law requires each agency to develop, document, and implement an 
agency-wide information security program to provide risk-based 
protections for the information and information systems that support 
the operations and assets of the agency.
---------------------------------------------------------------------------
    \5\ The Federal Information Security Modernization Act of 2014 
(FISMA 2014) (Pub. L. No. 113-283, Dec. 18, 2014) largely superseded 
the Federal Information Security Management Act of 2002 (FISMA 2002), 
enacted as Title III of the E-Government Act of 2002 (Pub. L. No. 107-
347, Dec. 17, 2002). As used here, FISMA refers both to FISMA 2014 and 
those provisions of FISMA 2002 that were either incorporated into FISMA 
2014 or were unchanged and continue in full force and effect.
---------------------------------------------------------------------------
    FISMA also establishes key Government-wide roles for DHS. 
Specifically, with certain exceptions, DHS is to administer the 
implementation of agency information security policies and practices 
for information systems including:
  <bullet> monitoring agency implementation of information security 
        policies and practices;
  <bullet> providing operational and technical guidance to agencies;
  <bullet> operating a central Federal information security incident 
        center; and
  <bullet> deploying technology upon request to assist the agency to 
        continuously diagnose and mitigate cyber threats and 
        vulnerabilities.
    In addition, the Cybersecurity Act of 2015 requires DHS to deploy, 
operate, and maintain for use by any Federal agency, a capability to: 
(1) Detect cybersecurity risks in network traffic transiting to or from 
agency information systems and (2) prevent network traffic with such 
risks from traveling to or from an agency information system or modify 
the traffic to remove the cybersecurity risk.\6\
---------------------------------------------------------------------------
    \6\ Div. N, sec. 223, Pub. L. No. 114-113 (Dec. 18, 2015); 129 
Stat. 2935, 2964; 6 U.S.C. Sec.  151.
---------------------------------------------------------------------------
 advancing dhs initiatives could improve the cybersecurity posture of 
                         the federal government
    In implementing Federal law for securing agencies' information and 
systems, DHS is spearheading several initiatives to assist Federal 
agencies in protecting their computer networks and electronic 
information. These include NCPS, CDM, and other services. However, our 
work has highlighted the need for advances within these initiatives.
NCPS Capabilities and Adoption Could Be Improved
    Operated by DHS's United States Computer Emergency Readiness Team 
(US-CERT),\7\ NCPS is intended to detect and prevent cyber intrusions 
into agency networks, analyze network data for trends and anomalous 
data, and share information with agencies on cyber threats and 
incidents. Deployed in stages, NCPS, operationally known as EINSTEIN, 
has provided increasing capabilities to detect and prevent potential 
cyber attacks involving the network traffic entering or exiting the 
networks of participating Federal agencies. Table 1 provides an 
overview of the EINSTEIN deployment stages to date.
---------------------------------------------------------------------------
    \7\ Within DHS, US-CERT is a component of the National 
Cybersecurity and Communications Integration Center. It serves as the 
central Federal information security incident center specified by 
FISMA.

              TABLE 1.--OVERVIEW OF THE NATIONAL CYBERSECURITY PROTECTION SYSTEM (NCPS) DEPLOYMENT
----------------------------------------------------------------------------------------------------------------
                                         Deployment
            Operational Name                 Year          NCPS Objective                  Description
----------------------------------------------------------------------------------------------------------------
EINSTEIN 1.............................        2003  Intrusion  detection......  Provides an automated process
                                                                                  for collecting, correlating,
                                                                                  and analyzing agencies'
                                                                                  computer network traffic
                                                                                  information from sensors
                                                                                  installed at their internet
                                                                                  connections.\1\
EINSTEIN 2.............................        2009  Intrusion  detection......  Monitors Federal agency
                                                                                  internet connections for
                                                                                  specific predefined signatures
                                                                                  of known malicious activity
                                                                                  and alerts US-CERT when
                                                                                  specific network activity
                                                                                  matching the predetermined
                                                                                  signatures is detected.\2\
EINSTEIN 3.............................        2013  Intrusion  detection......  Automatically blocks malicious
Accelerated............................              Intrusion prevention......   traffic from entering or
                                                                                  leaving Federal civilian
                                                                                  agency networks. This
                                                                                  capability is managed by
                                                                                  internet service providers,
                                                                                  who administer intrusion
                                                                                  prevention and threat-based
                                                                                  decision making using DHS-
                                                                                  developed indicators of
                                                                                  malicious cyber activity to
                                                                                  develop signatures.\3\
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of Department of Homeland Security data. GAO-17-518T
\1\ The network traffic information includes source and destination internet protocol addresses used in the
  communication, source and destination ports, the time the communication occurred, and the protocol used to
  communicate.
\2\ Signatures are recognizable, distinguishing patterns associated with cyber attacks, such as a binary string
  associated with a computer virus or a particular set of keystrokes used to gain unauthorized access to a
  system.
\3\ An indicator is defined by DHS as human-readable cyber data used to identify some form of malicious cyber
  activity. These data may be related to internet protocol addresses, domains, e-mail headers, files, and
  character strings. Indicators can be either Classified or Unclassified.

    The overarching objectives of NCPS are to provide functionality 
that supports intrusion detection, intrusion prevention, analytics, and 
information sharing.\8\ However, in January 2016, we reported that NCPS 
had partially, but not fully, met these objectives:\9\
---------------------------------------------------------------------------
    \8\ The National Institute of Standards and Technology (NIST) 
describes intrusion detection as the process of monitoring the events 
occurring in a computer system or network and analyzing them for signs 
of intrusions, defined as attempts to bypass the security mechanisms of 
a computer or network or to compromise the confidentiality, integrity, 
and availability of the information they contain. Intrusion prevention 
is the process of performing intrusion detection and attempting to stop 
detected possible incidents. Analytics is the synthesis of knowledge 
from the collection, preparation, and analysis of data. Information 
sharing is the process of exchanging of cyber threat and incident data.
    \9\ GAO-16-294.
---------------------------------------------------------------------------
  <bullet> Intrusion detection.--NCPS provided DHS with a limited 
        ability to detect potentially malicious activity entering and 
        exiting computer networks at Federal agencies. Specifically, 
        NCPS compared network traffic to known patterns of malicious 
        data, or ``signatures,'' but did not detect deviations from 
        pre-defined baselines of normal network behavior. In addition, 
        NCPS did not monitor several types of network traffic and 
        therefore would not have detected malicious traffic embedded in 
        such traffic. NCPS also did not examine traffic for certain 
        common vulnerabilities and exposures that cyber threat 
        adversaries could have attempted to exploit during intrusion 
        attempts.
  <bullet> Intrusion prevention.--The capability of NCPS to prevent 
        intrusions was limited to the types of network traffic it 
        monitored. For example, the intrusion prevention function 
        monitored and blocked e-mail determined to be malicious. 
        However, it did not monitor malicious content within web 
        traffic, although DHS planned to deliver this capability in 
        2016.
  <bullet> Analytics.--NCPS supported a variety of data analytical 
        tools, including a centralized platform for aggregating data 
        and a capability for analyzing the characteristics of malicious 
        code. However, DHS had not developed planned capabilities to 
        facilitate near real-time analysis of various data streams, 
        perform advanced malware behavioral analysis, and conduct 
        forensic analysis in a more collaborative way. DHS planned to 
        develop and implement these enhancements through 2018.
  <bullet> Information sharing.--DHS had yet to develop most of the 
        planned functionality for NCPS's information-sharing 
        capability, and requirements had only recently been approved at 
        the time of our review. Agencies and DHS also did not always 
        agree about whether notifications of potentially malicious 
        activity had been sent or received, and agencies had mixed 
        views about the usefulness of these notifications. Further, DHS 
        did not always solicit--and agencies did not always provide--
        feedback on them.
    In addition, while DHS had developed metrics for measuring the 
performance of NCPS, the metrics did not gauge the quality, accuracy, 
or effectiveness of the system's intrusion detection and prevention 
capabilities. As a result, DHS was unable to describe the value 
provided by NCPS.
    To enhance the functionality of NCPS, we made six recommendations 
to DHS, which if implemented, could help the agency to expand the 
capability of NCPS to detect cyber intrusions, notify customers of 
potential incidents, and track the quality, efficiency, and accuracy of 
supporting actions related to detecting and preventing intrusions, 
providing analytic services, and sharing cyber-related information. DHS 
concurred with the recommendations. In February 2017 when we followed 
up on the status of the recommendations, DHS officials stated that they 
have implemented 2 of the recommendations and initiated actions to 
address the other 4 recommendations. We are in the process of 
evaluating DHS's actions for the two implemented recommendations.
    In January 2016, we also reported that Federal agencies had adopted 
NCPS to varying degrees. Specifically, the 23 civilian agencies covered 
by the Chief Financial Officers (CFO) Act\10\ that were required to 
implement the intrusion detection capabilities had routed some traffic 
to NCPS intrusion detection sensors. However, as of January 2016, only 
5 of the 23 agencies were receiving intrusion prevention services, due 
to certain policy and implementation challenges. For example, officials 
stated that the ability to meet DHS security requirements to use the 
intrusion prevention capabilities varied from agency to agency. 
Further, agencies had not taken all the technical steps needed to 
implement the system, such as ensuring that all network traffic was 
being routed through NCPS sensors. This occurred in part because DHS 
had not provided network routing guidance to agencies. As a result, it 
had limited assurance regarding the effectiveness of the system.
---------------------------------------------------------------------------
    \10\ 31 U.S.C. 901(b).
---------------------------------------------------------------------------
    We recommended that DHS work with Federal agencies and the internet 
service providers to document secure routing requirements in order to 
better ensure the complete, safe, and effective routing of information 
to NCPS sensors. DHS concurred with the recommendation. When we 
followed up with DHS on the status of the recommendations, DHS 
officials said that nearly all of the agencies covered by the CFO Act 
are receiving at least one of the intrusion prevention services, as of 
March 2017. Further, the officials stated that DHS has collaborated 
with the Office of Management and Budget (OMB) to develop new guidance 
for agencies on perimeter security capabilities as well as alternative 
routing strategies. We will evaluate the network routing guidance when 
DHS finalizes and implements it.
Effective Implementation of the CDM Program Could Improve Information 
        Security at Agencies
    The CDM program provides Federal agencies with tools and services 
that are intended to provide them with the capability to automate 
network monitoring, correlate and analyze security-related information, 
and enhance risk-based decision making at agency and Government-wide 
levels. These tools include sensors that perform automated scans or 
searches for known cyber vulnerabilities, the results of which can feed 
into a dashboard that alerts network managers and enables the agency to 
allocate resources based on the risk.
    DHS, in partnership with and through the General Services 
Administration, established a Government-wide acquisition vehicle for 
acquiring continuous diagnostics and mitigation capabilities and tools. 
The CDM blanket purchase agreement is available to Federal, State, 
local, and Tribal government entities for acquiring these capabilities.
    There are three phases of CDM implementation:
    Phase 1.--This phase involves deploying products to automate 
hardware and software asset management, configuration settings, and 
common vulnerability management capabilities. According to the 
Cybersecurity Strategy and Implementation Plan, DHS purchased Phase 1 
tools and integration services for all participating agencies in fiscal 
year 2015.
    Phase 2.--This phase intends to address privilege management and 
infrastructure integrity by allowing agencies to monitor users on their 
networks and to detect whether users are engaging in unauthorized 
activity. According to the Cybersecurity Strategy and Implementation 
Plan, DHS was to provide agencies with additional Phase 2 capabilities 
throughout fiscal year 2016, with the full suite of CDM phase 2 
capabilities delivered by the end of that fiscal year.
    Phase 3.--According to DHS, this phase is intended to address 
boundary protection and event management for managing the security life 
cycle. It focuses on detecting unusual activity inside agency networks 
and alerting security personnel. The agency planned to provide 97 
percent of Federal agencies the services they need for CDM Phase 3 in 
fiscal year 2017.
    As we reported in May 2016,\11\ most of the 18 agencies covered by 
the CFO Act that had high-impact systems \12\ were in the early stages 
of CDM implementation. All 17 of the civilian agencies \13\ that we 
surveyed indicated they had developed their own strategy for 
information security continuous monitoring. Additionally, according to 
survey responses, 14 of the 17 had deployed products to automate 
hardware and software asset configuration settings and common 
vulnerability management. Further, more than half of the agencies noted 
that they had leveraged products/tools provided through the General 
Services Administration's acquisition vehicle. However, only 2 of the 
17 agencies reported that they had completed installation of agency and 
bureau/component-level dashboards and monitored attributes of 
authorized users operating in their agency's computing environment. 
Agencies also noted that expediting the implementation of CDM phases 
could be of benefit to them in further protecting their high-impact 
systems.
---------------------------------------------------------------------------
    \11\ GAO, Information Security: Agencies Need to Improve Controls 
Over Selected High-Impact Systems, GAO-16-501 (Washington, DC: May 18, 
2016). We surveyed the 18 agencies covered by the Chief Financial 
Officers (CFO) Act that reported having high-impact systems on a 
variety of information security-related issues including their 
implementation of Government-wide security initiatives such as the CDM 
program.
    \12\ High-impact systems are those where the loss of the 
confidentiality, integrity, or availability of the information or 
information system could be expected to have a severe or catastrophic 
adverse effect on organizations operations, assets, or personnel. For 
example, it might cause the organization to be unable to perform one or 
more of its primary functions or result in a major financial loss. Of 
the 24 CFO Act agencies, 18 reported having high-impact systems at the 
time of our review.
    \13\ The Department of Defense, one of the 18 agencies with high-
impact systems, is not required to participate in the CDM program.
---------------------------------------------------------------------------
    The effective implementation of the CDM tools and capabilities can 
assist agencies in overcoming the challenges we have identified that 
they face when securing their information systems and information. As 
noted earlier, our audits often identify insecure configurations, 
unpatched or unsupported software, and other vulnerabilities in agency 
systems. We believe that the tools and capabilities available under the 
CDM program, when effectively used by agencies, can help them to 
diagnose and mitigate vulnerabilities to their systems. By continuing 
to make these tools and capabilities available to Federal agencies, DHS 
can also have additional assurance that agencies are better-positioned 
to protect their information systems and information.
Other DHS Services Are Available to Help Protect Systems, but Are Not 
        Always Used by Agencies
    DHS provides other services that could help agencies protect their 
information systems. Such services include, but are not limited to:
  <bullet> US-CERT monthly operational bulletins are intended to 
        provide senior Federal Government information security 
        officials and staff with actionable information to improve 
        their organization's cybersecurity posture based on incidents 
        observed, reported, or acted on by DHS and US-CERT.
  <bullet> CyberStat reviews are in-depth sessions with National 
        Security Staff, OMB, DHS, and an agency to discuss that 
        agency's cybersecurity posture and opportunities for 
        collaboration. According to OMB, these interviews are face-to-
        face, evidence-based meetings intended to ensure agencies are 
        accountable for their cybersecurity posture. The sessions are 
        to assist the agencies in developing focused strategies for 
        improving their information security posture in areas where 
        there are challenges.
  <bullet> DHS Red and Blue Team exercises are intended to provide 
        services to agencies for testing their systems with regard to 
        potential attacks. A Red Team emulates a potential adversary's 
        attack or exploitation capabilities against an agency's 
        cybersecurity posture. The Blue Team defends an agency's 
        information systems when the Red Team attacks, typically as 
        part of an operational exercise conducted according to rules 
        established and monitored by a neutral group.
    In May 2016, we reported that although participation varied among 
the 18 agencies we surveyed, most of those that chose to participate 
generally found these services to be useful in aiding the cybersecurity 
protection of their high-impact systems.\14\ Specifically,
---------------------------------------------------------------------------
    \14\ See GAO-16-501.
---------------------------------------------------------------------------
  <bullet> 15 of 18 agencies participated in US-CERT monthly 
        operational bulletins, and most found the service very or 
        somewhat useful.
  <bullet> All 18 agencies participated in the CyberStat reviews, and 
        most found the service very or somewhat useful.
  <bullet> 9 of 18 agencies participated in DHS's Red/Blue team 
        exercises, and most found the exercises to be very or somewhat 
        useful.
    Half of the agencies in our survey reported that they wanted an 
expansion of Federal initiatives and services to help protect their 
high-impact systems. For example, agencies noted that expediting the 
implementation of CDM phases, sharing threat intelligence information, 
and sharing attack vectors, could be of benefit to them in further 
protecting their high-impact systems. We believe that by continuing to 
make these services available to agencies, DHS will be better able to 
assist agencies in strengthening the security of their information 
systems.
    In conclusion, DHS is leading several programs that can benefit 
Federal efforts to secure agency information systems and information. 
Two such programs, NCPS and CDM, offer the prospect of important 
advances in the security over Federal systems. Enhancing NCPS's 
capabilities and greater adoption by agencies will help DHS achieve the 
full benefit of the system. Effective implementation of CDM 
functionality by Federal agencies could better position them to protect 
their information technology resources from evolving and pernicious 
threats.
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
subcommittee, this concludes my statement. I would be happy to respond 
to your questions.

    Mr. Ratcliffe. Thank you, Mr. Wilshusen, and thanks to your 
team members for their work, as you recognized.
    The Chair now recognizes Mr. Jaikaran--did I say that 
right--for 5 minutes for his opening statement.

STATEMENT OF CHRIS A. JAIKARAN, ANALYST, CYBERSECURITY POLICY, 
      CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF CONGRESS

    Mr. Jaikaran. Chairman Ratcliffe, Ranking Member Richmond, 
Ranking Member Thompson, and Members of the committee, thank 
you for the opportunity to testify on the current state of 
DHS's efforts to secure Federal networks. My name is Chris 
Jaikaran, and I am an analyst in cybersecurity policy at the 
Congressional Research Service.
    In this role, I research and analyze cybersecurity issues 
and their policy implications. I have provided a written 
statement and will summarize that testimony with some brief 
remarks.
    My testimony today will address the legislation that 
Congress recently passed, the roles and responsibilities 
assigned by those pieces of legislation, and the policy 
outcomes from those pieces of legislation.
    During the 113th and 114th Congresses, three pieces of 
legislation were enacted to change how Federal network security 
is managed: The Federal Information Security Modernization Act 
of 2014, or FISMA, the National Cybersecurity Protection Act of 
2014, and the Cybersecurity Act of 2015.
    My written testimony briefly summarizes the effect of this 
group of legislation on Federal network security without 
addressing other cybersecurity concerns, such as the effects on 
the private sector.
    To take an organizational view, these laws establish 
certain roles and responsibilities among Federal entities for 
the security of the dot-gov domain. It may be helpful to think 
of OMB as the strategic, DHS as the operational, and individual 
agencies as the tactical.
    OMB, exercising its oversight of agency budgets, oversees 
agency adoption of cybersecurity practices and ensures that 
agencies adopt a cybersecurity posture commensurate to their 
risk.
    DHS oversees agency adoption of cybersecurity programs, 
provides tools to protect agency networks, and coordinates 
Government-wide efforts on Federal cybersecurity.
    Individual agencies ensure that risks are effectively 
managed in their own agency, with cybersecurity being one such 
risk. In accordance with provisions in FISMA as amended, agency 
heads shall ensure that the responsibility for cybersecurity is 
delegated to a senior official, frequently a chief information 
security officer.
    The 113th Congress marked a shift in legislative policy 
concerning Federal cybersecurity. Prior to the 113th Congress, 
cybersecurity risks were one of many risks that an agency head 
was statutorily required to manage. In managing these 
cybersecurity risks, their collective risk management equated 
to the security of the dot-gov domain.
    DHS, OMB, and NIST provided programs, information, tools, 
and guidance to assist agencies in managing that risk, to 
include FISMA guidance and EINSTEIN. However, it was incumbent 
upon the agency head to accept those tools and implement that 
guidance.
    With the legislation enacted in the 113th and 114th 
Congresses, Congress further updated the law to reflect that 
risk exists not just at the agency level, but across the entire 
Federal Government.
    Federal agencies face risk, not just for the information 
that agency possesses or the work that agency performs, but 
because that agency is an element of the Federal Government 
itself.
    The clarification of DHS's role in mitigating risk to all 
Federal civilian agencies is the operationalization of that 
change.
    By consolidating these responsibilities at DHS, the intent 
is for DHS to monitor risk to the dot-gov domain and to take 
action to mitigate that risk, to detect malicious activity at 
one agency and prevent or mitigate that activity at another 
agency before it can become disruptive, a sort-of herd 
protection for civilian agencies.
    This construct is also intended to free up agency resources 
to focus on mitigating the unique cybersecurity risks against 
agency networks and against agency information technology 
systems. This distinction between Federal enterprise and the 
agencies' enterprise appears to be continuing in the new 
administration.
    Early indications from the administration officials signal 
that the position of the administration is to manage risks to 
the Federal enterprise as a single entity, rather than as 
distributed risk across all agencies.
    Shifting some additional cybersecurity actions from 
individual agencies to a single entity responsible for the 
security of all agencies is intended to allow those agencies to 
focus their resources on executing their respective missions.
    Binding operational directives are an example of the policy 
shift enacted with this group of legislation. These directives 
are issued by DHS and require an agency to take some action in 
order to protect the agency's information technology.
    This is a unique relationship, wherein one cabinet-level 
agency can direct another to take action. In this case, expend 
the agency's resources for the purposes of managing risk to 
that agency or the Federal Government, but not risk to DHS.
    This concludes my brief remarks. Thank you for the 
opportunity to testify, and I look forward to your questions.
    [The prepared statement of Mr. Jaikaran follows:]
                  Prepared Statement of Chris Jaikaran
                             March 28, 2017
                              introduction
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
committee, thank you for the opportunity to testify on the current 
state of efforts by the Department of Homeland Security (DHS) to secure 
Federal networks. My name is Chris Jaikaran and I am an analyst in 
Cybersecurity Policy at the Congressional Research Service. In this 
role, I research and analyze cybersecurity issues and their policy 
implications.
    My testimony today will address legislation recently passed by 
Congress, the roles and responsibilities assigned by those pieces of 
legislation, and the potential impact of that legislation on Federal 
network security.
                              legislation
    During the 113th and the 114th Congresses, three pieces of 
legislation were enacted that changed how Federal network security is 
managed. The testimony below briefly summarizes the effect of the 
legislation on Federal network security without addressing other 
cybersecurity concerns, such as effects on the private sector.
Federal Information Security Modernization Act of 2014
    The Federal Information Security Modernization Act of 2014 (FISMA) 
was enacted during the 113th Congress and codified the existing role 
the Department of Homeland Security (DHS) was already performing 
securing Federal networks.\1\ FISMA authorized DHS to assist OMB in 
developing and implementing agency information security programs, 
coordinating with agencies on cybersecurity, and providing assistance 
to agencies in achieving cybersecurity. The law also authorized DHS to 
issue binding operational directives, which are discussed later in this 
statement.
---------------------------------------------------------------------------
    \1\ Pub. L. 113-283.
---------------------------------------------------------------------------
    OMB is required to submit an annual report to Congress on the 
performance of agencies in implementing FISMA. The report for fiscal 
year 2016 was released on March 10, 2017, and like previous reports, is 
available to the public on-line. Agencies are also required report to 
their appropriate committees on their FISMA performance, but those 
reports are not made publically available.
National Cybersecurity Protection Act
    The National Cybersecurity Protection Act of 2014 (NCPA), 
statutorily authorized the National Cybersecurity and Communications 
Integration Center (NCCIC) within DHS.\2\ Enacted during the 113th 
Congress, this law established the NCCIC as the interface between the 
civilian Federal Government and non-Federal entities for information 
sharing, risk analysis, and mitigation strategies related to 
cybersecurity. The law also permits DHS to provide technical assistance 
to both Federal and non-Federal entities to support risk management and 
incident response, conditional upon the request of that entity.
---------------------------------------------------------------------------
    \2\ Pub. L. 113-282.
---------------------------------------------------------------------------
Cyber Security Act of 2015
    The Consolidated Appropriations Act of 2015 was the vehicle for the 
Cybersecurity Act of 2015. Enacted by the 114th Congress, this law 
contains four separate titles, the first of which is the Cybersecurity 
Information Sharing Act (or CISA).\3\
---------------------------------------------------------------------------
    \3\ Pub. L. 114-113.
---------------------------------------------------------------------------
    CISA authorized an information-sharing program whereby 
cybersecurity threat information can be quickly, readily, and 
voluntarily shared among the private sector, between the private sector 
and the Federal Government, and among Federal Government agencies. CISA 
included provisions for the minimization of personally identifiable 
information, prohibitions on the Government use of that data, 
protections for the private sector from anti-trust concerns, and 
liability protections for sharing information. The law also authorized 
the application of defensive measures to mitigate known threats or 
security vulnerabilities on any network for which they own or have 
consent to take those measures from the network owner.
    The second title is on National Cybersecurity Advancement. This 
part of the law provided authority for the NCCIC to manage the 
information-sharing program authorized by Title I. Title II also 
provided authority to DHS to provide, with or without reimbursement, 
the ability to detect and block threats coming from the public internet 
to agency networks. This capability is known in the cybersecurity 
community as intrusion detection systems and intrusion prevention 
systems, and as the National Cybersecurity Protection System (NCPS) or 
EINSTEIN (the name of the program DHS runs to deliver this capability). 
Title II also authorized DHS to develop and deploy tools to agencies 
which would continuously monitor the network activity of agencies' 
internal networks in order to detect risks and recommend mitigation 
activities. This is known as the Continuous Diagnostics and Mitigation 
program at DHS.
    Title III, or the Federal Cybersecurity Workforce Assessment Act of 
2015, requires Federal agencies to identify the cybersecurity workforce 
roles of greatest need to the Department and report to Congress on the 
progress of implementation.
    Title IV contains miscellaneous cybersecurity requirements, 
including a study from DHS on the risks facing first responder 
networks.
                       roles and responsibilities
    To take an organizational view, these laws established certain 
roles and responsibilities among Federal entities for the security of 
the .gov domain. It may be helpful to think of OMB as the 
``strategic,'' DHS as the ``operational,'' and individual agencies as 
the ``tactical,'' with roles for NIST and agency Inspectors General, as 
well.
    OMB, exercising its oversight of agency budgets, is responsible for 
overseeing agency adoption of cybersecurity practices and guiding 
agencies have a cybersecurity posture commensurate to their risk. 
Through their budgetary authority, OMB enforces the adoption of 
cybersecurity practices by directing the expenditure of funds for this 
purpose. OMB may also install new senior officials to oversee 
mismanaged cybersecurity programs, but CRS was unable to find an 
instance of OMB exercising that authority.\4\
---------------------------------------------------------------------------
    \4\ 40 U.S.C. Sec. 11303.
---------------------------------------------------------------------------
    DHS oversees agency adoption of cybersecurity programs, provides 
tools to protect agency networks, and coordinates Government-wide 
efforts on Federal cybersecurity.
    Ultimately, however, agency heads are responsible for ensuring that 
risks are effectively managed in their own agencies, with cybersecurity 
being one such risk (financial and operational risk are among the 
others). In accordance with FISMA (Pub. L. 113-283) agency heads shall 
ensure the responsibility for cybersecurity is delegated to senior 
official, frequently a chief information security officer.\5\
---------------------------------------------------------------------------
    \5\ 44 U.S.C. Sec. 3554(a)(3)(A).
---------------------------------------------------------------------------
    NIST develops standards (i.e., the Federal Information Processing 
Standards) and guidance (i.e., Special Publications) to inform agencies 
of security practices to adopt.\6\
---------------------------------------------------------------------------
    \6\ NIST, ``FIPS Publications,'' website, October 16, 2015, at 
http://csrc.nist.gov/publications/PubsFIPS.html. And NIST, ``Special 
Publications,'' website, April 8, 2016, at http://csrc.nist.gov/
publications/PubsSPs.html.
---------------------------------------------------------------------------
    Inspectors General annually evaluate their agency's cybersecurity 
programs and provide recommendations on improving their agency's 
cybersecurity posture.
                            policy outcomes
    Prior to the 113th Congress, cybersecurity risks were one of many 
risks that an agency head was responsible for managing, along with 
fiscal risk and operational risk. In managing cybersecurity risk, 
agencies had a responsibility to manage risk effectively, and through 
their collective risk management the security of the .gov domain was 
obtained. DHS, OMB, and NIST provided programs, information, tools, and 
guidance to assist agencies in managing that risk, to include EINSTEIN 
and FISMA guidance.\7\ However, it was incumbent upon the agency to 
accept those tools and implement that guidance.
---------------------------------------------------------------------------
    \7\ The e-Government Act of 2002 (Pub. L. 107-347) requires OMB to 
develop and issue guidance on implementing information technology 
security, and the Comprehensive National Cybersecurity Initiative 
(https://obamawhitehouse.archives.gov/issues/foreign-policy/
cybersecurity/national-initiative) directed DHS to develop and deploy 
EINSTEIN to agencies.
---------------------------------------------------------------------------
    With the passage of the aforementioned laws enacted in the 113th 
and 114th Congress, including the Cybersecurity Act of 2014, Congress 
updated law to reflect that risk exists not just at the agency level, 
but across the entire Federal Government. Federal agencies face 
cybersecurity risks not just for the information that individual 
agencies possess. Agencies also face inherent cybersecurity risks 
because they exist as part of the Federal Government, regardless of the 
work of that particular agency.
    The Congress statutorily affirmed the role of DHS in mitigating 
risk to all Federal civilian agencies, reflecting the interdependent 
and inherent shared cyber risks agencies face. Rather than distribute 
risk mitigation across agency heads as their responsibility, DHS was 
granted authority to monitor cybersecurity risk for the .gov domain, 
provide tools to mitigate that risk, and assist agencies in doing so. 
With these authorities, DHS provides defense of agency networks at the 
transition point from the public internet to the agency's networks with 
EINSTEIN, which improves network security.\8\ DHS also provides 
advanced vulnerability management with CDM.\9\ These tools are designed 
not only to strengthen security of agencies where they are deployed, 
but also to the Federal enterprise by allowing DHS visibility to 
network activity across all Federal agencies. This is intended to allow 
DHS to notice malicious activity at one agency and the opportunity to 
mitigate that activity at another agency before it becomes disruptive, 
a form of herd protection for civilian agencies. Additionally, by 
consolidating these responsibilities at DHS, DHS is arguably able to 
monitor risk to the .gov domain and take action to mitigate that risk, 
freeing up agency resources to focus their risk at the agency level 
(i.e., the agency network, agency computers, and data).
---------------------------------------------------------------------------
    \8\ https://www.dhs.gov/einstein.
    \9\ https://www.dhs.gov/cdm.
---------------------------------------------------------------------------
    The distinction between the Federal enterprise and the agency's 
enterprise appears to be continuing under the new administration. The 
President's ``Budget in Brief'' requests $1.5 billion for DHS 
cybersecurity mission (to be split between their .gov and private 
sector security operations, but explicitly support a ``more assertive 
defense of Government networks.'').\10\ Early indications from the 
administration officials signal that the position of the administration 
is to manage risks to the Federal enterprise as a single entity.\11\ 
Through this strategy, the administration seeks to alleviate agency 
heads from having to further divide limited agency resources between 
mission operations and mission support, with the potential detriment to 
spending on the agency's cybersecurity. By shifting some additional 
cybersecurity actions from individual agencies to a single entity 
responsible for the security of all agencies the intent is to allow 
agencies to focus their resources on executing against the agency's 
mission.
---------------------------------------------------------------------------
    \10\ OMB, ``America First: A Budget Blueprint to Make America Great 
Again,'' budget report, 2017, at https://www.whitehouse.gov/sites/
whitehouse.gov/files/omb/budget/fy2018/2018_blueprint.pdf.
    \1\ Tom Bossert, ``Cyber Disrupt 2017,'' remarks via video, March 
15, 2017, at https://www.csis.org/events/cyber-disrupt-2017.
---------------------------------------------------------------------------
    Binding operational directives (BODs) are an example of the policy 
shift enacted with this group of legislation. These directives are 
compulsory direction to an agency from DHS to take specific action in 
order to protect the agency's information technology.\12\ This is a 
unique relationship wherein one cabinet agency can direct another to 
take action--in this case, expend that agency's resources--for the 
purposes of managing risk to that agency, not risk to DHS. DHS is under 
no obligation to notify the public or Congress on the issuance of a BOD 
or its contents.
---------------------------------------------------------------------------
    \12\ 44 U.S.C. Sec. 3553.

    Mr. Ratcliffe. Thank you, Mr. Jaikaran.
    I now recognize myself for 5 minutes for questions.
    Ms. Manfra, I want to start with you. As we have heard 
today, there have been a number of critiques of DHS's NCPS, or 
its principal component, EINSTEIN and CDM and their 
capabilities over the last few years. So some of those 
critiques relate to the holistic effectiveness of the 
capabilities, with respect to a cyber defense system and the 
lack of integration.
    We have heard some concerns about the programs' limited 
ability to rapidly detect and disrupt breaches and specifically 
EINSTEIN 3A, signatures being limited and not being able to 
prevent some of the most advanced persistent threats.
    So what is your response to that? How do you address that? 
What is DHS's mitigation, to the extent you think those are 
valid? I will give Mr. Wilshusen and Mr. Jaikaran a chance to 
weigh in, depending on your response.
    Ms. Manfra. Thank you for your question, sir. If I may just 
separate the two programs because I think the critiques are 
somewhat different.
    For the National Cybersecurity and Protection System, which 
Mr. Wilshusen summarized in the GAO report, we did concur with 
the recommendations from the GAO report. We have also done some 
independent studies as well within the Department, leveraging 
MIT and Lincoln Labs to look at the system as well.
    For National Cyber Protection System, if I may briefly 
review, it is made up of five capabilities. The first is 
intrusion detection, which is EINSTEIN 1 and 2. Those have been 
in place for quite a while.
    Those are Unclassified capabilities that look at network 
flow and detecting known threats from traffic that is exiting 
and incoming to the network.
    EINSTEIN 3A, as we refer to it, takes Classified 
information and uses it to protect Unclassified data that is 
traversing in and out of the agency's network by partnering 
with the internet service providers that service those 
agencies.
    The other two capabilities is the core infrastructure that 
supports everything that we do at, within the National 
Protection and Program Directorate and as well as our 
information sharing.
    So the criticism is largely focused on EINSTEIN 3 
Accelerated, which is the focus on being able to deploy quickly 
which we believe that was a valid criticism.
    We were able to accelerate that deployment, and in 
cooperation with yourselves in the passage of the Cybersecurity 
Act that required agencies to deploy that. As I noted, we are 
now at 93 percent. So we believe that we are improving on the 
coverage aspect.
    We are still working to ensure that the Classified 
indicators are as valuable as possible. We continue to work 
with our partners in the intelligence community and with 
network owners and operators to ensure that not only are the 
indicators valuable but, as Mr. Wilshusen noted, that we and 
our analysts are providing appropriate context for agencies to 
understand what should they do once they do receive an alert. 
So we are continuing to refine our processes there.
    On the lack of integration between CDM and EINSTEIN, we 
also recognize that as a valid criticism. We integrated the two 
programs so that they are now managed under one program 
director. We believe that, from a programmatic perspective, 
that has resolved a lot of the challenges.
    Then, technologically, what we hope to achieve is as CDM is 
deployed and we gather insight on what is going on inside of 
the networks, that we then correlate that with the threat 
information and the data that we are receiving on what is going 
on that is going in and out of the agency networks on the 
network traffic, and that we will then be able to provide our 
intake and analysts with a holistic risk picture on both the 
vulnerabilities and the threat that our two major programs are 
seeing.
    But we also look to understand all of the available 
datasets for us and ensure that our analysts are taking 
advantage of those when they are providing that context.
    Mr. Ratcliffe. Thank you, Ms. Manfra.
    So Mr. Wilshusen and Mr. Jaikaran, you heard Ms. Manfra 
essentially confirm some of the critiques. Very quickly, the 
mitigation path that she outlined, do you think that is 
reasonable?
    Mr. Wilshusen. Yes, I do. It is something that we have been 
working with DHS since we issued our report back in January 
2016. It has been over a year. We have been working with DHS 
and following their actions to implement our recommendations, 
and we will continue to do so until they are fully implemented.
    Mr. Jaikaran. So Ms. Manfra--sorry. Ms. Manfra highlighted 
one of the challenges with the sharing information. Once that 
information is shared it is reliant on the recipient of that 
information to take some action. That is the next step that the 
work that the analysts will perform to help agencies take the 
action to remedy the cybersecurity threats.
    Mr. Ratcliffe. My time has expired. I may have some 
additional questions in a follow-up round if we get the chance.
    But at this time, the Chair now recognizes the Ranking 
Minority Member of our subcommittee, Mr. Richmond, for 5 
minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    This is to Ms. Manfra and Mr. Wilshusen. In past reports, 
GAO has underscored the need for a more strategic approach to 
cybersecurity within the Department of Homeland Security. I 
authored a law last year that required DHS to create such a 
strategy and submit it to Congress.
    Ms. Manfra, the statutory deadline for this strategy was 
March 23. What is the status of this strategy and when should 
we expect to see it?
    Mr. Wilshusen, are there areas where a DHS-wide cyber-
strategy, in your experience, will be beneficial to the 
Department as it carries out its diverse cybersecurity mission?
    Ms. Manfra. Thank you for your question, sir. We are 
working on the cybersecurity strategy as required under the 
National Defense and Authorization Act, recognizing that it was 
due last week.
    However, we do need time to ensure that the new 
administration has an opportunity to review and provide 
guidance on what that strategy should look like. So we do 
anticipate that that will be over to you all soon. We look 
forward to working with you on implementing that strategy.
    Mr. Wilshusen. Yes, I think the strategy should address 
several issues, including, of course, DHS's statutory 
responsibilities that it has with improving the security over 
the Federal Government. As part of that it should also identify 
the resources, the staffing that will be needed to implement 
that strategy and perform the functions that have been laid out 
to it under law.
    So certainly clearly identifying its roles and 
responsibilities and the resources necessary to perform those 
activities, such as CDM and EINSTEIN, and the red and blue 
teaming exercises that it does, as well as the threat 
integration and information-sharing activities should all be 
addressed in that strategy.
    Mr. Richmond. Ms. Manfra, do you have an estimate of how 
soon we would get it, a month, weeks?
    Ms. Manfra. Our goal is to get it within the next couple 
months, sir. But we do need to ensure that our leadership and 
the new administration has a chance to review it and provide 
the guidance. But sir, we are working very hard on it. This is 
something that we recognize as critical to our success in the 
next evolution for DHS cybersecurity.
    Mr. Richmond. Thank you.
    Then this is to the full panel. You can answer in whatever 
order you want. One of the obstacles DHS encountered during the 
Obama administration was convincing other Federal agencies to 
take advantage of DHS tools, like EINSTEIN and CDM.
    Mr. Jaikaran, please explain how laws like the 
Cybersecurity Act of 2015 and FISMA have clarified agency 
responsibilities?
    Mr. Jaikaran. Thank you for the question, sir. Following 
the spat of legislation that was passed during 113th and 114th 
Congresses, there was that change whereas agencies were offered 
the tools by the Department of Homeland Security. However, it 
was incumbent upon that agency had to accept that tool and 
deploy it upon their networks.
    After the change during the 113th and 114th Congresses, the 
acceptance of those tools, particularly the National 
Cybersecurity Protection System or EINSTEIN, as the tools are 
known, was required.
    You saw the change between the 30-some-odd percent to the 
90 percent adoption from agencies when Congress statutorily 
required agencies to deploy that technology.
    Mr. Wilshusen. I would agree. It had a very positive effect 
in compelling agencies to implement those programs.
    Ms. Manfra. Sir, I concur with the other two, and I would 
also note that it was able to remove a lot of the barriers that 
we had previous legal misperceptions that we had with agencies 
so that further facilitated the adoption.
    Mr. Richmond. In a follow-up to that, from your 
perspective, how helpful have these laws been at raising the 
level of cybersecurity awareness across the Federal Government? 
What are some of the most pressing challenges that still 
remain?
    Ms. Manfra. Sir, I think the laws have been effective in 
raising awareness amongst the Federal leadership and the 
broader community that supports the Federal Government in 
securing our systems whether they are commercial or inside the 
Federal Government.
    I think some of the major challenges continue to be how the 
Federal Government is able to modernize our IT systems and 
being able to protect legacy IT systems.
    It is a continuing challenge, and it is resource-intensive 
which leads to the second challenge, which is resources. Being 
able to allocate sufficient resources to protecting that data 
in those systems that support that data continues to be a 
challenge.
    Mr. Richmond. If you can answer this in, like, 2 seconds, 
just because you raised it, where are you all in the proposed 
budget? Are you all left alone, increased, or cut?
    With this, Chairman, I----
    Ms. Manfra. Sir, you are referring to the fiscal year 2018?
    Mr. Richmond. Yes.
    Ms. Manfra. The proposed budget blueprint does give us an 
increase at DHS.
    Mr. Ratcliffe. The Chair now recognizes the gentleman from 
New York, Mr. Donovan, for 5 minutes.
    Mr. Donovan. Thank you, Mr. Chairman.
    To follow up with my friend from Louisiana's questioning, 
you all spoke about the successes of the Cybersecurity Act of 
2015 and the prior two pieces of legislation that came out of 
this committee and then eventually passed the House and the 
Senate and was signed into law. What else do you need?
    What would you like to see us do going forward now in 
helping you protect our data, our network infrastructure? What 
is it that you would like to see us do, this committee, our 
whole Committee at Homeland Security and all of Congress to do 
to help you do your job better?
    Mr. Wilshusen. Well, one thing I would say is to continue 
to shine a bright light on this issue. Hold hearings and have 
agency personnel come up here and testify on how they are 
implementing the requirements under these laws and how 
effectively they are doing that.
    I think shining the light on that really raises the 
attention levels at the top levels of agencies and that helps 
to get actions completed at those agencies. So that would be 
one of the areas to do.
    I will also point out that in another area where the laws 
have been beneficial is with the cybersecurity work force 
assessment initiatives that have been specified in a couple 
laws for DHS specifically and across the Federal Government 
where agencies are supposed to identify their critical 
cybersecurity talent gaps and take steps to fill them.
    So those are a couple areas where I think you have done a 
job to help improve security.
    Ms. Manfra. Echoing Mr. Wilshusen's comments, I would agree 
with those. In addition, I think work on acquisition reform is 
important. A lot of the challenges that we face in deploying 
and procuring best-in-class technologies is not just for DHS 
but for the entire government, is very important in continuing 
to focus on building not just a Federal work force for 
cybersecurity but a National work force for cybersecurity that 
the Federal Government can benefit from.
    Mr. Jaikaran. Sir, my fellow panelists have highlighted a 
range of policy options that are available for the Congress. I 
think that is one of the unique areas of this space, 
cybersecurity, that issues of work force, issues of IT 
acquisitions and modernization, issues of oversight all play 
into this issue of cybersecurity and our options for the 
Congress to consider moving forward.
    Mr. Donovan. Can you explain to me what the acquisition 
problems are that maybe we can address?
    Ms. Manfra. I think for us, a lot of what we are looking at 
is, one, ensuring that we are leveraging the authorities that 
we currently have and improving our processes to ensure that 
those are as innovative and rapid as possible. So we are making 
and we are doing that work inside the Department and 
encouraging other agencies to do the same.
    But I do believe that looking at processes that would 
enable faster tech refresh of our capabilities within the 
Government and identifying opportunities to work with non-
traditional Government contractors.
    There are still some barriers in the way that the 
acquisition is currently written and done that doesn't allow us 
as easily and as rapidly to engage with those entities.
    Mr. Wilshusen. I think I would just add to it is kind of 
following the example what we are doing under CDM program, and 
that is leveraging Government-wide demand for products to buy 
in volume and so we are able to achieve cost efficiencies 
through volume discounts.
    So for many different types of information security-related 
tools and capabilities, to the extent they can be acquired 
across the entire Government and all agencies can share will be 
a very positive step, not only from a cost-effectiveness 
purview, but also from a standardization view, too. That could 
also help allow for greater integration of the computing 
environments across the Federal agencies.
    Mr. Jaikaran. I have nothing to add to the comments of my 
fellow panelists.
    Mr. Donovan. I have 30 seconds left, and I want you to 
understand you are speaking to a guy whose VCR still flashes 
12. So in layman's terms, is there any laws that we can create 
for you that protects our data, protects our networks better?
    You seem very satisfied with what this committee, what this 
whole committee with Congress, has done so far in the area of 
cyber. Is there something that you would love to see us do?
    Ms. Manfra. From our perspective, sir, ensuring that DHS is 
organized to achieve our cybersecurity mission. Renaming our 
organization so people understand what the National Protection 
and Program Directorate is really very important for us. We 
look forward to working with the subcommittee and the committee 
on that.
    Mr. Donovan. Thank you. My time has expired.
    Mr. Chairman, thank you.
    Mr. Ratcliffe. The Chair now recognizes the gentleman from 
Louisiana, the Ranking Minority Member of the committee, Mr. 
Thompson--or Mississippi.
    Mr. Thompson. Well, I will take Louisiana, but I am from 
Mississippi.
    Mr. Ratcliffe. Is there a difference?
    Mr. Thompson. Not really. Thank you, Mr. Chairman.
    All of you talked about the capacity of having cyber 
experts within Government. One of the criticisms we hear quite 
often is we don't have enough, or as soon as we get them, the 
private sector acquires them. I could use another term, but----
    So Ms. Manfra, what do you think we need to do, that we are 
not doing, to recruit and keep cyber professionals within the 
Federal Government system?
    Ms. Manfra. Thank you, sir, for your question. This is 
something that is not only critical for us but something that I 
personally care a great deal about. As a part of the broader 
initiatives to improve STEM education in the United States, I 
believe cybersecurity is an important component of that.
    We at the Department have done a lot of work to encourage 
universities and working with NSA and the NSF to have a common 
curriculum that universities will adopt and developed a program 
with the Office of Personnel Management called the CyberCorps 
Scholarship for Service that allows graduates of that program 
to benefit from a scholarship and then come and work for either 
Federal, State, and local government.
    That is one area that we have seen tremendous benefit from. 
While they may leave the Government after their time is up, we 
appreciate the time that they did spend with us.
    We also are looking in terms of the authorities that this 
Congress gave us to create an accepted service for 
cybersecurity. We are moving forward in developing the 
components of that so that we can begin transitioning to that 
excepted service, which will allow us to drastically change how 
we can keep up with the marketplace on cybersercurity 
personnel.
    But while we are working to implement that, we have worked 
to, within our current authorities, use what we can to retain 
the best and the brightest that we have right now, by ensuring 
that with the tools that we have at the moment to retain them 
and provide them with a better, a market-based approach to 
their salary.
    There is more work to be done, but this is something that 
we have done a lot, and we look forward to----
    Mr. Thompson. Well, you have given me a broad, broad 
response to my question. Let me tell you what I hear from a lot 
of Government employees. They will say because there is a 
private contractor with an employee sitting next to me, and as 
we talk I find out that we are doing the same work.
    But that private contractor is probably making one-and-a-
half times, if not more, than my salary as a Government 
employee. So that impacts morale and a lot of other things. So 
do you hear that, too?
    Ms. Manfra. Absolutely, sir, and the retention incentive 
program that we have put in place for now, while we work to 
implement the full excepted service, has actually had a drastic 
effect in reducing our attrition rate so that we were at about 
a 13 percent attrition rate. We are now down to a 9.
    We think that that is commensurate with industry. We did 
absolutely hear that quite a bit and we recognize that, and we 
are using our tools to----
    Mr. Thompson. You know, we even said go out and hire 1,000 
people if you can find them and plus-up the Department because 
you are short. I don't think we quite accomplished our goal. 
Maybe you can help me?
    Ms. Manfra. Yes, sir. Recruiting is still a challenge. We 
believe we have made progress on retention. We are also looking 
at innovative ways to recruit, and we do have some direct hire 
authority that we don't believe that we were fully leveraging.
    So we have worked with industry to look at how they recruit 
talent to the technology companies there. We are looking at 
adopting a lot of those practices in our human capital process.
    Mr. Thompson. Well, I look forward to the next conversation 
and you tell me how good we are moving in that direction.
    Ms. Manfra. Absolutely, sir.
    Mr. Thompson. OK. Thank you.
    Mr. Wilshusen testified that the EINSTEIN program is good 
if we know the militia's signatures. I guess the question is 
what do we have as the alternative when we don't know what the 
signatures are? Maybe you can tell me, and then I will go to 
Mr. Wilshusen?
    Ms. Manfra. Absolutely, sir. We think that, as I noted 
briefly, that there are three areas that we want to focus on. 
One is ensuring that we have better signatures. Signatures are 
still a useful capability to deploy.
    So we want to ensure that we have the best signatures that 
are available and that we are using our private-sector 
partnerships to both increase the quantity and the quality of 
those.
    We also want to ensure that the agencies understand how, 
whether, it is not just a black or a white. This is either bad 
or this is good.
    But we want to look at those signatures and give them 
information about how likely the severity of the threat is, 
which we refer to as reputation scoring. This is something that 
industry also uses.
    The third one is what we refer to as anomaly-based 
detection. That is more challenging. The technology does exist 
in the industry and we are piloting it. But it is a challenging 
capability.
    We have seen success with some of our early pilots and we 
look forward to understanding from those successes and learning 
from where the challenges were to fully deploy that capability.
    Mr. Thompson. So is that the pilot that we should have 
concluded last July?
    Ms. Manfra. The pilot was begun in early last year. We are 
still in the pilot phase.
    Mr. Thompson. So it appears----
    Ms. Manfra. We brought it. We brought in the pilot, sir. 
One of the things that we need to continually be mindful of is 
our ability to scale technological deployments.
    So just because something might work at one agency we need 
to ensure that it can scale for the entire civilian government. 
So we expanded the pilot from that first agency to include 
others.
    Mr. Thompson. All right. Thank you.
    Thank you, Mr. Chair.
    Mr. Ratcliffe. The gentleman from Mississippi yields back.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. Thank you to the 
panel for being here.
    I will start with Ms. Manfra and then second to the entire 
panel. The relationship with the FBI, would you describe it as 
one of cooperation, one of competition or both, knowing that 
there are multiple agencies in the same space? Sometimes that 
can help and hurt.
    Second for the panel, we repeatedly hear the same four 
nations mentioned through testimony here, Russia, China, North 
Korea, and Iran. How would you describe to this committee the 
uniqueness of each of those cybersecurity threats that each of 
those nations pose? How would you rank them?
    Ms. Manfra. The question of the FBI cooperation, I am very 
proud that I consider this an area of cooperation. Now, that 
doesn't mean to suggest that there aren't areas where we have 
different equities. But that is appropriate.
    We believe that we have built the capabilities to work 
through those processes so that we ensure that they are able to 
pursue their investigative equities and we are able to pursue 
our network defense.
    We have FBI sitting on the NCCIC floor 24/7, and we 
routinely work with them to ensure that we are both aware of 
the same reporting streams, whether it is through their sources 
or through our partnerships, and that we are continuing to 
cooperate on mitigating and preventing potential incidents and 
working together to reduce the consequences should an incident 
occur.
    PPD-41, which was a policy that was delivered at the end of 
the last administration, laid out the doctrine that is still 
valid and that we still work under where the FBI leads what we 
refer to as the threat response. That is containing the threat.
    Where we lead what we refer to as asset response, which is 
working with the victims and understanding the broader risk and 
how we mitigate that. We believe that works very well.
    Mr. Wilshusen. With respect to the four nations, I would 
say that Russia is very skilled, capable, and is probably more 
surgical in its intrusion capabilities and intense.
    China also has a lot of skills but and is probably takes a 
broader base view in trying to get into more different 
activities across the Government and the economy.
    I would just say probably Korea and Iran are more likely to 
be involved in more destructive activities, that they have that 
capability.
    Mr. Jaikaran. Sir, unfortunately my work at CRS has not 
provided me insight into the capabilities of each of the 
countries. However, I do have colleagues who do study threat 
actors specifically, and I would be happy to get them in 
contact with you after this hearing.
    Mr. Fitzpatrick. Thank you.
    I yield back.
    Mr. Ratcliffe. I thank the gentleman.
    The Chair now recognizes the gentleman from Rhode Island, 
Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for your testimony today and most especially what you 
are doing to secure our networks against those who have bad 
intentions.
    So Ms. Manfra, if I could start with you? So DHS was 
authorized by FISMA 2014 to use binding operational directives 
to issue mandatory instructions to agencies regarding 
cybersecurity policies, measures, standards, and guidelines.
    So far how many of those binding operations directives have 
been issued? Can you also characterize the response of the 
Federal agencies to these directives and also identify where 
their enforcement can be improved?
    Ms. Manfra. Thank you, sir. We have issued four binding 
operational directives to date. We believe that they have been 
very effective. They were all delivered by former Secretary 
Johnson to his peers, which we do believe is part of the 
success of these directives.
    We made very deliberate decisions to do our best to issue 
binding operational directives that would enable us to measure 
their success in implementing those directives.
    The first directive on reducing critical vulnerabilities 
and the one on high-value asset and participating in the high-
value asset assessments, as well as closing some 
vulnerabilities related to later revelations of activity with 
some criminal tools that were being used, have all been very 
effective.
    The critical vulnerability we have excellent data that 
shows that not only are they closing those critical 
vulnerabilities, but they are reducing the time to close those 
vulnerabilities. We gave them 30 days to close those critical 
vulnerabilities. Many of those vulnerabilities had been open 
for oftentimes more than a year.
    We are now seeing a dramatic reduction in the amount of 
time that it is taking them to reduce those critical 
vulnerabilities, which we think is a demonstrable change in 
behavior and recognizing the value of those binding operational 
directives.
    Mr. Langevin. So in all four cases the binding operational 
directive was satisfied and the agencies closed the 
vulnerabilities, addressed the problem?
    Ms. Manfra. Yes, sir. We did not close the critical 
vulnerability or the high-value asset one because those were 
ones where we wanted to continue to be able to measure them.
    So we work with them, their chief information officer and 
chief information security officer to continue to provide them 
reports on the status because we believe those are always valid 
directives for them to follow.
    Mr. Langevin. OK. Thank you.
    Mr. Wilshusen, has GAO studied the impact of binding 
operational directives issued by the Department?
    Mr. Wilshusen. We have not.
    Mr. Langevin. OK.
    So Ms. Manfra, we recently, we heard recently before the 
committee that the threat indicators are shared by DHS, often 
lack context that make private-sector participants, that they 
would make them--may desire to make them actionable.
    At the same time developing such context takes time and in 
the development of the Cybersecurity Act of 2015 we heard that 
rapid sharing was essential. So how does the Department balance 
the competing needs of sharing actionable information with 
appropriate context against the desire to share quickly?
    Ms. Manfra. Thank you, sir, for that question. We believe 
that all of those are valid requrements. However, not all of 
our stakeholders require all of those various different 
capabilities.
    Our automated indicator-sharing program is to get as much 
threat information out as quickly as possible in an automated 
way so that people can ingest those indicators and protect 
themselves.
    We believe that that has been a successful program. We are 
about a year into it, and we have nearly 200 participants that 
are receiving indicators from us.
    Now, there is always feedback and we appreciate the 
feedback in the working to improve that program. We also have 
other programs to include providing private sector with 
clearances so that we can work with our intelligence community 
partners to provide Classified briefings should the threat 
require it.
    We also work with our cyber information-sharing and 
collaboration program where we can do technical exchanges with 
analysts at industry organizations that have significant 
capabilities of their own where we can exchange broader 
information on context and refine what it is we are doing. That 
is how we think of focusing our efforts.
    Mr. Langevin. So the people that we have been talking to, 
just so you have some feedback, didn't think that the 
information sharing has been all that effective. So we need to 
work harder in that area.
    I would ask you now if you have a secondary process? I 
mean, sharing quickly the indicators is important and getting 
that out is important. But what about a follow-up and helping 
to share context in a second round?
    Ms. Manfra. Absolutely, sir. Similar to what we are doing 
with the Federal agencies is to help score some of these 
indicators working with the private sector to ensure that we 
are providing both the quality quickly and understanding that 
we may need to follow up either broadly with an entire sector 
or on specific entities that are being targeted to provide them 
with additional context so that they can make threat decisions.
    But we have heard similar feedback. We understand from our 
partners that we are improving, but that we do need to continue 
to improve on this capability.
    Mr. Langevin. Thank you.
    I know my time has expired, but just in closing, Mr. 
Wilshusen, I hope that GAO would look at these binding 
operational directives issued by the Department, especially 
since there are only four, and give us an assessment.
    It would certainly help the committee to decide whether the 
binding operational directive is meaningful or not. We 
appreciate the testimony of Ms. Manfra, but I would be----
    Mr. Wilshusen. I will be happy to work with your staff to 
look at that.
    Mr. Langevin. Thank you.
    Thank you, Mr. Chairman, I yield back.
    Mr. Ratcliffe. We have a number of Members that have 
competing hearings this morning and haven't been able to make 
it back. So I know that they are going to have questions for 
all of you that will be submitted in writing.
    So with that, however, I will thank the witnesses for your 
testimony today. I want to thank the Members for all their 
questions. As I said, Members of the committee will have some 
additional questions, and we will ask you to respond to those 
questions in writing respectively.
    Pursuant to committee rule VII(D), the hearing record will 
be held open for 10 days. Without objection, the subcommittee 
now stands adjourned.
    [Whereupon, at 11:16 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

       Questions From Chairman John Ratcliffe for Jeanette Manfra
    Question 1a. Do the objectives for CDM still align with reality of 
the evolving cyber risks faced by the Federal Government?
    On March 22, the committee held a hearing where Members heard about 
the rapidly-evolving nature of cyber threats. Based on this changing 
threat landscape how is DHS ensuring CDM tools and capabilities are 
keeping up with the evolving threat landscape?
    Question 1b. How is DHS ensuring that CDM tools and capabilities 
are addressing the devices and end-points that pose the most risk to 
Federal agencies going forward?
    Answer. The Continuous Diagnostics and Mitigation (CDM) program 
objectives directly align with the reality of evolving cyber risks, and 
the program is committed to continuing to assess its effectiveness at 
addressing such risks. In the context of ever-evolving cyber threats, 
there are basic fundamental steps to strengthening cybersecurity. For 
instance, knowing the information technology (IT) assets connected to 
and interfacing with agency networks, and therefore, must be managed is 
a crucial basic fundamental step related to cybersecurity. In the first 
phase of CDM, the National Protection and Programs Directorate (NPPD) 
is helping Federal agencies better understand what is on their network 
and better manage the cybersecurity of those assets. CDM works to 
ensure that agencies know what IT assets they operate and how well 
those assets are configured and patched. IT assets, combined with their 
vulnerabilities and misconfigurations, represent a significant attack 
surface that our adversaries target. Through better patching and 
configuration, agencies are able to reduce the likelihood of successful 
compromise against the evolving threat. This is one of the key 
objectives of CDM.
    Another fundamental principle of CDM is to understand who is on the 
network. By learning who has access to agency networks, including those 
individuals with privileged user access, agencies can begin to 
appropriately restrict network access and ensure the principle of least 
privilege is being followed. This second phase of CDM is a significant 
step forward in managing cyber risk.
    NPPD's National Cybersecurity and Communications Integration Center 
(NCCIC) will soon operate a Federal dashboard as part of CDM. 
Integration of the Federal dashboard into the NCCIC's 24/7 operations 
will provide DHS's cybersecurity operators with around-the-clock 
situational awareness into the current security posture of Federal 
agencies. This will enable the NCCIC to help agencies prioritize their 
patching and configuration actions to address the most critical 
vulnerabilities based on current threat data. It also allows the NCCIC 
to alert agencies when new threats arise that exploit specific 
vulnerabilities. The NCCIC will be able to adjust the criticality 
information related to specific vulnerabilities in order to bring 
agency attention to the worst problems that should be addressed first.
    In order to maintain product currency, ensure innovation, and keep 
up with an evolving threat, on at least a quarterly basis CDM allows 
integrators to submit for review the latest tools that meet the CDM 
technical requirements. Once the tools pass technical review conducted 
by the CDM program, they can be added to the approved product list on 
the blanket purchase agreements, making them available for purchase and 
use at Federal agencies.
    In working with Federal agencies and CDM integrators, NPPD is 
helping to ensure that CDM capabilities protect Federal agency 
networks. By providing agencies with significantly more visibility into 
their end-points and users, CDM is helping agencies continuously 
monitor their IT environments and improve their overall cyber hygiene. 
Agencies are now installing the tools across their networks, which 
gives their leadership and network administrators' visibility into the 
current state of their networks to better identify and prioritize areas 
of cyber risk, particularly those areas that pose the most risk.
    Question 2. Is the Department providing technical training to 
agency system administrators on the use of the CDM tools so they know 
how to effectively and optimally use the tools to diagnose and mitigate 
vulnerabilities?
    Answer. The Continuous Diagnostics and Mitigation (CDM) program 
anticipated training requirements for operation and management of 
capabilities. Training requirements were included in the contract 
solicitation. All CDM integrators are required to provide sufficient 
training to enable agencies to transition the CDM tools to agency 
operation once the integrator contract is completed. When transition is 
complete, agencies will be able to understand what the CDM tools are 
telling them about agency vulnerabilities via the agency dashboard, and 
respond appropriately.
    Funds available for training are limited, and experience is showing 
that agencies are requesting more detailed, sustained training options. 
DHS has reminded agencies of the need to fund training for tools and 
governance activities. For dashboard operations, CDM is developing on-
line, hands-on workshops in fiscal year 2017 to assist agencies with 
understanding how to use the CDM agency dashboard.
    Question 3. Are departments and agencies being provided with 
thorough estimates of what the cost of maintaining the CDM products 
will be?
    How is DHS working with departments and agencies on the transition 
to maintaining CDM products?
    Answer. Yes. Since December 2015, the Continuous Diagnostics and 
Mitigation (CDM) program worked with the Office of Management and 
Budget (OMB) to provide cost estimates to agencies on all CDM 
capabilities provided to date. This information was updated again in 
December 2016. In the third quarter of fiscal year 2017, the program 
met with the chief information officer and chief financial officer or 
their designees, of each Chief Financial Officer Act agency [as listed 
in U.S.C. Sec. 901(b)] to provide even more detailed cost estimates for 
license maintenance in fiscal year 8. We are working closely with OMB 
and agencies to ensure that agency budgets are able to absorb the tool 
and labor costs after the Department of Homeland Security transitions 
the CDM solutions to agencies.
    Question 4. What feedback mechanism does the Department have for 
soliciting and receiving comments from agencies on their experience 
with the CDM program?
    What benefits and challenges have the agencies identified with the 
program?
    Answer. During the summer of 2016, the Federal chief information 
officer (CIO) held a CyberStat on the Continuous Diagnostics and 
Mitigation (CDM) program. The CyberStat included program documentation 
review, interviews conducted by Office of Management and Budget (OMB) 
staff with several agencies, and meetings between the Federal CIO and 
the CIO or chief information security officer (CISO) of each agency. 
This CyberStat was a valuable source of feedback. The Federal CIO noted 
that ``all participants expressed support for the security objectives 
of the program and emphasized their commitment to procuring CDM Phase 1 
tools.''
    Other benefits included:
  <bullet> Establishing a consistent approach toward information 
        security continuous monitoring of networks across the Federal 
        civilian agency enterprise. The Federal Information Security 
        Modernization Act of 2014 requires agencies to provide security 
        for the networks that support the operations and assets of 
        their agency and codifies the Department of Homeland Security's 
        (DHS) authority, in consultation with OMB, to administer the 
        implementation of information security policies and practices 
        for civilian agencies. Through CDM, agencies receive a 
        significant investment by DHS to boost previous efforts and, in 
        many instances, are able to achieve an internally consistent 
        enterprise approach, allowing them to leverage similar product 
        knowledge, subject-matter expertise, and technical support 
        across the agency.
  <bullet> Pioneering an innovative acquisition approach by combining 
        agencies into groups for similar requirements and project 
        efficiencies. By grouping agencies, CDM is achieving economies 
        of scale and reducing pricing for labor and products. To date, 
        CDM has achieved cost avoidance of $600 million on products 
        over the Schedule 70 pricing.
  <bullet> Leveraging a consistent system engineering life cycle, 
        tailored from DHS.
  <bullet> Establishing an approach toward supply chain risk management 
        across the Federal civilian Government enterprise. To date, the 
        program has applied secure delivery controls for well over 1 
        million products delivered to participating agencies.
    Challenges identified by some agencies included issues such as: 
Asset and infrastructure gaps; agency governance and management 
challenges; integrator project management challenges; training and 
knowledge management; entrance on duty requirements; and selection of 
tools and requirements. With regard to the identified gaps, agencies 
noted that CDM revealed a significant number of new end-points than 
previously understood, and unplanned infrastructure upgrades and 
modernization may be required to support new CDM tool deployments. 
While the ultimate goal of CDM phase 1 is to identify all end-points on 
the network, these activities resulted in budget implications for DHS 
and agencies. Further, since additional end-points were identified, 
future-year license maintenance costs will increase. Governance 
challenges include the need for CIO engagement and leadership with 
clear project management. Integrator project management challenges were 
identified as requiring proactive engagement and communications with 
the agencies, and well-documented plans, schedules, etc. The program 
worked closely with each integrator to ensure plans and schedules were 
clearly communicated on a timely basis. Agencies identified a need for 
training and better knowledge management, particularly concerning the 
tools. Entrance on duty requirements were identified as causing 
significant delays in on-boarding critical integrator personnel, 
resulting in schedule delays. With regard to tool selection, some 
agencies noted that support for the awarded solutions varied within 
agencies.
    The CDM program office has worked with OMB on the next steps, which 
includes implementing improvements and addressing concerns, as 
appropriate. Moving forward, CDM has established a Customer Advisory 
Forum (CAF) comprised of CISOs, or designees, from each agency in order 
to receive feedback on topics of interest and concern. The CAF will 
continue to meet on a bi-monthly basis and will serve as the focal 
point for interagency collaboration related to CDM planning and 
implementation, including customer proposals and adoption, 
organizational and technical challenges, acquisition planning, and 
capability integration priorities.
    Question 5a. A number of stakeholders have raised a concern that 
there is some confusion among agency officials about the technology 
tools and solutions CDM directs them to use. Can you provide greater 
clarity around this, particularly as it relates to tools and solutions 
that Federal agencies may already have in place?
    For example, if an agency has already procured and deployed an IT 
asset inventory and management solution, can the agency continue to use 
that solution and be in compliance with CDM?
    Or would they have to scrap this already paid-for and deployed 
solution, and buy something from a CDM approved vendor?
    Question 5b. How does DHS help officials at agencies across the 
Government understand whether they are able to use solutions they have 
already procured, or whether they will need to deploy new solutions 
through CDM?
    What steps does DHS take to provide this clarity to agencies so 
that there isn't unnecessary duplication of effort, or unnecessary 
procurement of technology?
    Answer. The Continuous Diagnostics and Mitigation (CDM) program 
does not prescribe which tools should be deployed to which Federal 
agencies, but rather defines a cybersecurity requirement and allows 
industry to propose a set of tools that comprise a CDM solution. The 
solutions are evaluated on a technical and cost basis with 
participation from agencies, the Department of Homeland Security's 
(DHS) CDM program, and the General Services Administration (GSA) 
Federal System Integration and Management Center (FEDSIM).
    Solutions are awarded when identified as the best value to the 
Government. Historically, there have been niche buys of technology 
tools and solutions by parts of an agency without consideration of 
efficiencies that could be gained through enterprise-wide 
standardization, resulting in higher cost of ownership when that 
technology needs to be integrated into a bigger solution. The general 
principle of CDM is to gap fill by extending the product bases within 
an agency or component versus wholesale replacement--applying the best 
value principle. The best value principle takes into account re-use of 
existing tools, efficiencies gained through increased volume discounts 
on products, leveraging of shared resources with solution-specific 
expertise, reduced number of architectural baselines, and consistency 
of data reporting to agency and Federal dashboards. Among the lessons 
learned within Federal agencies was that the niche technology approach 
provided little enterprise visibility of the agency network.
    CDM seeks to find best value solutions in cooperation with Federal 
agencies. In instances where an integrator proposed a solution to meet 
a specific requirement that conflicted with an existing agency 
capability, the agency had a choice to accept the CDM-provided 
solution, along with installation and integration labor, or to retain 
its existing capability but assume the responsibility for integrating 
required data provided by existing agency tools into its agency 
dashboard to ensure achievement of CDM's goal of consistent data 
reporting between agency dashboards and the Federal dashboard across 
all agencies.
    Prior to release of the request for proposals (RFP) during the 
solicitation phase of CDM, DHS has worked closely with agency officials 
to identify agency requirements, including, where appropriate and 
driven by the agency, considerations for agency-specific requirements. 
For the task orders on Phase 1 of CDM in 2014, DHS helped agencies 
complete detailed technical spreadsheets that were provided to all 
bidders. The bidders were then able to consult agency-specific reading 
rooms where additional technical detail was provided. A similar 
mechanism was used in Phase 2 of CDM, where agencies were asked to list 
existing products on an attachment to the Phase 2 RFP to provide 
offerors a snapshot into the current agency landscape. As CDM moves 
into Phase 3, DHS is working with agencies to identify their 
priorities, which will help shape the capabilities DHS funds. DHS will 
continue to work with agencies through CDM's Customer Advisory Forum 
and other mechanisms to provide transparency and reduce duplication of 
effort.
    CDM established a new vehicle, CDM DEFEND, to cover Phase 3 and 
beyond. This approach will continue to incorporate successful elements 
of the current CDM Blanket Purchase Agreement, such as reading rooms 
and Approved Product Lists, while moving away from a defined BPA to use 
of a Government-Wide Acquisition Contracts (GWAC), Alliant, managed by 
GSA. The GWAC approach will avoid the cost of establishing a new BPA, 
and provide greater flexibility for CDM to address evolving 
requirements as new needs are identified. This approach includes 
provisions for agencies to contract for agency-specific requirements 
directly if an agency has identified cybersecurity requirements that 
are not part of the CDM program.
    Question 6. What is DHS planning to do to accelerate the adoption 
of new capabilities based on lessons learned to date?
    If a deployed Phase 1 tool has embedded capabilities that have 
additional functionality, such as those in later phases, can an agency 
use that capability now?
    Answer. As the Continuous Diagnostics and Mitigation (CDM) program 
works to replace the existing blanket purchase agreement task order, 
several factors will support accelerating the adoption of new 
capabilities. Shorter evaluation and award cycles for targeted 
capabilities beyond the base capabilities will allow an agency to 
tailor solutions and assess specific tools. Agencies' experience with 
targeted new capabilities will provide a better understanding of how 
broadly a specific tool can apply, potentially reducing the time to 
negotiate enterprise-wide solutions. Additionally, the process for 
adding new products to the approved portfolio is being significantly 
enhanced in order to reduce the time for availability from several 
months to potentially a couple of weeks.
    The CDM integrator is implementing capabilities according to the 
phased CDM implementation schedule. If a tool deployed during Phase 1 
has additional functions that are scheduled for later CDM phases, 
agencies are free to implement the additional functionality if they 
resource the work, fund the associated product and labor costs, and 
ensure tool configurations meet subsequent CDM requirements and 
compatibility with Federal dashboards.
    Question 7. One common problem in information technology management 
generally is the issue of ``shelfware''--that is, software that has 
been procured but never deployed. As we look across agencies and 
department, it is probably fair to say that many have acquired 
solutions that can achieve the requirements of CDM but they are sitting 
on a shelf somewhere and individuals at the agency are either unaware 
of these capabilities, or they have failed to deploy these 
capabilities. Is there a process that helps agencies better understand 
and utilize current assets that can meet CDM requirements?
    If so, can you please describe how that process works?
    Answer. Agencies can consult with the Department of Homeland 
Security regarding whether an existing tool, deployed or not, meets 
Continuous Diagnostics and Mitigation (CDM) program requirements. CDM 
publishes a product catalog through the General Services Administration 
(GSA), available on-line, that identifies CDM-approved tools. The CDM 
program has provided labor support to agencies who reported they 
already had existing products but did not have them deployed. Since 
these products were part of the CDM solution, it was deemed in the best 
interest of the Government to ensure they did not remain ``shelfware.'' 
In future phases, CDM will continue to maintain approved product lists 
that crosswalk CDM-approved tools to CDM capabilities. Additionally, 
CDM will offer contract vehicles that agencies can use to fund 
installation, configuration, and integration activities associated with 
existing, legacy products. Although DHS provides cybersecurity tools 
and services, the responsibility of employing those tools and services 
for the practice of cybersecurity is ultimately the responsibility of 
each agency. It is incumbent on each agency to engage with CDM in order 
to fully utilize available resources.
    Question 8. CDM seeks to provide threat protection at the network 
boundary. How is DHS ensuring this protection extends across all levels 
(or tiers) of agency infrastructure, especially when the intensity and 
scale of threats is increasing exponentially?
    Answer. EINSTEIN, the Department of Homeland Security's (DHS) 
intrusion detection and prevention capability, provides perimeter 
defense for Federal civilian executive branch agencies. However, 
EINSTEIN will never be able to block all malicious cyber activity. 
EINSTEIN must be complemented with systems and tools inside agency 
networks, such as Continuous Diagnostics and Mitigation (CDM), and by 
proactive efforts from each Federal agency to implement cybersecurity 
best practices, such as multi-factor authentication and employee 
training. DHS deploys tools that provide visibility into all levels of 
the agency networks to provide broad protection CDM Phase 1 is focused 
on ``what is on the network'' and CDM Phase 2 is focused on ``who is on 
the network.'' CDM Phase 3, will be focused on filling gaps at the 
network boundary and developing on-going assessment and authorization 
across the agency systems. The objective is to address the evolving 
threat by extending external visibility into internal agency 
structures, further reducing unauthorized access to networks, systems, 
and data.
    Prior to the deployment of CDM Phase 1 tools to agencies, agencies 
underestimated the number of devices on their network. The lack of full 
awareness by various agencies regarding ``what is on their network'' 
played a significant role in some of the challenges with CDM Phase 1 
deployment, particularly the need to increase contract ceilings and 
identify funds to cover devices and end-points not previously 
identified, and at the same time underscored the program's value. The 
CDM Phase 1 deployments are now providing agencies with significantly 
more visibility into their end-points, enabling them to effectively 
manage and configure those end-points on the network.
    Question 9. How will DHS continue enhancing cybersecurity defenses 
despite the added complexity and risk from the proliferation of mobile 
devices in the Government IT enterprise?
    Answer. The Department of Homeland Security is constantly 
evaluating emerging technologies and working with Federal agencies to 
identify the most appropriate cybersecurity solutions. The utilization 
of mobile devices is driving changes in our network security designs.
    As threats and technology evolve, the Continuous Diagnostics and 
Mitigation (CDM) program is working to incorporate cybersecurity 
solutions for new computing paradigms, such as mobile computing. At the 
time CDM Phase 1 was awarded, there was insufficient Federal policy 
direction for mobile security. From its inception, it was an objective 
of CDM to eventually address mobile security. Since then, there has 
been significant progress in the formulation of reference security 
architectures for mobile, and the program is planning to include mobile 
computing in the next generation of task order work.
    Question 10. Does DHS intend to serve as a Federal agency advisor 
for mobile device authentication to better secure sensitive Government 
networks and data that leverages work DHS is doing on innovative 
Government smartcard and credentialing applications?
    Answer. The Department of Homeland Security administers the 
implementation of Federal agency information security policies and 
practices, and provides recommendations and technical assistance on 
cybersecurity and resilience measures. Mobile security is part of this 
effort.
    Question 11a. The Government knows that it needs to implement 
cybersecurity at the data and document level because existing cyber 
protection strategies are fundamentally inadequate. Phase 4 of the CDM 
program acknowledges this issue. What is the time frame to roll out 
data-level security measures for the DHS CDM program?
    Have DHS and GSA considered accelerating the roll-out of data 
protection capabilities included in its CDM Phase 4 strategy?
    Question 11b. What CDM training is taking place to ensure Federal 
agencies are planning and budgeting to adopt such ``data-level 
protection'' capabilities?
    Answer. The President's fiscal year 2017 budget request included 
funding for a newly-proposed Continuous Diagnostics and Mitigation 
(CDM) Phase 4 to expand the CDM program to include additional tools and 
services to protect sensitive and high-value asset data within agency 
networks. While not fully funding the requested level, the fiscal year 
2017 Consolidated Appropriations Act provided funds to begin the 
planning activities necessary to define CDM Phase 4 in preparation for 
an acquisition review in late fiscal year 2018. However, we are 
continually working to identify opportunities to accelerate and 
innovate within CDM and other cybersecurity-related programs at DHS and 
hope that we will be able to accelerate as appropriate.
    There are fundamental technical steps that have to be in place 
prior to focusing on the data, such as identifying the assurance level 
on the user's identity and the degree of hardening and protections 
within the infrastructure that holds the data. This is done through the 
implementation of key parts of Phases 1, 2, and 3. Given Phase 4 
requirements have not yet been fully developed detailed planning to 
include training requirements have yet to be defined.
    Question 12. The Trusted Internet Connection (TIC) was designed to 
provide an additional layer of perimeter security to Federal Government 
systems by consolidating internet points of presence and enabling 
network monitoring of traditional on-premises systems. Advancements in 
cybersecurity technology, specifically through cloud computing, have 
changed the security models that guided the original TIC design. Some 
have suggested that the TIC in its current form creates too many 
latency, scalability, and architectural issues that hinder the 
migration of workloads to the cloud and other emerging technologies. 
Does DHS plan to update TIC policy to allow these technologies to 
provide functional operational visibility?
    Answer. The Office of Management and Budget (OMB) issues Trusted 
Internet Connection (TIC) policy. The Department of Homeland Security 
(DHS) is collaborating with OMB, Federal agencies, and industry to 
identify potentially effective and innovative means to both meet 
Federal security requirements and to ensure a level of resilience that 
aligns with agencies' risk decisions.
    Question 13. Given the pressing cybersecurity mission DHS provides, 
what is the time line for resolving the DOMino procurement issue?
    How does DHS plan to minimize DOMino transition risk, staffing, and 
impact to providing the Federal Government environment with critical 
cyber defense capabilities in light of recent events?
    Answer. On June 9, 2017, the Department of Homeland Security (DHS) 
awarded the DOMino contract and the task order for Operations and 
Maintenance. The Design and Analytics Task Orders will be issued in the 
near future. DHS has put in place bridge contracts to support the 
transition from incumbent contractors to the DOMino vendor.
    Question 14. Given the rapid rise in the threat landscape and the 
increasing attack surface for the U.S. Government, has the CDM 
initiative kept pace and is it capable of introducing solutions 
expeditiously to combat and protect?
    Given the fact that the Federal workforce has become more dependent 
on ``cloud'' and ``mobility,'' is CDM still the correct solution to 
address threats posed in the cloud and mobile spaces?
    Answer. In order to maintain product currency, ensure innovation, 
and keep up with an evolving threat, on at least a quarterly basis, the 
Continuous Diagnostics and Mitigation (CDM) program allows integrators 
to submit for review the latest tools that meet the CDM technical 
requirements. Once the tools pass technical review conducted by the CDM 
program, they can be added to the approved product list on the blanket 
purchase agreements, making them available for purchase and use at 
Federal agencies.
    As threats and technology evolve, CDM is working to incorporate 
cybersecurity solutions for new computing paradigms, such as cloud and 
mobile computing. At the time CDM Phase 1 was awarded, there was 
insufficient Federal policy direction for cloud and mobile security. 
From its inception, it was an objective of CDM to eventually address 
cloud and mobile security. Since then, there has been significant 
progress in the formulation of reference security architectures for 
both, and the program is planning to include both cloud and mobile 
computing in the next generation of task order work.
    Additionally, CDM is assessing the movement to different detection 
methods and countermeasures to threats that are not pre-defined, or are 
behavior versus signature-based.
  Questions From Ranking Member Cedric L. Richmond for Jeanette Manfra
    Question 1a. The Federal Information Security Modernization Act, 
Pub. L. 113-283, grants the Secretary of Homeland Security authority to 
issue ``binding operational directives'' to direct other agency heads 
to take specific actions to protect their networks.
    What factors go into the decision to issue a directive? If you have 
a formal criteria, please provide a copy.
    Question 1b. How has DHS used this authority thus far, and how do 
you assess how effective each directive has been?
    Question 1c. In the view of the Department, would it be an 
appropriate exercise of this authority for DHS to direct specific 
action to encourage better cyber hygiene going forward, rather than 
address specific known risks?
    Answer. The Secretary of the Department of Homeland Security (DHS), 
in consultation with the Director of the Office of Management and 
Budget (OMB), has the authority under 44 U.S.C. Sec.  3553(b)(2) to 
develop and oversee the implementation of binding operational 
directives (BODs). The Federal Information Security Modernization Act 
(FISMA) statute includes specific topics for BODs, including 
requirements for reporting security incidents to DHS's National 
Cybersecurity and Communications Integration Center (NCCIC), 
requirements for the contents of the annual FISMA reports, requirements 
for the mitigation of exigent risks to information systems, and other 
operational requirements as OMB, or DHS in consultation with OMB, may 
determine are necessary.
    DHS, acting through the National Protection and Programs 
Directorate (NPPD), identifies risks or requirements to be addressed 
through BODs. DHS also accepts ideas for potential BODs from entities, 
such as the Federal Chief Information Officer (CIO) Council, 
independent security researchers, or other partners. As needed, DHS may 
convene a group of subject-matter experts from Federal agencies, OMB, 
and the National Institute of Standards and Technology to consider the 
relative merits of particular risks in order to determine the 
appropriateness of a given BOD or determine the prioritization of 
different BODs.
    Generally, when determining whether a certain issue is appropriate 
for a BOD, DHS considers the following questions:
  <bullet> Is the proposed BOD related to an active threat? If so, what 
        is the scope and magnitude of the problem?
  <bullet> Is the proposed BOD related to a potential identified risk?
  <bullet> What category/schedule does the potential BOD fit into 
        (planned, escalation of issue, or emergency)?
  <bullet> Is this issue specific to a particular Federal agency or 
        could it be applicable across the civilian Federal Executive 
        branch?
  <bullet> What is the difficulty to exploit the vulnerability?
  <bullet> Is the issue/subject Sensitive or Classified?
  <bullet> Are external events or threat intelligence driving the need 
        for or request of the proposed BOD?
  <bullet> Can the proposed BOD be measured and validated by DHS?
  <bullet> Could the issue or threat be addressed satisfactorily and 
        fully through other mechanisms? Has DHS socialized the proposed 
        BOD subject with applicable stakeholders, such as CIO/Chief 
        Information Security Officer (CISO) councils?
  <bullet> What is the end-state of proposed BOD?
  <bullet> What other operational requirements have been issued by way 
        of policy, guidance, and standards in relation to this BOD?
  <bullet> Does the BOD address or re-emphasize Federal program such as 
        CDM, EINSTEIN, automated indicator sharing, etc.?
  <bullet> Is this BOD associated with the requirements for the content 
        of the annual reports required to be submitted by Federal 
        agencies?
  <bullet> Is this BOD associated with the requirements for reporting 
        incidents to the NCCIC?
    In fiscal years 2015 and 2016, there were four BODs:
    BOD 15-01.--In fiscal year 2015, the DHS Secretary issued the first 
BOD, BOD 15-01, Critical Vulnerability Mitigation Requirement for 
Federal Civilian Executive Branch Departments and Agencies' Internet-
Accessible Systems. It directs agencies to mitigate critical 
vulnerabilities discovered by DHS's NCCIC through the NCCIC's scanning 
of agencies' internet-accessible systems. Mitigation is required within 
30 days of notification to the agencies of the vulnerabilities 
discovered by the NCCIC. DHS assesses the effectiveness of this BOD by 
monitoring mitigation time lines.
    BOD 16-01.--On June 9, 2016, the DHS Secretary issued BOD 16-01, 
Securing High-Value Assets, to require agency participation in risk and 
vulnerability assessments as well as security architecture reviews 
conducted by DHS on the high-value assets of agencies. It further 
requires agencies to mitigate high-priority vulnerabilities discovered 
during the risk and vulnerability assessments.
    Agencies are required to report to DHS the status of mitigating 
each high-priority vulnerability within 30 days of receiving a high-
value asset final assessment report from DHS, and every 30 days 
thereafter until all high-priority vulnerabilities have been addressed. 
The status report must state that the vulnerability has been mitigated 
or explain the constraints preventing mitigation within 30 days and the 
steps being taken by the agency to achieve mitigation.
    BOD 16-02.--On September 27, 2016, the Secretary issued BOD 16-02, 
Threat to Network Infrastructure Devices, to address several urgent 
vulnerabilities in network infrastructure devices identified in a NCCIC 
Analysis Report. Specifically, it addressed hacking tools targeting 
firewalls, Cisco Adaptive Security Appliance, and Cisco ROM Monitor 
Integrity. Throughout the directive's reporting period, agencies showed 
progress and actively participated in interagency dialog.
    BOD 16-03.--On October 17, 2016, the DHS Secretary issued BOD 16-
03, 2016 Agency Cybersecurity Reporting Requirements, to specify 
reporting requirements for cyber incidents and the general information 
security posture of agencies. FISMA requires agencies to report 
cybersecurity incidents to DHS and to provide annual reports to OMB, 
DHS, and Congress on the adequacy and effectiveness of information 
security policies, procedures, and practices. FISMA further requires 
the DHS Secretary to issue one or more BODs specifying requirements for 
this reporting.
    Question 2a. Under current law, each Federal agency head is 
responsible for managing cyber risks to their own networks; however, 
these agencies rely heavily on contractors to carry out programs, 
activities, and operations.
    Does DHS have visibility into how agencies manage the risk of 
allowing Federal contractors and other individuals from outside the 
organization to access sensitive data on Government networks?
    Question 2b. What more could the Government be doing to mitigate 
the risk that a virus or other harm will be inflicted unwittingly or 
purposely by contractors authorized to access Federal networks?
    Answer. The Department of Homeland Security (DHS) generally does 
not have visibility into agency risk-management decisions related to 
contractor access to information systems. Contractors are subject to 
the suitability determinations of individual agencies and, more 
generally, the guidelines included in the Federal Acquisition 
Regulation. Standardizing the suitability guidelines and raising the 
security clearance requirements for contractors that have access and/or 
elevated privileges to sensitive and/or mission-critical systems and 
data would provide an increased level of assurance of the trust granted 
to contractors but would not eliminate the risk. At the same time, 
additional requirements would increase entrance-on-duty wait times.
    Question 3. I understand DHS and GSA are currently re-competing the 
CDM contract, which will expire next years. Is DHS planning to use this 
opportunity to make improvements to the CDM program and, if so, what 
are the goals?
    Answer. Given the dynamic nature of cybersecurity technology and 
services, the Department of Homeland Security (DHS) is developing an 
acquisition approach for the next set of task orders under CDM DEFEND 
(previously described under the response to Question 5) that will allow 
for easier execution of contractual actions. DHS expects this approach 
will streamline responses to agency cyber needs, including the 
procurement of tools, tool maintenance, and ancillary services. Task 
orders under CDM DEFEND will be awarded for longer time periods, 
allowing awardees an opportunity to become familiar with the agency 
environments associated with the task order. This will enhance an 
eventual awardee's ability to deliver expanded Continuous Diagnostics 
and Mitigation (CDM) capabilities from any of the CDM phases. The goal 
is to provide both the CDM program and agencies a flexible task order 
that streamlines the ability to deliver CDM functionality based on 
evolving threats and agency requirements.
    Question 4. The acquisition vehicle for CDM, CMaaS (Continuous 
Monitoring as a Service), was awarded in August 2013. Four years later, 
Phase 1 of CDM's 4 Phases is still not complete. Given CDM's slow pace, 
how does DHS expect it to deal with rapidly-evolving cyber threats?
    Answer. Continuous Diagnostics and Mitigation (CDM) Phase 1 
identified the complexity of network environments within agencies and 
illustrated the true number of assets connected to agency networks. 
Overall, this discovery detected 44 percent more assets connected to 
agency networks than originally identified by agencies. In some cases, 
agencies had more than 200 percent more assets on their networks than 
originally identified. By deploying the continuous monitoring tools on 
agency networks this year, the Federal Government is gaining greater, 
near-real-time awareness of agency environments than has ever existed.
    The under-reporting of assets and understanding of the uniqueness 
and complexities associated with agency network environments presented 
real challenges for the CDM program. As a result, changes had to be 
proposed to Phase 1 procurement agency roll-out schedules to address 
emerging cyber risks and agency complexities. CDM implementation has 
also been dependent on limited labor resources of agencies as well as 
the internal processes of agencies to deploy new technologies. An 
additional challenge not anticipated was that contractors had to 
undergo clearance determinations at both DHS and the agency supported.
    The program and agencies alike have benefited from this awareness 
and the lessons learned in working to reduce the complexity. 
Additionally, as noted in the response to Questions 5 and 17, the next 
contract vehicle will provide for flexibility and faster deployments if 
an agency is able to support a faster pace. The program will forego the 
time and expense of establishing a replacement BPA, and instead 
leverage efficiencies established under GSA's Alliant GWAC for CDM 
DEFEND.
    Question 5. We all know what the bad guys seek to do: Steal or, 
perhaps worse, alter data. Data Protection capabilities do not get 
rolled out until Phase 4 of CDM. At the current pace, it could be 10 
years before CDM completes Phase 4. What efforts, if any, are under way 
to accelerate reaching the Data Protection Phase of CDM?
    Answer. The President's fiscal year 2017 budget request included 
funding for a newly-proposed Continuous Diagnostics and Mitigation 
(CDM) Phase 4 to expand the CDM program to include additional tools and 
services to protect sensitive and high-value asset data within agency 
networks. While not fully funding the requested level, the fiscal year 
2017 Consolidated Appropriations Act provided funds to begin the 
planning activities necessary to define CDM Phase 4 in preparation for 
an acquisition review in late fiscal year 2018.
    There are fundamental technical steps that have to be in place 
prior to focusing on the data, such as identifying the assurance level 
on the user's identity and the degree of hardening and protections 
within the infrastructure that holds the data. This is done through the 
implementation of key parts of Phases 1, 2, and 3.
    The CDM program and its customer agencies have devoted the last 2 
years to building out the foundation for all cybersecurity work. 
Addressing the ``what is on the network'' (Phase 1) and ``who is on the 
network'' (Phase 2) are issues that had been challenging agencies for 
more than a decade. CDM has made significant progress in the resolution 
of these key capabilities over the past 2 years and can continue to 
build on this for ``what is happening on the network'' (Phase 3) and 
Phase 4 ``protecting data on the network'' (Phase 4).
    Question 6. In light of how rapidly cybersecurity tools are 
developed and rolled out, is it possible that the tools being offered 
in Phase 1 are already obsolete? What is the mechanism for refreshing 
Phase 1 tools?
    Answer. The tools provided through Phase 1 of Continuous 
Diagnostics and Mitigation (CDM) offer current technology that is 
critical to providing the fundamental real-time awareness of what is on 
agency networks. The existing mechanism for adding approved products 
will continue to ensure that the approved product list is able to 
respond to the evolving marketplace. The program plans to continue 
using an Approved Products List (APL). The program will only consider 
products that have been placed on GSA's Information Technology (IT) 
Schedule 70 contracts. The program will perform both conformance and 
technical reviews prior to approval. Once approved, vendors will have 
the opportunity to submit the product for inclusion on the GSA's newly-
created CDM Special Item Number (SIN), which will provide a contract 
solution to maintain and then expand the CDM Product catalog. Open 
season periods (available to all GSA IT Schedule holders) will be held 
each month to allow for timely refresh. CDM is based on procuring 
innovative, commercial-off-the-shelf products. It is important, 
however, to be mindful of challenges related to product maturity, as 
the CDM program does not want to deploy products that have not been 
rigorously coded and tested. Products cannot be added to the CDM SIN 
unless a product has been approved by the Program and added to the APL. 
Initially, the APL will consist of all CDM products that have been 
evaluated and approved on the CMaaS BPA. New products will be 
continually added to the APL through a DHS evaluation process that 
standardizes the evaluation of products to ensure conformance with DHS 
developed criteria. While the DHS PMO will manage the APL, the CDM SIN 
(contract administration and execution) will be managed by the GSA IT 
Schedule 70 program office.
    Question 7. We have heard of situations where an agency buys a 
cybersecurity tool but never deploys it, commonly referred to as 
``shelfware.'' What options has DHS considered for dealing with this 
problem throughout the Federal Government and within its own 
components? Are there vehicles--for instance, a CDM Task Order calling 
on prime contractors to integrate shelfware--DHS could use to expedite 
the deployment of much-needed cyber tools?
    Answer. Agencies can consult with the Department of Homeland 
Security regarding whether an existing tool, deployed or not, meets 
Continuous Diagnostics and Mitigation (CDM) program requirements. CDM 
publishes a product catalog through the General Services Administration 
(GSA), available on-line, that identifies CDM-approved tools. The CDM 
program has provided labor support to agencies who reported they 
already had existing products but did not have them deployed. Since 
these products were part of the CDM solution, it was deemed in the best 
interest of the Government to ensure they did not remain ``shelfware.'' 
In future phases, CDM will continue to maintain approved product lists 
that crosswalk CDM-approved tools to CDM capabilities. Additionally, 
CDM will offer contract vehicles that agencies can use to fund 
installation, configuration, and integration activities associated with 
existing products already procured by agencies that remain compliant 
with CDM requirements.
    Question 8. From your vantage point, what are the benefits of 
utilizing the acquisition innovation approaches, as developed by DHS's 
Office of Procurement, for cybersecurity acquisitions?
    Answer. The Department of Homeland Security (DHS) is leveraging 
new, innovative approaches for cybersecurity acquisitions. For 
instance, DHS's Procurement Innovation Lab was used to acquire the 
EINSTEIN 3 Accelerated Service Extension contract. This contact was 
awarded in record time with a significant negotiated reduction in cost 
for the service.
    Question 9a. As we learned from the 2015 OPM breach, a successful 
intrusion against a Federal network may compromise sensitive data 
stored in the recent past as well as data that is several years old. In 
fact, many of the victims of the OPM breach had not worked for the 
Federal Government in over a decade.
    When a DHS employee leaves his or her position, what processes does 
DHS follow to ensure that Sensitive but Non-classified information is 
protected on that former employees' computer hard drive, cell phone, 
badge, and other electronic media?
    Answer. Each component is responsible for handling their own check-
out processing. DHS Headquarters (HQ) has an out-processing checklist 
for personnel to follow. This includes reminders to turn in cell 
phones, laptops, badges, travel cards, etc. For example:
  <bullet> Computer hard drive.--Laptop, desktop, and tablet computers 
        issued by HQ are asset-tagged items and require the return of 
        the item when a user departs. DHS HQ rewrites the computer hard 
        disk drive (HDD) during the imaging process for computers being 
        reutilized. For computers being decommissioned, the HDD is 
        removed and shredded by an authorized recycler.
  <bullet> Cell phone.--For all DHS HQ departing users, the cell phone 
        is retrieved and either factory wiped for reuse or it is 
        recycled whereby the phone is destroyed by an authorized 
        recycler.
  <bullet> Other electronic media:
    <bullet> External HDD.--External HDDs issued by DHS OCIO are asset-
            tagged items and require the return of the item when a user 
            departs. DHS OCIO wipes the external HDD if the password is 
            provided, if no password is provided the external HDD is 
            shredded by an authorized recycler.
    Question 9b. To what extent does DHS promote the adoption of cloud 
services, minimizing the amount of data stored on Federal servers, and 
proper destruction of hard drives?
    Answer. DHS promotes the adoption of cloud services, for data 
storage and processing. For instance, DHS is planning to adopt cloud 
email, and DHS components have already migrated some information 
systems into the cloud. While some specialized applications may need to 
continue to remain on servers and hardened systems located in Federal 
facilities, DHS and its components should be able to use cloud storage 
to minimize the amount of data stored on Federal servers. DHS will 
continue its current practice of properly destroying hard drives once 
they are no longer needed.
     Questions From Honorable James R. Langevin for Jeanette Manfra
    Question 1a. In your written testimony, you note that the 
Cybersecurity Act of 2015 required the application of available 
EINSTEIN protections to all information traveling to or from Federal 
information systems by December 2016. While the percentage of traffic 
that is monitored has increased significantly, full protection has not 
yet been achieved.
    What obstacles has NPPD encountered in achieving a full 
implementation of this system across all agencies?
    Question 1b. How will NPPD address them?
    Question 1c. What is the Department's plan for protecting networks 
with E3A that are not served by traditional internet service providers?
    Answer. The Cybersecurity Act of 2015 directs Federal agencies to 
apply and continue to utilize the intrusion detection and prevention 
capabilities made available by the Department of Homeland Security 
(DHS) to all information traveling between an agency information system 
and any information system other than an agency information system. 
These intrusion detection and prevention capabilities made available by 
DHS are known as EINSTEIN.
    Agencies have made significant progress in applying and continuing 
to utilize available EINSTEIN protections since the passage of the 
Cybersecurity Act of 2015. Prior to passage of the Act, EINSTEIN 3A 
protections covered approximately 38 percent of Federal civilian users. 
Today, at least one of the EINSTEIN 3A protections are being utilized 
by over 90 percent of the Executive branch civilian workforce. This 
progress was also supported by engagement from DHS leadership. In May 
2016, the DHS Secretary sent a letter sent to his peers at the largest 
agencies requesting their full participation in EINSTEIN consistent 
with the requirements in law. DHS continues to work with all remaining 
Federal civilian agencies to facilitate their full participation in 
EINSTEIN. At the same time, DHS is developing new capabilities and 
conducting a strategic review of the program architecture in order to 
provide even more protections for Federal agencies.
    While considerable progress has been made since the passage of 
legislation by Congress, there have been some obstacles to achieving 
full implementation. For instance, due to unique network architectures, 
autonomous components, and variations in internet service providers 
(ISPs), large agencies took several weeks or months to fully on-board 
all components. At the smaller agencies, while smaller network 
footprints and the wide-spread use of managed trusted internet protocol 
service make deployment easier, staff resources are limited and 
deployment competes with their day-to-day operational requirements and 
other cybersecurity initiatives. Among the smaller agencies, DHS 
prioritized those that have been proactive and responsive as well as 
those with regulatory and mission-critical responsibilities. Agencies 
use different ISPs, with various levels of experience on-boarding 
agencies, causing a delay for some. Finally, there were technical 
challenges with accommodating a large and diverse customer set with 
unique network infrastructure and technical concerns, such as Internet 
Protocol version 6 and Domain Name System Security Extensions 
capabilities, lack of consolidated Domain Name System, and outdated 
infrastructure. Many agencies use third-party, cloud-based email 
services. DHS may not be able to provision email filtering service for 
all of those agencies due to a number of technical challenges; however, 
work continues with the agencies and their service providers to 
engineer solutions. DHS continues to work closely with agencies to 
resolve technical challenges that arise during deployment of EINSTEIN 
capabilities.
    DHS has contracts with three major ISPs to provide EINSTEIN 
services to Federal civilian Executive branch agencies. In some cases, 
agencies receive service from an ISP other than one of those major 
three. In such cases, DHS competitively awarded a contract to an ISP 
that allows those agencies to route their traffic through a capability 
that allows them to receive protections as well. This contract and 
service is referred to as EINSTEIN 3A Service Extension.
    Question 2a. The DHS Continuous Diagnostic and Mitigation program 
is a step in the right direction to identify the devices and software 
on our Federal networks and to enable timely corrective action.
    What metrics has your organization identified for assessing the 
effectiveness of these measures?
    Question 2b. By what evidence were they selected?
    Question 2c. With respect to CDM Phase IV:
    What are the goals of Phase IV?
    How were those goals selected?
    What is the status of Phase IV implementation?
    What is the time line for deployment of Phase IV technologies 
across the .gov domain?
    Answer. The success of the Continuous Diagnostics and Mitigation 
(CDM) program will be assessed against several criteria, including the 
extent to which Federal agencies use CDM tools, including the Federal 
and agency-level dashboards, to prioritize cybersecurity risks and fix 
the most significant vulnerabilities first. Additionally, CDM is 
looking to achieve a measurable reduction of both the prevalence and 
severity of cybersecurity incidents across Government networks, as a 
result of the CDM tools deployed. The CDM program is refining how 
success is measured and working to define a series of mission outcome 
metrics to measure the impact and effectiveness of the program.
    The first of these metrics is simply gaining a better understanding 
of the total number of assets, or the overall cyber attack surface, in 
agency network environments. Through the discovery process of CDM Phase 
1, there was an overall approximate 44 percent increase in the total 
number of assets on agency networks compared to what agencies had 
previously known through manual tracking. In some agencies, the assets 
identified were more than 200 percent greater than initially reported.
    As CDM tools and technologies are deployed and integrated into the 
agency network environments, the agencies will be able to baseline 
their initial vulnerability and configuration cybersecurity posture 
through their agency dashboard. Likewise, the Federal dashboard will 
display cybersecurity posture across the agencies. From that baseline, 
agencies and DHS will be able to measure improvements in vulnerability 
patching and configuration hardening across the agencies. Already, DHS 
has witnessed multiple examples of agencies prioritizing the patching 
of critical and high-priority vulnerabilities as they gain better 
visibility of their networks with CDM tools. Based on the experience of 
agencies with strong continuous monitoring programs, agency cyber 
hygiene should improve significantly.
    DHS currently measures success of the CDM program through 
collection and analysis of agency FISMA submissions. CDM's deployment 
of Phase 1 tools resulted in noticeable improvement in performance 
measures associated with hardware and software asset management, 
configuration management, as well as vulnerability and patch 
management. DHS will continue to measure effectiveness of CDM efforts 
through continued collection and analysis of FISMA CIO and IG 
performance measures.
    CDM tools, other DHS capabilities, and risk management will help 
agencies Identify, Protect, Detect, Respond, and Recover to cyber 
threats. Already, the CDM program is working to develop measures of 
system importance to capture a better understanding of the protections 
in place for mission-essential and high-value systems. This measure of 
impact, along with metrics for addressing boundary protections and data 
protections on mobile devices and in the cloud, will allow the Federal 
Government to continue to improve at measuring its cybersecurity risk 
in real time. These efforts are informed by risk-scoring research done 
by NIST, prior risk-scoring frameworks used by the agencies, and 
industry risk-scoring approaches.
    The President's fiscal year 2017 budget request included funding 
for a newly-proposed Continuous Diagnostics and Mitigation (CDM) Phase 
4 to expand the CDM program to include additional tools and services to 
protect sensitive and high-value asset data within agency networks. 
While not fully funding the requested level, the fiscal year 2017 
Consolidated Appropriations Act provided funds to begin the planning 
activities necessary to define CDM Phase 4 in preparation for an 
acquisition review in late fiscal year 2018.
    There are fundamental technical steps that have to be in place 
prior to focusing on the data, such as identifying the assurance level 
on the user's identity and the degree of hardening and protections 
within the infrastructure that holds the data. This is done through the 
implementation of key parts of Phases 1, 2, and 3.
    Question 3a. During your testimony, you noted that two of the 
Binding Operational Directives (BODs) were closed and two remain open 
to continuing measuring their effectiveness.
    What were the closure criteria for BOD-16-02 and BOD-16-03?
    When did each agency meet those criteria?
    When were the BODs closed?
    What is the current percentage of critical vulnerabilities that 
remain unmitigated? What percentage of critical vulnerabilities were 
left in place with a justification?
    Question 3b. What is the current state of implementation of BOD-15-
01 and BOD-16-01?
    Question 3c. With respect to implementing all of the BODs:
    What are the most and least responsive agencies?
    What is the average time for compliance?
    Answer. The Secretary of Homeland Security (DHS), in consultation 
with the director of the Office of Management and Budget, has the 
authority to develop and oversee the implementation of binding 
operational directives (BODs). The statute includes specific topics for 
BODs, including requirements for reporting security incidents to DHS's 
National Cybersecurity and Communications Integration Center (NCCIC), 
requirements for the contents of the annual Federal Information 
Security Modernization Act (FISMA) reports, requirements for the 
mitigation of exigent risks to information systems, and other 
operational requirements as the Office of Management and Budget (OMB) 
or DHS, in consultation with OMB, may determine necessary.
    In fiscal years 2015 and 2016, there were four binding operational 
directives:
    BOD 15-01.--In fiscal year 2015, the Secretary issued the first 
BOD, BOD 15-01, Critical Vulnerability Mitigation Requirement for 
Federal Civilian Executive Branch Departments and Agencies' Internet-
Accessible Systems. It directs agencies to mitigate critical 
vulnerabilities discovered by DHS's National Cybersecurity and 
Communications Integration Center (NCCIC) through the NCCIC's scanning 
of agencies' internet-accessible systems. Mitigation is required within 
30 days of notification to the agencies of the vulnerabilities 
discovered by the NCCIC. DHS assesses the effectiveness of this BOD by 
monitoring mitigation time lines. This BOD will remain open given that 
vulnerability scanning occurs regularly and is on-going.
    BOD 16-01.--On June 9, 2016, the Secretary issued BOD 16-01, 
Securing High-Value Assets, to require agency participation in risk and 
vulnerability assessments as well as security architecture assessments 
conducted by DHS on agencies' high-value assets. It further requires 
agencies to mitigate high-priority vulnerabilities discovered during 
the risk and vulnerability assessments.
    Agencies are required to report to DHS the status of mitigating 
each high-priority vulnerability within 30 days of receiving a high-
value asset final assessment report from DHS, and every 30 days 
thereafter until all high-priority vulnerabilities have been addressed. 
The status report must state that the vulnerability has been mitigated 
or explain the constraints preventing mitigation within 30 days and the 
steps being taken by the agency to achieve mitigation. This BOD will 
remain open given ongoing assessments of high-value assets.
    BOD 16-02.--On September 27, 2016, the Secretary issued, BOD 16-02, 
Threat to Network Infrastructure Devices, to address several urgent 
vulnerabilities in network infrastructure devices identified in a NCCIC 
Analysis Report. Specifically, it addressed hacking tools targeting 
firewalls, Cisco Adaptive Security Appliance, and Cisco ROM Monitor 
Integrity. Throughout the directive's reporting period, agencies showed 
progress and actively participated in interagency dialog.
    BOD 16-02 required all Federal agencies to perform actions 
specified in the NCCIC's Analysis Report within 45 days, to report full 
mitigation or a detailed plan of action and milestones, and to provide 
monthly updates until full mitigation is achieved. Federal agencies 
promptly began taking action by implementing solutions or compensating 
controls, and reporting to DHS on a monthly basis. Though not all 
agencies have fully mitigated certain vulnerabilities, all have made 
significant progress and are reporting status and constraints to DHS as 
required. At this time, a very small percentage of potentially impacted 
devices have yet to be reported by the agencies as fully mitigated.
    BOD 16-03.--On October 17, 2016, the Secretary issued, BOD 16-03, 
2016 Agency Cybersecurity Reporting Requirements, to specify reporting 
requirements for cyber incidents and the general information security 
posture of agencies. The Federal Information Security Management Act of 
2014 (FISMA) requires agencies to report cybersecurity incidents to DHS 
and to provide annual reports to OMB, DHS, and Congress on the adequacy 
and effectiveness of information security policies, procedures, and 
practices. FISMA further requires the Secretary to issue one or more 
BODs specifying requirements for this reporting. Federal agencies 
coordinated with DHS to prepare for the updates to the Federal Incident 
Notification guideline changes. The directives in this BOD remain in 
effect for the remainder of fiscal year 2017.
    Regarding the responsiveness of agencies to requirements of BODs, 
all agencies are compliant with the communication requirements and are 
responsive to DHS requests for information. Agencies have been making 
steady progress toward mitigating vulnerabilities and working to 
fulfill the requirements of the BODs. In some cases, certain network 
and system constraints have been affecting the time frame for 
fulfilling requirements in BODs. Agencies have been working through 
such constraints by implementing compensating controls or are working 
with their leadership to determine long-term solutions while reporting 
status to DHS per the requirements in the BODs. In general, most 
agencies have been able to mitigate identified vulnerabilities within 
the initial time frames mandated by specific BODs. For the remaining 
agencies, all have provided regular updates and are in contact with the 
DHS team as they continue to close out remaining actions.
    Question 4a. With respect to the issuance of BODs:
    Which office(s) generates proposals for BODs?
    Question 4b. What criteria are applied to determine whether a BOD 
should be issued?
    Question 4c. What criteria are applied to determine when a BOD 
should be issued?
    Question 4d. Is there any interagency consultation before a BOD is 
issued? What is the nature of the consultation, if it exists?
    Question 4e. Does the Secretary consult with the Office of 
Management and Budget before issuing a BOD? Any other component of the 
Executive Office of the President?
    Question 4f. Has the idea for a BOD ever originated outside of the 
Department of Homeland Security?
    Answer. The Secretary of Homeland Security (DHS), in consultation 
with the director of the Office of Management and Budget, has the 
authority to develop and oversee the implementation of binding 
operational directives (BODs). The statute includes specific topics for 
BODs, including requirements for reporting security incidents to DHS's 
National Cybersecurity and Communications Integration Center (NCCIC), 
requirements for the contents of the annual Federal Information 
Security Modernization Act (FISMA) reports, requirements for the 
mitigation of exigent risks to information systems, and other 
operational requirements as the Office of Management and Budget (OMB) 
or DHS, in consultation with OMB, may determine necessary.
    DHS, acting through the National Protection and Programs 
Directorate, identifies risks or requirements to be addressed through 
BODs. DHS also accepts ideas for potential BODs from entities, such as 
the Federal Chief Information Officer (CIO) Council, independent 
security researchers, or other partners. As needed, DHS may convene a 
group of subject-matter experts from Federal agencies, OMB, and the 
National Institute of Standards and Technology (NIST) to consider the 
relative merits of particular risks in order to determine the 
appropriateness of a given BOD or determine the prioritization of 
different BODs.
    Generally, when determining whether a certain issue is appropriate 
for a BOD, DHS considers the following questions:
  <bullet> Is the proposed BOD related to an active threat? If so, what 
        is the scope and magnitude of the problem?
  <bullet> Is the proposed BOD related to a potential identified risk?
  <bullet> What category/schedule does the potential BOD fit into 
        (planned, escalation of issue, or emergency)?
  <bullet> Is this issue specific to a particular Federal agency or 
        could it be applicable across the civilian Federal Executive 
        branch?
  <bullet> What is the difficulty to exploit the vulnerability?
  <bullet> Is the issue/subject Sensitive or Classified?
  <bullet> Are external events or threat intelligence driving the need 
        for or request of the proposed BOD?
  <bullet> Can the proposed BOD be measured and validated by DHS?
  <bullet> Could the issue or threat be addressed satisfactorily and 
        fully through other mechanisms?
  <bullet> Has DHS socialized the proposed BOD subject with applicable 
        stakeholders, such as CIO/Chief Information Security Officer 
        (CISO) councils?
  <bullet> What is the end-state of proposed BOD?
  <bullet> What other operational requirements have been issued by way 
        of policy, guidance, and standards in relation to this BOD?
  <bullet> Does the BOD address or re-emphasize Federal programs such 
        as CDM, EINSTEIN, automated indicator sharing (AIS), etc.?
  <bullet> Is this BOD associated with the requirements for the content 
        of the annual reports required to be submitted by Federal 
        agencies?
  <bullet> Is this BOD associated with the requirements for reporting 
        incidents to the NCCIC?
        Questions From Honorable Val Demings for Jeanette Manfra
    Question 1. What actions is DHS taking to advance the 
implementation of CDM tools and capabilities at Federal agencies?
    In particular, is the Department providing technical training to 
agency system administrators on the use of the CDM tools so they know 
how to effectively and optimally use the tools to diagnose and mitigate 
vulnerabilities?
    Answer. The Continuous Diagnostics and Mitigation (CDM) program 
anticipated training requirements for operation and management of 
capabilities. Training requirements were included in the contract 
solicitation. All CDM integrators are required to provide sufficient 
training to enable agencies to transition the CDM tools to agency 
operation once the integrator contract is completed.
    Funds available for training are limited, and experience is showing 
that agencies are requesting more detailed, sustained training options. 
As such, one area where additional training is under development is for 
the use of the agency dashboard. CDM is developing on-line, hands-on 
workshops in fiscal year 2017 to assist agencies with understanding how 
to use the CDM agency dashboard. It should be noted that CDM program-
funded training is intended to get agencies transitioned from CDM tool 
implementation to agency operations. Cybersecurity operations and 
sustainment is ultimately the responsibility of each agency, and it is 
the agency's responsibility to engage with DHS to fully utilize 
available resources.
    Question 2. What feedback mechanism does DHS have for soliciting 
and receiving comments from agencies on their experience with the CDM 
program?
    Based on that feedback, what benefits and challenges have the 
agencies identified with the program?
    Answer. During the summer of 2016, the Federal Chief Information 
Officer (CIO) held a CyberStat on the Continuous Diagnostics and 
Mitigation (CDM) program. The CyberStat included program documentation 
review, interviews conducted by Office of Management and Budget (OMB) 
staff with several agencies, and meetings between the Federal CIO and 
the CIO or Chief Information Security Officer (CISO) of each agency. 
This CyberStat was a valuable source of feedback. The Federal CIO noted 
that ``all participants expressed support for the security objectives 
of the program and emphasized their commitment to procuring CDM Phase 1 
tools.''
    Other benefits included:
  <bullet> Establishing a consistent approach toward information 
        security continuous monitoring of networks across the Federal 
        civilian agency enterprise. The Federal Information Security 
        Management Act FISMA of 2002 requires agencies to provide 
        security for the networks that support the operations and 
        assets of their agency. The Federal Information Security 
        Modernization Act of 2014 reiterates those requirements and 
        codifies the Department of Homeland Security's (DHS) authority, 
        in consultation with OMB, to administer the implementation of 
        information security policies and practices for civilian 
        agencies. Through CDM, agencies receive a significant 
        investment by DHS to boost previous efforts and, in many 
        instances, are able to achieve an internally consistent 
        enterprise approach, allowing them to leverage similar product 
        knowledge, subject-matter expertise, and technical support 
        across the agency.
  <bullet> Pioneering an innovative acquisition approach by combining 
        agencies into groups for similar requirements and project 
        efficiencies. By grouping agencies, CDM is achieving economies 
        of scale and reducing pricing for labor and products. To date, 
        CDM has achieved cost avoidance of $600 million on products 
        over the Schedule 70 pricing.
  <bullet> Leveraging a consistent system engineering life cycle, 
        tailored from DHS.
  <bullet> Establishing an approach toward supply chain risk management 
        across the Federal civilian Government enterprise. To date, the 
        program has applied secure delivery controls for well over 1 
        million products delivered to participating agencies.
    Challenges identified by some agencies included issues such as: 
Asset and infrastructure gaps, agency governance and management 
challenges, integrator project management challenges, training and 
knowledge management, entrance on duty requirements, and selection of 
tools and requirements. With regard to the identified gaps, agencies 
noted that CDM revealed a significant number of new end-points, and 
unplanned infrastructure upgrades and modernization may be required to 
support new CDM tool deployments. These activities resulted in budget 
implications for agencies. Further, since additional end-points were 
identified, future-year license maintenance costs will increase, adding 
additional pressure to future budgets. Governance challenges include 
the need for CIO engagement and leadership with clear project 
management. Integrator project management challenges were identified as 
requiring proactive engagement and communications with the agencies, 
and well-documented plans, schedules, etc. The program worked closely 
with each integrator to ensure plans and schedules were clearly 
communicated on a timely basis.
    The CDM program office has worked with OMB on the next steps, 
including implementing improvements and addressing concerns, as 
appropriate. Moving forward, CDM has established a Customer Advisory 
Forum (CAF) comprised of CISOs, or designees, from each agency in order 
to receive feedback on topics of interest and concern. The CAF will 
continue to meet on a bi-monthly basis and will serve as the focal 
point for interagency collaboration related to CDM planning and 
implementation, including customer proposals and adoption, 
organizational and technical challenges, acquisition planning, and 
capability integration priorities.
    Question 3a. GAO made nine recommendations in January 2016 to DHS 
to enhance the functionality of the EINSTEIN program.
    What is the status of DHS efforts to implement those 
recommendations?
    Question 3b. When does the Department expect to fully implement 
them?
    Answer. The nine recommendations made by the Government 
Accountability Office (GAO) and a status update for each are provided 
below.
    Recommendation 1.--``NSD [Network Security Deployment] to determine 
the feasibility of enhancing NCPS's [National Cybersecurity Protection 
System's] current intrusion detection approach to include functionality 
that would detect deviations from normal network behavior baselines.''
    The Department of Homeland Security (DHS) concurred with this 
recommendation. DHS acknowledges that it must rapidly identify, pilot, 
and deploy new technologies and solutions that effectively detect and 
block previously unknown threats. DHS continues to conduct an anomalous 
analytics capability that directly addresses the recommendation to 
``detect deviations from normal network behavior baselines.'' DHS has 
determined that the technology and architectural approach to deploying 
such a capability within the NCPS is feasible. In order to 
operationalize this pilot capability and deliver a production version, 
additional contract resources are required.
    Recommendation 2.--``NSD to determine the feasibility of developing 
enhancements to current intrusion detection capabilities to facilitate 
the scanning of encrypted, SCADA, and IPv6 traffic.''
    DHS concurred with this recommendation. DHS has been conducting an 
analysis on Security on Encrypted Traffic (SonET) to better understand 
options for addressing the challenges of encrypted traffic and engaging 
with the broader standards community to ensure this is being addressed 
at a broader industry level. The SonET analysis study is on-going and 
expected to last through the fourth quarter of fiscal year 2017.
    DHS continues to discuss SCADA traffic with its ICS-CERT to get a 
better understanding of SCADA traffic that passes through network 
gateways. These discussions remain on-going.
    NCPS intrusion detection (EINSTEIN 1 and EINSTEIN 2) sensors are 
capable of scanning Internet Protocol version six (IPv6) traffic. The 
NCPS program is continuing to work with the internet service providers 
(ISPs) providing NCPS intrusion prevention (EINSTEIN 3) capabilities as 
they finalize their plans to fully support IPv6. An implementation plan 
that would address all ISP schedules is expected in the third quarter 
of fiscal year 7.
    Recommendation 3.--``US-CERT to update the tool it uses to manage 
and deploy intrusion detection signatures to include the ability to 
more clearly link signatures to publicly-available, open-source data 
repositories.''
    DHS concurred with this recommendation. DHS developed a capability 
to meet the spirit of this recommendation, and GAO is working to 
formally close out this recommendation.
    Recommendation 4.--``US-CERT to consider the viability of using 
vulnerability information, such as data from the Continuous Diagnostics 
and Mitigation program as it becomes available, as an input into the 
development and management of intrusion detection signatures.''
    DHS concurred with this recommendation. The data available from the 
Continuous Diagnostics and Mitigation (CDM) program will be directly 
relevant to prioritization of signatures. The CDM collection sensors 
will allow analysts to view software vulnerabilities correlated with 
deployments at specific agencies. Based on this information, DHS may 
prioritize signature development based on known exposure rates at an 
agency to detect instances of intrusions and when possible to block 
intrusions. The CDM data may be combined with known vulnerability 
findings from DHS's National Cybersecurity and Communications 
Integration Center (NCCIC) and known threats to further prioritize 
signature development, as necessary. The overall signature development 
process and prioritization needs to take into account victim exposure, 
threat prevalence, and criticality of vulnerabilities in managing risk. 
The data will be viable once CDM is operational and reporting to the 
Federal dashboards. As additional CDM data becomes available, DHS will 
work with GAO to close out this recommendation.
    Recommendation 5.--``US-CERT to develop a time table for finalizing 
the incident notification process, to ensure that customer agencies are 
being sent notifications of potential incidents, which clearly solicit 
feedback on the usefulness and timeliness of the notification.''
    DHS concurred with this recommendation. DHS regularly solicits 
feedback from Federal agencies on the timeliness and usefulness of 
incident reporting. To better support feedback and data quality from 
Federal agencies, DHS, in coordination with the Office of Management 
and Budget (OMB), has completed updates to the Incident Reporting 
Guidelines in order to resolve previously-mentioned process concerns. 
New data quality activities are now in place as of January 2017. 
Additional updates are under development to add a feature change for 
user feedback following incident ticket closure. This feature is 
expected to be implemented by October 2017.
    Recommendation 6.--``The Office of Cybersecurity and Communications 
(CS&C) to develop metrics that clearly measure the effectiveness of 
NCPS's efforts, including the quality, efficiency, and accuracy of 
supporting actions related to detecting and preventing intrusions, 
providing analytic services, and sharing cyber-related information.''
    DHS concurred with this recommendation. In general, cybersecurity 
metrics remain an area of active research in both Government and 
industry, and DHS is exploring opportunities to engage with the 
research community as well. DHS continues to develop metrics. Several 
output and outcome metrics have been identified. The NCCIC is 
continuing to baseline one of the measures related to EINSTEIN 3 
Accelerated for a possible fiscal year addition to the Government 
Performance and Results Act set of measures.
    DHS is working to develop a second set of measures focused on 
information sharing. As part of its customer feedback process, DHS is 
exploring how its public and private-sector recipients of information 
measure the value of cyber threat indicators and defensive measures. 
Work on this response is on-going.
    Recommendation 7.--``CS&C to develop clearly-defined requirements 
for detecting threats on agency internal networks and at cloud service 
providers to help better ensure effective support of information 
security activities.''
    DHS concurred with this recommendation. This recommendation will be 
in large part addressed by Continuous Diagnostics and Mitigation (CDM) 
Phase 3, which will provide agencies with tools to help them understand 
what is happening on their network and identify anomalous activity. 
However, DHS's responsibility in Federal cybersecurity is inherently 
limited by law and policy. Each agency retains responsibility for 
implementing an effective defense-in-depth strategy to protect their 
networks. To this end, DHS requires each agency's consent prior to 
providing any cybersecurity assistance or services, including CDM and 
EINSTEIN.
    Recommendation 8.--``NSD to develop processes and procedures for 
using vulnerability information, such as data from the CDM program as 
it becomes available, to help ensure DHS is using a risk-based approach 
for the selection/development of future NCPS intrusion prevention 
capabilities.''
    DHS concurred with this recommendation. As CDM is focused on 
monitoring the internal assets of an agency's network and NCPS's 
EINSTEIN is positioned on the external network boundary, combining data 
from both programs will allow DHS to understand potentially malicious 
activity that cannot be understood by either program in isolation. As 
CDM data becomes available, DHS will correlate data from EINSTEIN and 
CDM to enhance NCPS's EINSTEIN capabilities, either by enriching 
indicators or by identifying future intrusion prevention capabilities. 
In preparation of future integration efforts, DHS continues to enhance 
the data correlation model of NCPS and CDM. Work is expected to 
continue in fiscal year and will be enhanced as more data becomes 
available from the CDM program.
    Recommendation 9.--``NSD to work with their customer agencies and 
the internet service providers to document secure routing requirements 
in order to better ensure the complete, safe, and effective routing of 
information to NCPS sensors.''
    DHS concurred with this recommendation. DHS has been collaborating 
with the Federal agencies to address their challenges with routing 
traffic through their Trusted Internet Connection (TIC) gateways, to 
include development of alternative approaches for routing Government 
network traffic more efficiently, while maintaining the DHS-required 
situational awareness. The DHS TIC program has been working closely 
with OMB to develop a TIC Action Plan outlining the activities and 
objectives to develop the next generation TIC Reference Architecture. 
This document will serve as the new guidance for agencies on perimeter 
security capabilities as well as alternative routing strategies. It is 
expected that all Federal agencies will be invited to participate in 
this effort, providing feedback on their challenges. At the conclusion 
of this effort, OMB will update policy to align with the new TIC 
Reference Architecture.
    OMB has also been working in parallel on developing cloud policies. 
A Security Architecture Tiger Team consists of agency stakeholders, 
including DHS, to develop a broader security strategy for agency cloud 
adoption. The expectation is that the TIC and cloud policies would be 
aligned. In addition, DHS is working to incorporate the alternative 
routing strategies approaches into its future technical roadmap.
    Also of note, DHS has been working closely with the General 
Services Administration (GSA) on incorporating cybersecurity 
requirements into the next generation GSA EIS contract (formerly 
referred to as Networx 2020). Agencies will use this contract to 
procure internet and telecommunications services. By baking in security 
requirements for internet service providers and telecommunications 
carriers, it should reduce the re-engineering and design efforts 
currently burdening the agencies. The second round of evaluations is 
currently under way.
    Questions From Chairman John Ratcliffe for Gregory C. Wilshusen
    Question 1. At the hearing we discussed DHS's NCPS and CDM 
programs. What other actions can DHS take to assist Federal agencies 
with protecting their information and information systems?
    Answer. DHS can enhance or expand its capabilities to share 
information on cyber threats with Federal agencies. As we reported in 
May 2016, 15 of 18 Federal agencies that we surveyed indicated that a 
lack of Government-wide information-sharing mechanisms limited their 
ability to identify cyber threats to a great or moderate extent.\1\ 
DHS, in its role as the Federal civilian interface for sharing cyber 
threat indicators and cybersecurity risks among Federal and non-Federal 
entities, manages the Automated Indicator Sharing program which was 
created to provide real-time sharing of cyber threat indicators and 
defensive measures. As we reported in February 2017, DHS officials 
stated that seven Federal agencies were connected to the program as of 
August 2016.\2\ Expanding this program to all 24 Federal agencies 
covered by the Chief Financial Officers Act,\3\ which DHS officials 
said they were doing, could improve the cyber threat information 
available to those agencies.
---------------------------------------------------------------------------
    \1\ GAO, Information Security: Agencies Need to Improve Controls 
Over Selected High-Impact Systems, GAO-16-501 (Washington, DC: May 
2016). The 18 agencies we surveyed were those departments and agencies 
covered by the Chief Financial Officers Act that also reported having 
high-impact systems. High-impact systems are those for which the agency 
has determined that the loss of the confidentiality, integrity, or 
availability of the information or information system could result in 
severe or catastrophic harm to the organization's operations, assets, 
or personnel.
    \2\ GAO, Cybersecurity: DHS's National Integration Center Generally 
Performs Required Functions but Needs to Evaluate Its Activities More 
Completely, GAO-17-163 (Washington, DC: February 2017).
    \3\ The 24 departments and agencies covered by the Chief Financial 
Officers Act are the Departments of Agriculture, Commerce, Defense, 
Education, Energy, Health and Human Services, Homeland Security, 
Housing and Urban Development, the Interior, Justice, Labor, State, 
Transportation, the Treasury, and Veterans Affairs; the Environmental 
Protection Agency, General Services Administration, National 
Aeronautics and Space Administration, National Science Foundation, 
Nuclear Regulatory Commission, Office of Personnel Management, Small 
Business Administration, Social Security Administration, and U.S. 
Agency for International Development.
---------------------------------------------------------------------------
    DHS can also issue binding operational directives that require 
agencies to take specific actions to safeguard Federal systems and 
information from a known or reasonably-suspected information security 
threat, vulnerability, or risk. The Federal Information Security 
Modernization Act of 2014 (FISMA)\4\ authorizes the Secretary of 
Homeland Security to administer the implementation of agency 
information security policies and practices for information systems, 
including developing and overseeing the implementation of binding 
operational directives. The directives are compulsory directions to an 
agency to implement policies, standards, and guidelines developed by 
the Director of the Office of Management and Budget and can include 
requirements for the mitigation of exigent risks to information 
systems. As of March 2017, 27 months after receiving this authority, 
DHS has issued four directives.
---------------------------------------------------------------------------
    \4\ (Pub. L. No. 113-283, Dec. 18, 2014).
---------------------------------------------------------------------------
    In addition, DHS can provide operational and technical assistance 
to agencies in implementing policies, principles, standards, and 
guidelines on information security by developing and conducting 
targeted operational evaluations, including threat and vulnerability 
assessments, on the agencies' information systems. Authorized by FISMA, 
these assessments can provide agencies with information on how to 
harden their security and identify the signs that an attacker is on 
their network.
    Further, DHS can continue to participate in CyberStat reviews. As 
explained in my written testimony statement, these reviews are in-depth 
sessions with National Security Staff, OMB, DHS, and an agency to 
discuss that agency's cybersecurity posture and opportunities for 
collaboration. According to OMB, these interviews are face-to-face, 
evidence-based meetings intended to ensure that agencies are 
accountable for their cybersecurity posture. The sessions are to assist 
the agencies in developing focused strategies for improving their 
information security posture in areas where there are challenges.\5\
---------------------------------------------------------------------------
    \5\ GAO, Information Security: DHS Needs to Continue to Advance 
Initiatives to Protect Federal Systems, GAO-17-518T (Washington, DC: 
March 2017).
---------------------------------------------------------------------------
    Question 2. What does DHS need to consider to ensure CDM objectives 
and requirements keep pace with the rapidly-evolving nature of cyber 
threats?
    Answer. DHS needs to consider the adaptability and flexibility of 
the tools and services it offers to agencies under the CDM program. The 
program is to provide agencies with the tools and services to identify 
cybersecurity risks on an on-going basis, prioritize these risks based 
on potential impacts, and enable cybersecurity personnel to mitigate 
the most significant problems first. CDM tools include sensors that 
perform automated searches for known cybersecurity vulnerabilities, the 
results of which can feed into a dashboard that alerts network 
managers. Because of the rapidly-evolving nature of cyber threats and 
the continual discovery of new vulnerabilities in information systems, 
DHS needs to ensure that CDM tools can be refreshed or updated on a 
regular basis to reflect the current state of cyber threats and 
vulnerabilities. Associated with this capability is the need to ensure 
that there is a mechanism for delivering system updates to the tools 
that have been deployed at Federal agencies.
    In addition, as we recommended in January 2016, DHS should consider 
the viability of using vulnerability data garnered through the CDM 
program as it becomes available as an input into the development and 
management of intrusion detection signatures for the EINSTEIN intrusion 
detection/intrusion prevention system. DHS concurred with our 
recommendation and indicated that it was working to implement this 
recommendation.
    Question 3. One of the priorities of this committee is to ensure 
the Federal Government is effectively leveraging innovative 
cybersecurity technologies. The private sector today is able to readily 
leverage the latest security services through commercial cloud 
capabilities. What role should DHS play in helping Federal agencies 
consider and potentially migrate to the cloud?
    Answer. As one of three members of the Federal Risk and 
Authorization Management Program's (FedRAMP)\6\ Joint Authorization 
Board, the DHS Chief Information Officer (CIO) plays a key role in 
helping Federal agencies consider and potentially migrate to the cloud. 
The board defines and establishes the FedRAMP baseline system security 
controls and the accreditation criteria for third-party assessment 
organizations. The DHS CIO and other board members help ensure that 
baseline security controls are incorporated into consistent and 
repeatable processes for security assessment and authorizations of 
cloud service providers. In this way, the DHS CIO helps agencies 
achieve a level of assurance regarding the security controls 
implemented by cloud service providers that receive a board provisional 
authority to operate.
---------------------------------------------------------------------------
    \6\ FedRAMP is a Government-wide program intended to provide a 
standardized approach to security assessment, authorization, and 
continuous monitoring for cloud computing products and services.
---------------------------------------------------------------------------
    In addition, DHS can assist agency migration to the cloud by:
  <bullet> assisting Government-wide and agency-specific efforts to 
        provide adequate, risk-based, and cost-effective cybersecurity;
  <bullet> coordinating cybersecurity operations and incident response;
  <bullet> developing continuous monitoring guidelines for on-going 
        cybersecurity of Federal information systems; and
  <bullet> developing guidance on agency implementation of the Trusted 
        Internet Connection program \7\ with cloud services.
---------------------------------------------------------------------------
    \7\ The Trusted Internet Connection program is intended to improve 
security by reducing and consolidating agency external network 
connections and by providing centralized monitoring at a select group 
of access providers.
---------------------------------------------------------------------------
    Questions From Honorable James Langevin for Gregory C. Wilshusen
    Question 1. In your written testimony you spoke to the challenges 
that DHS has in securing and defending the .gov domain.
    Are these issues driven by a lack of authority, resources, or 
execution?
    Answer. DHS efforts in securing and defending the .gov domain have 
been hampered, in part, by execution shortfalls. For example, as we 
reported in January 2016, DHS's National Cybersecurity Protection 
System (NCPS) was partially, but not fully, meeting its stated 
objectives. The system's ability to detect potentially malicious 
activity entering or exiting computer networks at Federal agencies was 
limited because DHS did not design the system to: (1) Monitor all types 
of network traffic, (2) detect variations from pre-defined baselines of 
normal network activity, or (3) detect malicious traffic that exploits 
many common security vulnerabilities.
    In addition, the Department had not implemented an effective 
information-sharing mechanism for alerting agencies to potentially 
malicious traffic entering their networks or for receiving feedback on 
the usefulness of the alerts. DHS also had not developed or provided 
guidance to agencies on how to route network traffic securely through 
the NCPS's sensors, resulting in some network traffic bypassing the 
sensors. As a result of these execution shortfalls, DHS had limited 
assurance that the system could be effective in securing and defending 
the .gov domain.
    Question 2. What executive or legislative measures can be taken to 
ensure that we have adequate talent within the Government to address 
the increasing cyber threat?
    Answer. Several Executive branch initiatives have been launched and 
Federal laws enacted that address the Federal cybersecurity workforce. 
For example, in July 2016, the Office of Personnel Management and the 
Office of Management and Budget issued a strategy with goals, actions, 
and time lines for improving the cybersecurity workforce. In addition, 
laws such as the Federal Cybersecurity Workforce Assessment Act of 2015 
require agencies to identify IT and cyber-related positions of greatest 
need. Further, other on-going activities have the potential to assist 
agencies in developing, recruiting, and retaining an effective 
cybersecurity workforce. For example:
  <bullet> Promoting cyber and science, technology, engineering and 
        mathematics (STEM) education.--A center funded by DHS developed 
        a kindergarten to 12th grade-level cyber-based curriculum that 
        provides opportunities for students to become aware of cyber 
        issues, engage in cyber education, and enter cyber career 
        fields.
  <bullet> Cybersecurity scholarships.--Programs such as Scholarship 
        for Service provide tuition assistance to undergraduate and 
        graduate students studying cybersecurity in exchange for a 
        commitment to Federal service.
  <bullet> National Initiative for Cybersecurity Careers and Studies.--
        DHS, in partnership with several other agencies, launched the 
        National Initiative for Cybersecurity Careers and Studies in 
        2013 as an on-line resource to connect Government employees, 
        students, educators, and industry with cybersecurity training 
        providers across the Nation.
    If effectively implemented, these initiatives, laws, and activities 
could further agencies' efforts to establish the cybersecurity 
workforce needed to secure and protect Federal IT systems.
    Question 3. What specific challenges does DHS face in protecting or 
assisting the protection of .gov assets that are owned by other 
agencies?
    Answer. One of the challenges DHS may face in protecting or 
assisting the protection of .gov assets that are owned by other 
agencies is having limited insight into what .gov assets the agencies 
actually own. Agencies may not have complete inventories of the 
hardware, software, and firmware on their networks. Additionally, if 
the agencies do have such inventories, they may be reluctant to share 
them with DHS.
    Another challenge is that DHS may lack visibility into the 
architecture and structure of the agencies' computing environments, 
networks, and interconnections with other networks. Agencies may not be 
willing to allow DHS access to scan and monitor their internal networks 
thereby limiting DHS's capability to have first-hand knowledge of the 
security configurations of the networks.
       Questions From Chairman John Ratcliffe for Chris Jaikaran
    Question 1. At the hearing we discussed DHS's NCPS and CDM 
programs. What other actions can DHS take to assist Federal agencies 
with protecting their information and information systems?
    The National Cybersecurity Protection System (NCPS) monitors and 
analyzes traffic between the public internet and agency networks. With 
certain tools, NCPS may also block malicious internet traffic. The 
Continuous Diagnostics and Mitigation (CDM) program scans agency 
networks to discover what is operating on those networks and 
information about those devices. The results of those scans are 
combined with threat intelligence to assist system administrators in 
prioritizing which updates to apply and on Congressional Research 
Service which systems to focus. Actions that DHS may take to assist 
Federal agencies with protecting their information and information 
systems may be considered under two constructs: What the Department may 
do under existing law; and those for which the Department would need 
additional Congressional support to perform (either in resources or 
authorization).
    First, under existing authorities and resources, DHS has options to 
further assist agencies. DHS was granted authorities under the National 
Cybersecurity Protection Act of 2014 (Pub. L. 113-282) and the 
Cybersecurity Act of 2015 (Pub. L. 114-113) to provide technical 
assistance, incident response, and information-sharing capabilities to 
both Federal and non-Federal entities. The Federal Information Security 
Modernization Act (Pub. L. 113-283, otherwise known as FISMA) provided 
further guidance on the scope and type of technical assistance DHS may 
provide to Federal entities. Such assistance may include conducting 
evaluations of agency networks to determine how vulnerable systems are, 
analyzing data on agency networks, and providing technologies to 
mitigate threats with or without reimbursement. FISMA further allows 
DHS to issue binding operational directives (BODs). BODs are memoranda 
from the Secretary of Homeland Security to other Department and agency 
heads compelling them to take action to secure information technology 
systems. DHS may exercise any of these authorities with greater 
frequency or through novel approaches to further assist agencies. For 
instance, DHS may opt to issue BODs for a greater number of security 
purposes. However, depending on the type of activity required by that 
BOD, DHS may lack a way of independently verifying agency compliance 
with the required action. Without that verification and subsequent 
reporting to OMB on compliance future BODs run the risk of being 
ignored by the agencies. DHS could alternatively opt to prioritize on-
site technical assistance to Federal agencies so the agency may use 
analysts to hunt for and identify security vulnerabilities and develop 
a custom plan to address those vulnerabilities. However, prioritizing 
these types of services to Federal agencies could result in fewer of 
these types of services being available for the private sector, because 
DHS has a limited number of teams (the DHS fiscal year budget 
justification requested additional funds for more teams).\1\
---------------------------------------------------------------------------
    \1\ Jeh Johnson, ``Remarks by Secretary of Homeland Security Jeh C. 
Johnson on the State of Homeland Security,'' speech, February 11, 2016, 
at https://www.dhs.gov/news/2016/02/11/remarks-secretary-homeland-
security-jeh-c-johnson-state-homeland-security.
---------------------------------------------------------------------------
    Options exist which would require additional Congressional action 
for DHS to provide further assistance to agencies. FISMA allows for DHS 
to provide technologies to mitigate threats to agencies with or without 
reimbursement. To date, DHS provides monitoring of traffic coming in 
and out of agency networks, but not for system activity inside the 
external perimeter of an agency network. DHS's CDM program discovers 
end-points and vulnerabilities on end-points inside that perimeter, but 
does not look for malicious activity on-going inside the network. 
Discovering malicious activity inside an agency's network may be an 
area where DHS can expand its portfolio of protection technologies-
borrowing from the NCPS and CDM models to build and procure tools, and 
manage the deployment and operations of those tools once installed at 
agencies. Alternatively, DHS could spend additional resources and 
bolster the programs they currently operate. A criticism of NCPS is 
that it is a signature-based system; The system relies on having 
previously seen an indicator of the bad traffic before taking action. 
DHS is currently conducting a pilot program on non-signature-based 
solutions for NCPS.\2\ Additional resources could be applied to expand 
this program so that a greater number of agencies may more rapidly take 
advantage of it.
---------------------------------------------------------------------------
    \2\ Jeanette Manfra, ``Regarding Federal Network Cybersecurity,'' 
written testimony, March 28, 2017, at  http://docs.house.gov/meetings/
HM/HM08/20170328/105778/HHRG-115-HM08-Bio-ManfraJ-20170328.pdf.
---------------------------------------------------------------------------
    Question 2. What does DHS need to consider to ensure that CDM 
objectives and requirements keep pace with the rapidly-evolving nature 
of cyber threats?
    Answer. CDM uses tools that scan agency networks for end-points 
running on those networks, identify vulnerabilities inherent on those 
end-points (such as running an outdated version of software), and 
display those results on a dashboard for system administrators to 
analyze. The results of the scans are then coupled with threat 
intelligence to determine which vulnerabilities are under exploit, 
which provides system administrators with a way to prioritize their 
greatest risks for remediation. CDM allows system administrators to 
address the vulnerabilities on their systems, informed by, but agnostic 
to, what threat actors are doing or motivated by. CDM helps system 
administrators discover what vulnerabilities are on their system, but 
does not address concerns of how hackers exploit those vulnerabilities 
or which systems hackers are likely to target. Because the program is 
internal-looking, the evolving nature of threats is an indirect 
concern. CDM is a program that focuses more on ensuring systems are as 
secure and resilient as they can be, regardless of what threats exist.
    While the CDM program as a whole is threat-agnostic, the benefit 
the dashboard provides to system administrators (both informing them of 
their vulnerabilities and alerting them to vulnerabilities under 
exploit by adversaries) is concerned with evolving threats. Ensuring 
that threat analytics remains a part of the CDM program, and can be 
displayed in a way to system administrators so that they can easily 
prioritize limited resources to remediating the greatest risks, is a 
key element of the program. DHS could seek to bolster relationships 
with the intelligence community and security researchers so that the 
National Cybersecurity and Communications Integration Center (NCCIC) 
maintains situational awareness of evolving threats and how those 
threats are being implemented. Once the organization has knowledge of 
those threats, they could then integrate that information into CDM to 
reach Federal agencies. Additionally, DHS could purchase cyber threat 
indicators from security companies to include in their in-house threat 
reporting and to inform the CDM program about which vulnerabilities are 
of greatest risk.\3\
---------------------------------------------------------------------------
    \3\ ``Cyber threat indicator'' is defined in the Cybersecurity 
Information Sharing Act of 2015, in 6 USC Sec. 1501 (6).
---------------------------------------------------------------------------
    DHS operates other programs that are more concerned with threats. 
Understanding threat actors, their motivations, their targets, and 
their techniques helps DHS produce relevant mitigation strategies to 
share with agencies and critical infrastructure entities. One potential 
limitation of CDM arises if the program identifies a vulnerability 
under active exploit by a threat actor, but the vendor who provided the 
product has not produced a patch for the vulnerability. In an instance 
like this, DHS's tools would likely be able to identify the weakness 
but not provide a recommendation for securing it. Instead, DHS may 
resource a team to develop other mitigating strategies that agencies 
may deploy in the interim--so as to provide the vulnerable agency with 
positive actions they may undertake to shore up their security.
    Question 3. One of the priorities of this committee is to ensure 
the Federal Government is effectively leveraging innovative 
cybersecurity technologies. The private sector today is able to readily 
leverage the latest security services through commercial cloud 
capabilities. What role should DHS play in helping Federal agencies 
consider and potentially migrate to the cloud?
    Answer. Through the use of cloud-enabling technologies, entities 
may take advantage of a provider's processing power, storage capacity, 
or a combination of both to add additional capacity, capability, or 
flexibility to their own information technology systems. Cloud 
providers furnish computing services to customers through one of three 
service models:\4\
---------------------------------------------------------------------------
    \4\ Peter Mell and Timothy Grance, ``The NIST Definition of Cloud 
Computing,'' Special Publication 800-145, September 2011, at http://
nvlpubs.nist.gov/nistpubs/Legacy/SP/nistspecialpublication800-145.pdf.
---------------------------------------------------------------------------
    1. Infrastructure as a Service.--In this model the cloud provider 
        provides the hardware and network connection for their 
        customer, who in turn installs and maintains the applications 
        on those servers to meet their needs. Products in which 
        customers rent processing power or storage from a provider are 
        examples of Infrastructure as a Service.
    2. Platform as a Service.--In this model the cloud provider 
        provides the hardware, connectivity, and underlying appliance 
        onto which customers move their data. Products which provide 
        databases or provide a development environment are examples of 
        platform as a service.
    3. Software as a Service.--In this model the cloud provider 
        provides the hardware, connectivity, and software to the 
        customer, along with management of the service. Products in 
        which a customer only needs a user name and password because 
        the entire user interface, application, and back-end are 
        provided on-line are examples of Software as a Service.
    Cloud environments can be public (i.e., leasable through the 
internet), or private (i.e., built and managed in-house or by a 
partner) and accessible without a connection to the public internet, or 
a combination of the two.\5\ There have been previous attempts to 
assist agencies in shedding their current, in-house system architecture 
and migrate to cloud providers.\6\
---------------------------------------------------------------------------
    \5\ Ibid.
    \6\ Vivek Kundra, ``Federal Cloud Computer Strategy,'' strategy, 
February 8, 2011, at https://www.dhs.gov/sites/default/files/
publications/digital-strategy/Federal-cloud-computing-strategy.pdf.
---------------------------------------------------------------------------
    DHS currently plays a role in assisting agencies in their migration 
to cloud technology through FedRAMP. FedRAMP is a Federal program run 
out of GSA which examines public cloud providers and assesses their 
security in order to assist agencies in choosing a cloud provider and 
using their services. DHS is a member of the FedRAMP Joint 
Authorization Board (JAB), which provides preliminary authorization for 
cloud providers to offer services through FedRAMP, and helps in the 
governance and operations of the FedRAMP program.\7\ In addition to 
being on the JAB, DHS provides expertise and assistance to the GSA in 
the management of the program.
---------------------------------------------------------------------------
    \7\ www.fedramp.gov.
---------------------------------------------------------------------------
    As agencies consider moving to cloud architecture, they consider 
their level of risk exposure under their current architecture, their 
risk exposure by moving to a cloud provider, and weigh the benefits and 
costs to the migration. DHS may assist agencies in understanding their 
own risk by performing technical evaluations of their security posture 
and providing intelligence analysis on threats the agency may face for 
the mission they perform or the data they store. Possessing this 
information, agencies may be better-informed in understanding the risks 
and plotting their future system architecture.
    Alternatively, DHS may coordinate agency activities to migrate to 
cloud infrastructure. Under current authorities, DHS may coordinate 
information security operations across Government agencies to ensure 
effective implementation.\8\ DHS may compile a series of case studies 
and recommendations based on agency migrations to cloud providers to 
assist other agencies in evaluating their potential migration to the 
cloud.
---------------------------------------------------------------------------
    \8\ 44 U.S.C. Sec. 3553 (b).
---------------------------------------------------------------------------

                                 <all>
</pre></body></html>
